<html>
<title> - THE POTENTIAL IMPLICATIONS OF ELIMINATING BROAD-BASED CATEGORICAL. ELIGIBILITY FOR SNAP HOUSEHOLDS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     THE POTENTIAL IMPLICATIONS OF 
                  ELIMINATING BROAD-BASED CATEGORICAL
                    ELIGIBILITY FOR SNAP HOUSEHOLDS

=======================================================================

                                HEARING

                               BEFORE THE

    SUBCOMMITTEE ON NUTRITION, OVERSIGHT, AND DEPARTMENT OPERATIONS

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 20, 2019

                               __________

                           Serial No. 116-12


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-928 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

    Subcommittee on Nutrition, Oversight, and Department Operations

                      MARCIA L. FUDGE, Ohio, Chair

JAMES P. McGOVERN, Massachusetts     DUSTY JOHNSON, South Dakota,  
ALMA S. ADAMS, North Carolina        Ranking Minority Member
JAHANA HAYES, Connecticut            SCOTT DesJARLAIS, Tennessee
KIM SCHRIER, Washington              RODNEY DAVIS, Illinois
JEFFERSON VAN DREW, New Jersey       TED S. YOHO, Florida
AL LAWSON, Jr., Florida              DON BACON, Nebraska
JIMMY PANETTA, California            JIM HAGEDORN, Minnesota

             Jasmine Dickerson, Subcommittee Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................     6
Fudge, Hon. Marcia L., a Representative in Congress from Ohio, 
  opening statement..............................................     1
    Prepared statement...........................................     3
Johnson, Hon. Dusty, a Representative in Congress from South 
  Dakota, opening statement......................................     4
    Submitted article............................................   107
    Submitted report.............................................   109

                               Witnesses

Barnes, Hon. Mandela, Lieutenant Governor, State of Wisconsin, 
  Madison, WI....................................................     8
    Prepared statement...........................................    10
    Supplementary material.......................................   114
Davis, Ph.D., John, Executive Director, Mississippi Department of 
  Human Services, Brookhaven, MS.................................    13
    Prepared statement...........................................    15
Davis, J.D., Lisa, Senior Vice President, No Kid Hungry Campaign, 
  Share Our Strength, Washington, D.C............................    67
    Prepared statement...........................................    68
    Submitted question...........................................   115
Waxman, M.P.P., Ph.D., Elaine, Senior Fellow, Income and Benefits 
  Policy Center, Urban Institute, Washington, D.C................    75
    Prepared statement...........................................    77
    Submitted questions..........................................   116

 
                     THE POTENTIAL IMPLICATIONS OF 
                  ELIMINATING BROAD-BASED CATEGORICAL.
                    ELIGIBILITY FOR SNAP HOUSEHOLDS

                              ----------                              


                        THURSDAY, JUNE 20, 2019

                          House of Representatives,
      Subcommittee on Nutrition, Oversight, and Department 
                                                Operations,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 1300, Longworth House Office Building, Hon. Marcia L. 
Fudge [Chair of the Subcommittee] presiding.
    Members present: Representatives Fudge, McGovern, Adams, 
Hayes, Schrier, Van Drew, Lawson, Johnson, Davis, Yoho, Bacon, 
Hagedorn, and Conaway (ex officio).
    Staff present: Kellie Adesina, Jasmine Dickerson, Alison 
Titus, Bart Fischer, Patricia Straughn, Jennifer Tiller, Dana 
Sandman, and Jennifer Yezak.

OPENING STATEMENT OF HON. MARCIA L. FUDGE, A REPRESENTATIVE IN 
                       CONGRESS FROM OHIO

    The Chair. Good afternoon. This hearing of the Subcommittee 
on Nutrition, Oversight, and Department Operations, entitled 
The Potential Implications of Eliminating Broad-Based 
Categorical Eligibility for SNAP Households, will come to 
order.
    Let me begin with my statement.
    The purpose of today's hearing is to examine the impact of 
any potential action by the Administration to eliminate or 
dramatically restrict the Supplemental Nutrition Assistance 
Program's use of categorical eligibility, or cat-el. Cat-el is 
a longstanding bipartisan policy that helps streamline the 
administration of social service programs for states.
    According to the Congressional Budget Office, eliminating 
broad-based cat-el would mean 400,000 eligible households would 
lose SNAP benefits. An estimated 265,000 eligible children 
would lose direct access to free school meals.
    Unfortunately, this isn't the first time in recent memory 
that changes to cat-el have been offered by our Republican 
colleagues. A similar proposal was included in the House-passed 
2014 Farm Bill, and, again, the same attempt was made during 
last year's farm bill negotiations. In both cases, Congress 
debated the issue, and the proposals were ultimately excluded 
from the final conference agreements.
    I believe these ill-conceived attempts to eliminate broad-
based cat-el were unsuccessful, in part, because cat-el is a 
state option that is widely used. Forty-three states and 
territories, including many with Republican Governors, use 
broad-based categorical eligibility. These states rely on cat-
el for its flexibility to provide critical assistance to those 
in their respective states in need of a hand up and to make 
ends meet.
    Cat-el enables states to better meet the needs of 
hardworking families by matching gross income qualifications 
with the Temporary Assistance for Needy Families, or TANF 
program, and SNAP.
    As I have said previously, Republicans love talking about 
states' rights, providing states flexibility, and handing over 
to the states the administration of Federal safety net 
programs, but when it comes to putting that rhetoric into 
practice for SNAP, they want something very different, this, 
despite decades of proof that cat-el provides states the 
flexibility they need and want to better serve vulnerable 
households. Eliminating cat-el would increase the burden on 
states while providing no additional resources for the extra 
paperwork and personnel. It is just another unfunded mandate 
for the states. It seems Republicans only like to promise 
states' rights when it means cutting off access to benefits and 
weakening the social safety net.
    At the same time, the Administration is working to restrict 
states' use of cat-el, the USDA issued guidance encouraging 
SNAP states to adopt flexibilities to pursue child support 
orders, a widely unpopular and sparsely used state option with 
high associated administrative costs. The party of states' 
rights seems more interested in a one-size-fits-all approach 
based solely on conservative ideology.
    They continue to criticize the program from on high. They 
talk about the dignity of work and the cycle of poverty using 
pseudo-academic data from armchair think tanks. And they ignore 
already-strict work requirements in statute to paint a 
dishonest picture of greedy, shiftless welfare sponges. At 
every turn, Republicans invoke the welfare reform of President 
Bill Clinton in the 1990s. Well, we have news for you: It was 
Clinton and then-Speaker Newt Gingrich who established cat-el 
as the law of the land, a bipartisan, state-centered approach.
    The Administration's Fiscal Year 2020 budget forewarned us 
of potential changes to cat-el, so it is no surprise that there 
is a related pending rule in USDA's regulatory agenda. Now here 
we are again with my Republican colleagues looking to the White 
House to accomplish what they could not: dramatically change 
cat-el.
    Again I ask, what do Congressional Republicans and this 
Administration have against poor people? I have asked that 
question in past hearings on this issue, across multiple 
Congresses.
    I am willing and eager to engage my Republican colleagues 
in a conversation about how to make this program more effective 
and accessible to hungry Americans so long as that conversation 
does not start with the same tired attempts to reduce the SNAP 
rolls. That is not a conversation that I am willing to have.
    [The prepared statement of Ms. Fudge follows:]

    Prepared Statement of Hon. Marcia L. Fudge, a Representative in 
                           Congress from Ohio
    Thank you for joining us today.
    The purpose of today's hearing is to examine the impact of any 
potential action by the Administration to eliminate or dramatically 
restrict the Supplemental Nutrition Assistance Program's use of 
categorical eligibility (cat-el). Cat-el is a longstanding bipartisan 
policy that helps streamline the administration of social service 
programs for states.
    According to the Congressional Budget Office (CBO) eliminating 
broad-based cat-el would mean 400,000 eligible households would lose 
SNAP benefits. An estimated 265,000 eligible children would lose direct 
access to free school meals.
    Unfortunately, this isn't the first time in recent memory that 
changes to cat-el have been offered by our Republican colleagues.
    A similar proposal was included in the House-passed 2014 Farm Bill 
and again, the same attempt was made during last year's farm bill 
negotiations.
    In both cases, Congress debated the issue and the proposals were 
ultimately excluded from the final conference agreements.
    I believe these ill-conceived attempts to eliminate broad-based 
cat-el were unsuccessful, in part, because cat-el is a state option 
that is widely used.
    Forty-three (43) states and territories--including many with 
Republican Governors--use broad-based categorical eligibility.
    These states rely on cat-el for its flexibility to provide critical 
assistance to those in their respective states in need of a hand up to 
make ends meet.
    Categorical eligibility enables states to better meet the needs of 
hard-working families by matching gross income qualifications with the 
Temporary Assistance for Needy Families, or TANF program, and SNAP.
    As I've said previously, Republicans love talking about states' 
rights, promoting state flexibility, and handing over to states the 
administration of Federal safety net programs.
    But when it comes to putting that rhetoric into practice for SNAP, 
they want something very different. This despite decades of proof that 
cat-el provides states the flexibility they need and want to better 
serve vulnerable households.
    Eliminating cat-el would increase the burden on states, while 
providing no additional resources for the extra paperwork and 
personnel, another unfunded mandate for states.
    It seems Republicans only like to promote states' rights when it 
means cutting off access to benefits and weakening the social safety 
net. At the same time the Administration is working to restrict states' 
use of cat-el, USDA issued guidance encouraging SNAP states to adopt 
flexibilities to pursue child support orders; a widely unpopular and 
sparsely used state option with high associated administrative costs.
    ``The party of states' rights'' seems more interested in a one-
size-fits-all approach based solely on conservative ideology.
    They continue to criticize the program from on high; they talk 
about the `dignity of work' and the `cycle of poverty' using pseudo-
academic data from armchair thinktanks; and they ignore already-strict 
work requirements in statute to paint a dishonest picture of greedy, 
shiftless welfare sponges.
    At every turn, Republicans invoke the welfare reform of President 
Bill Clinton in the mid-1990s.
    Well I've got news for you: it was Clinton and then-Speaker Newt 
Gingrich who established cat-el as the law of the land--a bipartisan, 
state-centered approach.
    The Administration's FY 2020 budget forewarned us of potential 
changes to cat-el, so it's no surprise that there is a related pending 
rule in USDA's regulatory agenda.
    Now here we are again with my Republican colleagues looking to the 
White House to accomplish what they could not--dramatically change cat-
el.
    Again, I ask what do Congressional Republicans and this 
Administration have against poor people? I've asked that question in 
past hearings on this issue, across multiple Congresses.
    I am willing and eager to engage my Republican colleagues in a 
conversation about how to make this program more effective and 
accessible to hungry Americans. So long as that conversation does not 
start with the same tired attempts to reduce the SNAP rolls. That's not 
a conversation that I'm willing to have.

    The Chair. I now recognize Ranking Member Johnson for his 
opening statement.

 OPENING STATEMENT OF HON. DUSTY JOHNSON, A REPRESENTATIVE IN 
                   CONGRESS FROM SOUTH DAKOTA

    Mr. Johnson. Thank you, Madam Chair.
    And I do appreciate the opportunity for us to have a 
hearing on a loophole within this food stamp program that is 
desperately in need of improvement.
    There are times when broad-based categorical eligibility 
is, frankly, an embarrassment. There are times when it simply 
doesn't work.
    And I know we will hear some comments, hopefully we will 
have some good discussion today, about administrative 
efficiencies. I suspect we will hear some hyperbolic examples 
of how changes to this BBCE can have a decimating impact on 
school lunch programs.
    And I think what I try to keep in mind is that we do need 
to find a positive way forward and that scare tactics, false 
advocacy, they don't hide the true issue here, and that is, 
there are times when overreaching eligibility for this program 
means that we are not targeting this program to our most needy 
friends and neighbors. We should make no doubt about it: We 
need the SNAP program, and we need it to be effective.
    Above all, of course, states must convey SNAP benefits to 
those who apply to other social safety net programs. And there 
are all kinds of instances where that makes sense. But through 
imperfect regulatory language, states are permitted additional 
administrative flexibilities, and some states have abused that 
flexibility.
    Let's take Vermont, for instance, where the receipt of a 
bookmark can provide eligibility for the SNAP program. And in 
other states, eligibility can be granted via a line on an 
application, a pamphlet with information that isn't even 
relevant to the household receiving it, a brochure that is for 
a different program entirely, that that program, again, doesn't 
qualify for.
    I am looking right now at Mr. Rob Undersander. He is a 
Minnesota millionaire.
    And, Mr. Undersander, welcome.
    This is a man with assets in the millions who was able to 
receive more than a nominal amount of SNAP benefit for months 
and months. And he didn't do this out of any kind of a dark 
heart; he did this to call attention to the fact that there are 
flaws in the system. And it is Minnesota's abuses of this 
administrative flexibility that has caused this problem.
    I want to make it very clear: the data suggests that Mr. 
Undersander is not alone. A report prepared for USDA found that 
most income-eligible households with financial resources 
exceeding the Federal resource limit have more than $20,000 in 
countable assets. One in five had more than $100,000 in assets, 
including tens of thousands of households with more than $1 
million in assets. Mr. Undersander is not alone.
    Now, I want to make it clear: I am not impugning his 
reputation. He didn't lie on any forms. He simply exposed the 
flaws of a failed system. It isn't his fault that we in D.C. 
haven't done our job.
    Receiving a check from our social safety net programs 
should not be easier than applying for a job. And if 
millionaires can receive these benefits, as they have, this 
Committee has work to do.
    Defenders of this regulatory flexibility claim it reduces 
administrative costs. And I worked in state government for 12 
years, at times very involved in our welfare programs, and I 
just have not seen evidence, real evidence, that that is 
necessarily the case. In fact, most state administrative costs 
are high because of program enrollment. The more folks you 
enroll, the higher your administrative costs. And so closing 
this loophole could reduce administrative costs by $660 million 
per year.
    And I think it is right that we ask the question here: what 
about the poor people? How do we help them? That is the goal of 
programs like this. And so I look at that $660 million through 
a really critically important lens, which is: Those dollars 
could be better deployed to meet the critical goals and mission 
of this program.
    I sit on the Education and Labor Committee, where, just a 
few weeks ago, I think an incorrect nexus was discussed at 
length as it relates to this policy and school lunch. What we 
never heard at Ed and Labor is that, even if the proposal were 
to alter the regulatory language regarding categorical 
eligibility, 99.9 percent of children receiving free and 
reduced lunch would still remain eligible. We need to remember 
that the National School Lunch Program doesn't base its 
eligibility on SNAP--it has its own eligibility requirements--
and that children who qualify will still receive these 
benefits.
    Last, proponents talk about administrative burden to the 
recipient, and that is a legitimate concern. We can probably 
find a lot of bipartisan ground to address.
    And so I just want to ask on the record for my colleagues 
to host a hearing on technology. There are a variety of 
innovations used today across other Federal and state programs 
that can significantly ease the application process and that 
shouldn't require any statutory manipulation. In that way, we 
can help the most needy among us. And we should have that 
conversation.
    I welcome the witnesses, Madam Chair, and I look forward to 
their testimony.
    The Chair. Well, thank you very much, Mr. Johnson.
    And let me just say that I challenge my colleagues to find 
any program that is perfect. I would be happy to hear of 
perfection in any program run by any state or the Federal 
Government or any city, and just let me know what that is.
    But I also am concerned about the fact that someone would 
intentionally try to take resources from people in need.
    Now, I have heard about this ridiculous millionaire stunt. 
Chairman Peterson and I talked this morning, and since he is in 
a Veterans' Affairs hearing right now, I will share some of the 
facts that you need to know.
    When this story broke 2 years ago, the Chairman called the 
office in Sterns County, where the alleged millionaire, Mr. 
Undersander, enrolled in the program. Mr. Undersander told the 
caseworkers that he wanted to be famous for his crusade against 
SNAP.
    Mr. Undersander may be in this room, and if he is, I would 
just like to say this directly to him. You willfully and 
maliciously gained SNAP benefits. You, an alleged millionaire, 
used mischaracterizations of your finances to cheat the 
program. You took benefits meant for the very seniors in 
Minnesota you serve through your volunteer work. And you did 
this all to continue the right-wing crusade against poor 
people.
    Now, we all know that cat-el is a widely used option and 
exists to provide states flexibility and to save administrative 
costs. If I did everything I could to find a way to game 
something, I could do it. But what we expect is that people, 
decent people, in this country would do the right thing and try 
to help people as opposed to hurt them.
    Mr. Johnson. Madam Chair, I would ask, Mr. Undersander has 
a different characterization of those events, and I would just 
ask unanimous consent to submit his opinion column from his 
local newspaper into the record so people can hear his side as 
well.
    The Chair. Without objection, so ordered.
    Mr. Johnson. Thank you.
    [The article referred to is located on p. 107.]
    The Chair. Mr. Conaway, do you wish to make an opening 
statement?

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Just a couple comments, Madam Chair. Thank you 
for that opportunity. I appreciate that.
    States' rights were invoked as a part of our legitimate 
disagreement on how this works. I am a flat-out 10th Amendment 
kind of guy as well. But these are Federal resources that we 
are talking about, and the states should have restrictions on 
how those resources are deployed. And I don't think it is 
unreasonable that those restrictions make sense, and having an 
asset test ignored on SNAP is regrettable.
    I don't blame the Governors. I don't blame the states. We 
have set up a system that allows them to draw Federal resources 
into their state to help the poor and to help anybody. And so 
if I am a Governor and I have an opportunity to bring Federal 
dollars to my state, I am going to move heaven and earth to 
make that happen. They are just operating within the rules and 
the law that we have set up.
    Our problem is us. We need to adjust it and make 
adjustments to these rules and the regulations in order that--
you are right--scarce resources can, in fact, go to the folks 
who need them the most. And that is what we are all about.
    I would like to get it into the record that, when my 
colleague said that she would be willing to work with us, last 
year, when we had this subject matter in front of the 
Committee, she and her team chose to not offer one single 
amendment to the bill that we had up.
    You didn't offer an amendment to strike everything we did. 
You didn't offer an amendment to improve or fix it. You just 
sat and said no. And that is discouraging, in and of itself, to 
have an opportunity, every 5 years, when we engage on this 
issue, you guys just didn't do it and didn't engage. And I just 
wanted to get one into the record as well.
    But I appreciate you having this hearing today. It is 
helpful for us to have these conversations about a really 
important program that we are all supportive of. We just want 
it to do better. And to invoke the idea that a program that is 
not perfect shouldn't get better is a bit of an odd argument as 
well.
    I appreciate you giving me a chance to say a couple of 
words, and I yield back.
    Mr. McGovern. Madam Chair?
    The Chair. Yes, Mr. McGovern.
    Mr. McGovern. I just wanted to clarify the record.
    Yes, it is true the Democrats didn't offer any amendments 
to the farm bill, in large part because of the nutrition title. 
I was, at that time, the Ranking Democratic Member on the 
Nutrition Subcommittee, and we were never consulted about the 
nutrition title. We don't even know where it was written. We 
don't even know where it came from. It came out of nowhere. It 
didn't reflect any of the hearings that we had. It was clear 
that it was just yet another part of this attack on poor 
people. And, quite frankly, we were offended.
    And I am relieved that the final farm bill that reflected 
the negotiation between the House and Senate basically cut out 
all of this language that would have punished low-income people 
in this country.
    And let me just also say for the record, if somebody 
intentionally defrauds the Federal Government, they ought to go 
to jail.
    I yield back.
    The Chair. We really do need to get to our witnesses.
    Mr. Conaway. Would the gentleman yield?
    The Chair. Is it short?
    Mr. Conaway. Yes.
    The concepts of what we used to write the farm bill SNAP 
programs were shared with then-Ranking Member Peterson. We 
shared all of the language with him in February. The markup was 
in March. There was plenty of time for you guys to have read 
the documents.
    And Mr. Undersander did not break the law. He simply abided 
by the rules that were in place. He didn't defraud----
    Mr. McGovern. He intentionally defrauded the Federal 
Government. That is, in my opinion, breaking the law.
    The Chair. Okay. But let me close this part of the 
conversation, because we have witnesses waiting.
    You may have given the information to Mr. Peterson, but you 
swore him to not share it with us.
    We are going to now move to our witnesses.
    And let me introduce now our first witness, who is the 
Lieutenant Governor of Wisconsin, Mr. Mandela Barnes.
    Our second witness, Dr. John Davis, Executive Director of 
the Mississippi Department of Human Services.
    We will also hear from Ms. Lisa Davis, Senior Vice 
President, No Kid Hungry Campaign, Share Our Strength.
    Our final witness is Ms. Elaine Waxman, Senior Fellow at 
the Urban Institute Income and Benefits Policy Center.
    Mr. Barnes, you are recognized for 5 minutes.

STATEMENT OF HON. MANDELA BARNES, LIEUTENANT GOVERNOR, STATE OF 
                     WISCONSIN, MADISON, WI

    Mr. Barnes. Thank you, Madam Chair, Ranking Member Johnson, 
and other distinguished Members of the Committee. Good 
afternoon. I am looking forward to a very productive 
conversation.
    Again, I am Mandela Barnes, Lieutenant Governor of the 
State of Wisconsin. I want to thank you for the opportunity to 
appear before you today to discuss how restricting or 
eliminating categorical eligibility would not only put millions 
of families in danger of losing SNAP benefits and also increase 
their risk of food insecurity, but it would also add a costly 
burden on the states and impede on our right to provide the 
resources we deem crucial and necessary for our citizens to 
thrive.
    Like many of you here today, I was raised to believe that I 
could do anything and be anything I wanted to be if I worked 
hard enough. My mother was a schoolteacher, and she taught me 
the value of education. My father was an auto worker, and he 
taught me the value of hard work.
    After college, I chose to pursue a career in public 
service, and I found myself in a job where I helped others find 
employment. I was able to assist people of all ages in my 
community and help break down barriers to help them become 
contributing members of our society and also work toward 
lifting themselves out of poverty.
    Now, ironically, I lost my job helping other people find 
jobs, and during the short time I was unemployed, and even 
before that I had my hours cut at that job, and I did receive a 
modest SNAP benefit. And that allowed me to be able to put food 
on the table instead of forcing myself to choose between 
groceries and paying the bills.
    I still have my SNAP card, my FoodShare card, somewhere 
laying around at the house. I was going to bring it today, 
because it normally sits around to remind me that I was once in 
a position where I, too, needed assistance.
    And as I have traveled the State of Wisconsin as Lieutenant 
Governor, I have heard so many similar stories. I have been 
able to hear from families who are more at ease because they 
know that their elderly relatives' SNAP benefits will ensure 
that they have access to healthy food. I have also been able to 
meet with parents who are thankful that they are able to put 
dinner on the table each night because of their SNAP benefits.
    And I have heard from teachers and principals, and they 
tell me how important it is that free and reduced lunch are 
available, and what that means for so many of their students in 
their schools and in their school districts.
    You see, in Wisconsin, we have a responsibility, like every 
other state, to make sure that opportunity exists in every 
part, every county, every ZIP Code. That means ensuring that 
each and every person has access to nutritious food, whether it 
is in our largest cities, whether it is in our Native 
communities, in our schools, or the most rural parts of our 
states.
    Broad-based categorical eligibility is a crucial component 
in ensuring that our state can provide the full set of services 
that struggling families need to lift themselves out of 
poverty.
    Categorical eligibility helps more than 25,000 families in 
Wisconsin; it helps them to put food on the table. These 
individuals, many of whom are elderly or just families trying 
to make ends meet, these are people who will lose all of their 
benefits under the Administration's proposed change.
    Now, I recently met with an aging group in my state, and 
one of their primary concerns were the barriers that many 
elderly face in getting nutritious food. We are talking about 
people who have done everything right their entire lives, 
people who have worked hard, people who have contributed to our 
society and are valued and respected members of their 
communities. But their fixed incomes often create challenges in 
keeping their refrigerators and pantries stocked with healthy 
food. And the small benefit they receive goes a long way and 
ensures that our aging population remains healthy and that we 
are treating them with the dignity and the respect that they 
deserve.
    Reducing or eliminating broad-based categorical eligibility 
would also have a profound impact on the health and well-being 
of our children. Roughly 24,000 children in our state will lose 
access to nutritious food under this proposed rule change.
    Also worrisome is that these children also lose eligibility 
for free and reduced-price breakfast and lunch at their 
schools, thereby creating an additional hardship for families 
and a cost to the school system.
    The consequences of going hungry as a child will have a 
lasting effect on a person's health, their education, and 
ultimately their future. In Wisconsin, we believe that what is 
best for our kids is what is best for our state, so we cannot 
afford to have 24,000 children go hungry in our state.
    Finally, many of the families who also qualify for SNAP 
through broad-based categorical eligibility are the working 
poor. They not only benefit from food assistance but also from 
the additional job training or retraining provided to those 
eligible for SNAP. These services help lift families out of 
poverty.
    They are helping farmers, caregivers, and factory workers 
all across our state. These people are contributing members of 
our society and they are taxpayers, but, unfortunately, low 
wages and high expenses, like childcare and rent, are making it 
hard for them to make ends meet. Broad-based categorical 
eligibility provides needed relief for these families, and it 
promotes work. Eliminating it would have dangerous 
repercussions in Wisconsin, including added fiscal costs for 
our state and less flexibility.
    But most concerning is that reducing or eliminating broad-
based categorical eligibility would impose a benefit cliff. 
Instead of making it harder for states to provide nutritional 
food to their residents, such as the proposed Administration 
change would do, the Federal Government should be allowing 
states the flexibility to makes decisions that are best for 
their state.
    Categorical eligibility allows states to build a safety net 
that supports work and fosters opportunity. And it is my 
responsibility, as Lieutenant Governor, to ensure that 
opportunity exists for all people in my state--for children, 
for the poor, for the hungry, for the working men and women, 
for the elderly, for those with different abilities, for 
everybody who has been left behind. And as respected leaders, 
we all have this responsibility.
    Thank you for your time today.
    [The prepared statement of Mr. Barnes follows:]

 Prepared Statement of Hon. Mandela Barnes, Lieutenant Governor, State 
                       of Wisconsin, Madison, WI
    Chair Fudge, Ranking Member Johnson, and other distinguished 
Members of the Committee--good afternoon.
    Thank you for the opportunity to appear before you today to discuss 
how restricting or eliminating categorical eligibility would not only 
put millions of families in danger of losing Supplemental Nutrition 
Assistance Program (SNAP) benefits and increasing their risk for food 
security--but it would also add a costly burden onto states and impede 
on our right to provide the resources we deem crucial and necessary for 
our citizens to thrive.
    I am Mandela Barnes, Lieutenant Governor of Wisconsin. Like many of 
you here today, I was raised to believe that I could do anything and be 
anything if I worked hard. My mother, a schoolteacher, taught me the 
value of education, and my father, an auto parts manufacturer, taught 
me the value of hard work. After attending college at Alabama A&M, I 
chose to pursue a career in public service. Soon after college, I found 
myself working in my hometown of Milwaukee, in a job helping others 
find employment. I assisted people of all ages in my community break 
down barriers, become contributing members of our society, and work 
toward lifting themselves out of poverty. Ironically, I lost my job 
that helped others find jobs. I didn't immediately find work, but 
thankfully I qualified to receive a modest SNAP benefit, which allowed 
me to put food on the table instead of forcing me to choose between 
groceries and paying my bills. SNAP helped me for short time when I 
needed it most.
    Since it was established over 50 years ago, the Supplemental 
Nutrition Assistance Program, also known as SNAP, has proven to be the 
singular most effective anti-hunger program in the country--helping 
more than 40 million people--many of them low-wage working families, 
low-income seniors, and people with disabilities living on fixed 
incomes--afford a nutritionally adequate diet.
    In Wisconsin, each month--an average of 615,000 people with limited 
resources buy the food they need to stay healthy. 41% of these people 
are children.
Broad-Based Categorical Eligibility
    Eligibility requirements for SNAP are largely set by the Federal 
Government while states administer the program. We view our state as a 
key partner in SNAP's success, and we believe SNAP is a crucial 
component of the full set of benefits and services that we offer to 
struggling families and communities. I appreciate you giving me the 
opportunity to explain how we've used the broad-based categorical 
eligibility option to strengthen SNAP for those in our communities who 
face some of the biggest obstacles in life.
    Federal law gives states several options to set the program's 
rules, including the one we are here to discuss today: broad-based 
categorical eligibility. Under broad-based categorical eligibility, 
states have the option to raise income cutoffs and ease asset limits 
for households that receive a TANF-funded benefit other than cash 
assistance.
    By using the same gross income and asset limits of other programs, 
the process to enroll in SNAP is more streamlined and reduces confusion 
for many households. In Wisconsin, individuals and families who use our 
Department of Workforce Development's job center resources, that are 
paid for by the TANF Federal or state maintenance-of-effort funds, are 
eligible as broad-based categorically eligible.
    Households that qualify through broad-based categorical eligibility 
still must go through the traditional eligibility screening process 
which requires that they document their income and circumstances, so 
that the state can determine if their net income is low enough to 
qualify for SNAP benefits. It is possible for a family to be 
categorically eligible for SNAP, but unable to receive a SNAP benefit 
because their net income is too high.
    The mechanics around how categorical eligibility works is far less 
important than who it helps. Wisconsin used the broad-based option to 
raise our gross income test and to eliminate our SNAP asset test. 
Wisconsin adopted broad-based categorical eligibility to address the 
problem of struggling families fearing that they would lose public 
assistance entirely if they earned any extra income or saved too much 
money or bought a car to get a new job.
    Relaxing those rules means that Wisconsin can better support 
working families trying to earn their way up the economic ladder, as 
well to promote savings. Supporting work and promoting savings among 
households with low income, including workers, seniors, and people with 
disabilities, has been important in Wisconsin. We strive to build a 
safety net that supports hard work and fosters opportunity. Options 
like categorical eligibility in SNAP help make Wisconsin's health and 
human services programs more responsive to the needs of struggling 
citizens and communities.
Impact on Wisconsin Families
    Broad-based categorical eligibility is important to ensuring 
Wisconsin's communities are healthy and strong. Eliminating it would 
hurt hard-working families, seniors, and people with disabilities. 
Doing so would also increase administrative burden and exacerbate the 
benefit cliff.
    Broad-based categorical eligibility helps more than 25,000 families 
in Wisconsin put food on their tables. In an analysis done by the 
Wisconsin Department of Health Services in 2017, it was found that 
lowering the income limit from 200% FPL to 130% FPL would negatively 
impact about eight percent of SNAP families--which equals to about 
25,000 Wisconsin families. These individuals would lose all their 
benefits under the Administration's proposed change. Many of these 
households are older adults on a fixed income.
    The higher gross income limits allowed under broad-based 
categorical eligibility are especially important for households that 
have high expenses such as rent or childcare. In Milwaukee County, the 
median household income is not high enough to afford the county's 
median rent--meaning many in the county are using a large portion of 
their income to pay for housing.\1\ Another barrier working families in 
Wisconsin face is the high cost of child care. In Wisconsin, child care 
costs outpace tuition at that state's 4 year universities.\2\ With 
working families, who earn low wages, forced to pay high amounts for 
things like child care and rent, SNAP's broad-based categorical 
eligibility option ensures that families are able to obtain nutritious 
food while still being able to afford basic necessities--necessities 
that are crucial for families to have in order to hold on down a steady 
job.
---------------------------------------------------------------------------
    \1\ https://wispolicyforum.org/research/the-cost-of-living-
milwaukee-countys-rental-housing-trends-and-challenges/.
    \2\ https://www.epi.org/child-care-costs-in-the-united-states/#/WI.
---------------------------------------------------------------------------
    The option has also allowed Wisconsin to eliminate its asset test. 
While asset tests were put in place with the notion that public 
assistance programs should only provide benefits to people with too few 
resources to avoid destitution, there is no doubt that denying benefits 
to individuals with large assets helps the government to save money. In 
reality though, low income households do not have very many assets. 
Most applicants for SNAP have, at most, a few hundred dollars. 
Requesting information about financial holdings that families do not 
have is wasteful administratively. More important, from a public policy 
standpoint is that asset-testing also creates a powerful incentive for 
families not to save money. Our state wants to encourage families to 
save.
    Allowing low-income households to build assets can help move them 
out of poverty more quickly and effectively. Savings allow families to 
address small problems without them becoming large crises, like paying 
for a car or house repair or being able to cover rent when a earner's 
income dips unexpectedly. Savings also allow individuals to build for 
the future--whether it be buying a reliable car, obtaining a key 
license for employment, or helping to move to a better neighborhood. 
Re-imposing the Federal asset limit in SNAP would discourage savings. 
Families would know that setting aside funds in savings could put their 
access to food through SNAP at risk.
    Research has shown that higher asset limits are beneficial for 
elderly individuals, as is broad-based categorical eligibility as a 
whole. Elimination of it would have a devastating impact on the 
elderly. I recently met with an aging group in rural Wisconsin, and one 
of their primary concerns was access to food for the growing aging 
population in Wisconsin. They highlighted the barriers many elderly 
face in getting nutritious food. These are people who did everything 
right their entire lives: worked hard, contributed to our society, and 
are valued and respected members of our communities--but their fixed 
incomes often create challenges in keeping their refrigerators and 
pantries stocked with healthy food. The small benefit they receive goes 
a long way, and it ensures that our aging population remains healthy 
and that we are treating them with the dignity and respect they 
deserve.
    If broad-based categorical eligibility were to be eliminated, it 
would have a profound impact on the health and well-being of children 
in Wisconsin. Roughly 24,000 children in the state would lose access to 
nutritious food under the proposed rule change--that's 41% of those who 
qualify for SNAP under broad-based categorical eligibility. Also 
worrisome is that these children would also lose eligibility to free or 
reduced priced breakfasts and lunches at their schools, thereby 
creating an additional hardship for families and a cost to the school 
system.
    Finally, many of the families who qualify for SNAP through broad-
based categorical eligibility are the working poor. They not only 
benefit from food assistance, but also from the additional job training 
or retraining provided through our FoodShare Employment Services, which 
they would not be qualified for if they were not eligible for SNAP. 
These services help lift families out of poverty. With poverty on the 
rise in Wisconsin,\3\ it is critical that families continue to have 
access to services that will help break the cycle of poverty. I know 
ending poverty is a priority for all leaders.
---------------------------------------------------------------------------
    \3\ https://www.irp.wisc.edu/study-finds-wisconsin-poverty-rate-
increased-in-2016-despite-jobs-growth/.
---------------------------------------------------------------------------
    Broad-based categorical eligibility has numerous benefits to the 
working poor in Wisconsin. For example, qualifying for SNAP also 
qualifies families for other programs within local municipalities. For 
example, in the City of Madison, individuals who show their EBT card 
can access reduced cost thirty day bus passes. Households that are 
eligible for SNAP may also be eligible for lifeline telephone services 
which provides phone services at low or no cost, which can be very 
valuable for our elderly and people with disabilities who live in rural 
and remote areas of our state.
    It must be noted that categorical eligibility does not result in 
substantial SNAP benefits going to non-needy families and does not mean 
households automatically get SNAP benefits--they must qualify for 
benefits under Federal SNAP rules. This program truly helps those in 
need and provides assistance when people need it most in their lives. 
SNAP supports work and does not punish individuals for building 
assets--something that helps low-income families invest in their 
futures.
Benefit Cliff
    The Administration's proposal to reduce or eliminate broad-based 
categorical eligibility would impose a benefit cliff in 42 states and 
territories, including Wisconsin, that currently use categorical 
eligibility to raise the gross income limit.\4\
---------------------------------------------------------------------------
    \4\ Center on Budget and Policy Priorities.
---------------------------------------------------------------------------
    Without categorical eligibility, a family would lose substantial 
SNAP benefits from a small increase in earnings that raises their gross 
income above 130 percent of the Federal poverty level--creating a steep 
benefit cliff. A modest increase in hourly wages could make families 
ineligible for SNAP, but the income increase could be less than the 
amount the family loses in benefits--forcing parents to choose between 
putting food on the table for their families or an increase in income. 
This is counterproductive to our goal of encouraging individuals to 
work. In a best-case scenario, a family is only marginally better off. 
But worst-case scenario, parents work more and earn more, but their 
families are worse off financially.\5\ Categorical eligibility allows 
for families to gradually phase off the SNAP program as their wages 
increase.
---------------------------------------------------------------------------
    \5\ http://www.nccp.org/projects/files/NCCP_CO_presentation07.pdf.
---------------------------------------------------------------------------
Administrative and Fiscal Burden on States
    This change will not only negatively affect Wisconsin families, but 
it will also create a financial burden for state agencies and will have 
adverse effects on our economy. Altering SNAP eligibility rules will 
force us and the other 42 states and territories who have adopted this 
option to make dramatic administrative changes and would also make SNAP 
rules considerably more complicated.
    Wisconsin eliminating categorical eligibility could cost taxpayers 
$2 million and likely would take about 18 months to implement the 
change. Income maintenance agencies and counties across Wisconsin would 
also see increased costs if this option was eliminated, because it 
would take them longer to complete member interviews, request 
verifications, and process those verifications.
    There is also an overall impact to the Wisconsin economy with 
reduced SNAP benefits, as most economists agree that SNAP benefits have 
a multiplier effect on local economies. Many research papers cite $1.50 
to $1.70 being put into the local economy for each SNAP dollar spent. 
The proposed changes could mean that $29.9 million will not be spent in 
Wisconsin communities annually.\6\
---------------------------------------------------------------------------
    \6\ Wisconsin Department of Health Services.
---------------------------------------------------------------------------
Closing
    As leaders, we have committed ourselves to providing opportunity 
and justice for all--this includes our youngest, our oldest, and those 
who are working to climb out poverty. In a nation as great and as 
wealthy as the United States of America, no one should go hungry--no 
child, no one's grandmother, or no one's neighbor. Broad-based 
categorical eligibility helps ensure parents all across our country can 
put a meal on their table at the end of a long, hard, workday. 24,000+ 
children in Wisconsin are depending on it. We are looking to Congress 
and the Administration to give us more options, not take them away, to 
strengthen the safety net and to support opportunity. If this option 
were eliminated or cut back, it would have a detrimental impact on 
families, limit state's from having the flexibility to choose what is 
best for their citizens, and be a fiscal burden to states like 
Wisconsin.
    Governor Tony Evers and I have a responsibility to make sure that 
opportunity exists in every part of Wisconsin--and that includes 
ensuring that each and every person has access to nutritious food--
whether that's in our largest cities, within our Native communities, in 
our schools, or in the most rural parts of our state. And as Lieutenant 
Governor of Wisconsin, I am focused on helping make my state more 
equitable. That starts with making sure every person in Wisconsin--
regardless of [ZIP C]ode or income status--has the tools and resources 
they need to succeed in life.

    The Chair. Thank you very much.
    I am sure you have now figured out the lighting system. I 
neglected to tell you about it. It is not very difficult. When 
the light is green, you begin. When the light turns yellow, it 
is time to start to close; you have 1 minute left. When the 
light turns red, your time is up, so please try to wrap up as 
quickly as you can.
    Mr. Barnes. I apologize.
    The Chair. No, no, you were perfect. You were perfect. Now, 
I am not going to let them go over, but you were perfect.
    You are recognized, Dr. Davis, for 5 minutes.

STATEMENT OF JOHN DAVIS, Ph.D., EXECUTIVE DIRECTOR, MISSISSIPPI 
          DEPARTMENT OF HUMAN SERVICES, BROOKHAVEN, MS

    Dr. John Davis. Thank you, Madam Chair, Ranking Member 
Johnson, and all the Committee Members. It is a privilege to be 
here today to talk to you guys. I am humbled at the opportunity 
to get to speak to this particular situation.
    The Mississippi Department of Human Services is in a very 
unique position to create a new approach to human services and 
needs-based programs in our state. We recognize more than ever 
the need to work with families holistically rather than simply 
determining eligibility and waiting for self-sustainability. 
Our staff approaches an individual who walks in to the MDHS 
office with the understanding that they are not asking for a 
handout, but, in fact, they are asking for a hand up.
    MDHS has been collaborating with multiple state agencies. 
All of this came about specifically with the WIOA, Workforce 
Investment Opportunity Act. It kind of forced states to start 
look at, holistically, the agencies working together to build a 
better Mississippi. We began in 2016 by focusing our efforts on 
four priorities that I am going to describe, and we began by 
reengineering our offices to offer a multigenerational, 
collaborative approach.
    Those four areas were: invest in children and families 
through workforce development and training; improve 
opportunities for individuals to make healthy, self-sustaining 
choices; increase department capacity and efficiencies; and 
then improve systems. Because we recognize individuals are 
worth that, families are worth that.
    The priorities that I have listed was a mission for a more 
effective, efficient, and open government. Focusing on those 
priorities has allowed the state to realize the commonalities 
between social capital, health and wellbeing, economic 
supports, education and training, which will ultimately allow 
the state to maximize its resources by eliminating duplication 
of services, but also never to be last again in anything, as we 
are always labeled.
    The first, investing in children and families, is important 
as we start talking about BBCE, broad-based categorical 
eligibility. MDHS's success will be measured and has been 
measured by the success of the clients that are served by the 
agency. A family-centered, multigenerational approach has been 
developed to invest in early intervention programs that will 
improve life outcomes for children and families.
    MDHS is doing this through the support of early involvement 
in case decision-making and providing access to activities 
which lead to livable wages through higher education, including 
vocational and technical training.
    The MDHS approach continues to recognize the importance of 
the family unit as it relates to the overall success of each of 
the members in the household.
    MDHS has proven through the years that we are more 
proficient in determining eligibility timely, accurately, and 
efficiently. However, the mentality of simply moving 
individuals in and out must be replaced with an effort to move 
them to self-sustainability.
    Assisting individuals with a needs-based program is 
providing them with a supplemental or temporary support as they 
move to initial employment and beyond to greater employment. We 
understand it as being more important to not just get the first 
job but the second job and the third job so that individuals 
can become who they want to be, not who I want them to be.
    The overarching goal has been to stabilize the households 
and then provide an opportunity for greater individual success 
for household members. Assisting the adult in finding 
employment is only the first step if children are also part of 
the home. MDHS case managers must also look back and see how 
the children may be assisted. Providing resources for the child 
to be exposed to training, counseling, mentoring, tutoring will 
provide stability for current and the future healthy choices.
    Partners for success in workforce development: We have 
partners in multiple state agencies.
    The Employment Security Office, which is our Department of 
Labor in the state, has now taken on some of the responsibility 
of helping us to move these individuals through the process to 
employment. They have helped us with 5,800 cases on the TANF 
side, a little more than 253,000 cases on the SNAP side. That 
provides an individual with a subject-matter expert on how to 
actually find a job that they want, that they can be successful 
in, rather than our office, our eligibility staff being 
responsible for helping that individual find the job.
    The Mississippi Board of Community College and Junior 
Colleges has been a critical partner in our efforts. The 
Institutions for Higher Learning, which is our university 
system in the state, has also been critical.
    We also understand this with broad-based categorical 
eligibility: by simply saying that we do not have that in our 
state--which July 1 begins that we will not have BBCE in the 
State of Mississippi. But we know that it takes investment in 
our staff through things like Law of 16, which is our personal 
and professional development programs for our staff members, to 
then replicate that over with our clients to make sure that 
they are empowered to be whom they have been called to be. BBCE 
alone is not necessarily, for the State of Mississippi, the 
answer for individuals to be become successful.
    Thank you very much.
    [The prepared statement of Dr. John Davis follows:]

     Prepared Statement of John Davis, Ph.D., Executive Director, 
        Mississippi Department of Human Services, Brookhaven, MS
    The Mississippi Department of Human Services (MDHS) is in a very 
unique position to create a new approach to human services and needs 
based programs in this state. We recognize, more than ever, the need to 
work with families holistically rather than simply determining 
eligibility and waiting for self-sustainability. Our staff approaches 
an individual who walks into an MDHS office with the understanding they 
are not asking for a ``hand-out'' but in fact, they are asking for a 
``hand-up.''
    MDHS is collaborating with other agencies and stakeholders to build 
a better Mississippi. We began in 2016 by focusing our efforts on the 
four priorities described below, and we are reengineering our offices 
to offer a multi-generational, collaborative approach.

  <bullet> Invest in children and families through workforce 
        development and training;

  <bullet> Improve opportunities for individuals to make healthy self-
        sustaining choices;

  <bullet> Increase department capacity and efficiencies; and

  <bullet> Improve systems.

    The priorities listed above align with our mission for a more 
effective, efficient, and open government. Focusing on these priorities 
will allow the state to realize the commonalities between social 
capital, health and well-being, economic supports, education, and 
training which will ultimately all the state to maximize its resources 
by eliminating duplication of services.
Invest in Children and Families
    MDHS' success will be measured by the success of the clients served 
by the agency. A family-centered, multi-generational approach will be 
developed to invest in early intervention programs that will improve 
life outcomes for children and families. MDHS is doing this through the 
support of early involvement in case decision-making, and providing 
access to activities which lead to livable wages through higher 
education including vocational and technical training. The MDHS 
approach continues to recognize the importance of the family unit as it 
relates to the overall success of each of the members of the household.
    The county MDHS offices are going through major changes to 
accommodate the case management approach to all individuals receiving 
services through the programs offered. We will be reducing the number 
of Eligibility Workers and increasing the number of Case Managers to 
accomplish our multi-generational approach. We have already seen more 
cost and customer efficiencies without creating an overall increase is 
staffing.
    MDHS has proven through the years that we are very proficient in 
determining eligibility timely, accurately, and efficiently. However, 
the mentality of simply moving individuals in-and-out must be replaced 
with an effort to move them to self-sustainability. Assisting 
individuals with a needs based program is providing them with a 
supplemental or temporary support as they move to initial employment 
and beyond to greater employment. Case management staff will be 
assigned to applicants to guide them through this process and then 
track outcomes.
    The overarching goal is to stabilize the home and then provide an 
opportunity for greater individual success for household members. 
Assisting the adult in finding employment is only the first step if 
children are also part of the home. MDHS Case Managers must also look 
back and see how the children may be assisted. Providing resources for 
the child to be exposed to training, counseling, mentoring and tutoring 
will provide stability for current and future healthy choices.
Partners for Success in Workforce Development
    Mississippi Department of Employment Security (MDES). We have 
entered into a partnership with MDES so they may provide Job Readiness 
Assessments (JRA), Employment Development Plans (EDP), soft-skills 
training, resume building, etc. to all adults who apply for services at 
MDHS. The first steps were taken taken to implement this plan in the 
Temporary Assistance for Needy Families (TANF) program which affects 
approximately 5,800 cases. The second step is currently under way to be 
implemented during this fiscal year will be the individuals in the 
Supplemental Nutrition Assistance Program (SNAP) which affects 
approximately 253,000 cases This also includes ensuring each of the 
applicants are entered into the Mississippi Works system. Therefore, a 
request for assistance through MDHS is also a request for assistance to 
find employment. Prior to this agreement, MDHS and MDES were 
duplicating services with no single plan of action for the individual. 
The partnership with MDES also includes allowing them to co-locate in 
strategic MDHS offices for efficiency in services for those seeking 
assistance as well as the taxpayer who funds these programs.
    Mississippi Board of Community and Junior Colleges (MBCJC). MDHS 
continues to build on the partnership with MBCJC to develop 
opportunities for training and education. The collaboration has grown 
significantly over the past 6 months and will continue to develop new 
opportunities for those we seek to serve. The MBCJC also is working 
closely with MDHS in our efforts with the SNAP Employment and Training 
(E&T) program. MBCJC has also partnered with MDHS to provide Child Care 
Provider training at no cost to the state.
    Institutions for Higher Education (IHL). MDHS is working to partner 
with IHL to offer individuals an opportunity to complete their degree 
the Complete 2 Compete (C2C). There are a significant number of adults 
who have multiple college credits but have not received a degree. This 
program will provide an additional resource for those seeking self-
sufficiency.
    Eight State Universities. MDHS has reached out to each of the eight 
state universities to establish Youth Development programs. There has 
been initial information that indicates as many as 40% of all athletes 
attending the state universities are already parents. Many of these are 
non-custodial parents. MDHS and the universities developed programs to 
assist these athletes and multiply the affect by letting them reach out 
to the youth in their communities. This may be the only exposure many 
of the youth will have to university campuses. We will also offer 
career technical training in an effort to guide the youth to future 
success.
    Mississippi Community Education Center/Families First Resource 
Centers (FFRC). Dr. Nancy New in their capacity as leaders in the FFRCs 
have expanded their services to include counseling, mentoring, 
vocational training, career development, tutoring, forensic 
interviewing, fatherhood initiatives, Healthy Teens for a Better 
Mississippi, parenting classes, etc. These services are now offered in 
every county of the state. MDHS and FFRC will continue to offer 
services as appropriate based on the needs of each community and 
individual. The FFRCs will also be a valuable resource for the MDHS 
case management staff as they offer solutions to those who seek our 
services.
Improve Opportunities for Individuals
    As part of the multi-generational approach, MDHS is committed to 
improving opportunities for individuals to make healthy self-sustaining 
decisions. The partnerships we have developed over the previous 3 years 
will continue to expand and become the base of operation. MDHS 
recognizes the need to maximize resources and multiply opportunities. 
With shrinking state funds, we must identify duplicated and overlapping 
services to eliminate. In doing so, we will identify public-private 
partnerships that will produce cost savings with added capacity and 
performance based outcomes. This will also ensure the elimination of 
Broad Based Categorical Eligibility and not waiving the ABAWD 
requirements will not adversely affect those we seek to serve.
    The MDHS case management staff offer a guided approach through the 
complicated process of accessing resources. With your leadership, the 
agency partnered with the majority of other related agencies to produce 
the first approved Workforce Innovation and Opportunity Act (WIOA) 
State Plan. This partnership provides for four Workforce Areas around 
the state where the participating agencies will be housed in one 
location for maximum service delivery.
    The FFRCs will provide a valuable resource to identify ways to 
improve opportunities for individuals. In addition, organizations such 
as Boys and Girls Clubs, YMCA, and Jobs for Mississippi Graduates are 
available for additional capacity building.
Improve Department Capacity and Efficiency
    MDHS has identified multiple opportunities to increase capacity and 
efficiency. Evaluating each of the 13 divisions within the agency has 
exposed cost allocation and matching deficiencies. MDHS will maximize 
Federal funds while reducing state general funds.
    There will be further analysis to determine how the agency will 
shed antiquated and inefficient policies and procedures. Every 
contract, sub-grant and MOU will be evaluated. In addition, further 
accountability will be implemented within the agency. An Internal Audit 
Department has been established to provide the necessary oversight of 
operations both administrative and programmatic. This too will provide 
opportunities for improvement and efficiencies.
    Effective October 1, 2016, MDHS entered into a contract with Young 
Williams, a private nationally recognized Child Support organization 
based in Mississippi, to operate the MDHS local offices for child 
support. This action was taken as a result of reductions in the MDHS 
budgets, space needs for the recently created Mississippi Department of 
Child Protection Services (MDCPS) and a desire to modernize the 
program. During the first several months, MDHS will transfer operations 
in a way that will maintain current operations with no changes. i.e., 
same offices, same processes, same employees, etc. With this action, 
all 82 county Child Support operations are managed by this private 
company.
    During the Young Williams pilot program for 17 counties in 
Southwest Mississippi, it was proven successful both with results and 
with saving Mississippi tax dollars. MDHS estimates there will be a 
minimum of $1 million in cost savings with the potential for $2 million 
in state funds saved. The state-wide transition to Young Williams is 
complex as it involves over 250,000 cases. All MDHS Child Support staff 
were offered jobs at or above the MDHS pay rate, with similar benefits 
and retirement options. Young Williams has designed the transition to 
take place over a period of time to avoid disruption of services.
    There is ongoing work to reorganize the agency to align more 
completely with your priorities. Specifically, a Workforce Development 
Unit within Field Operations has been created while eliminating the 
Division of Family Foundation and Support. This was accomplished by 
utilizing the FFRCs to provide the functionality previously 
administered by state employees. This model will be replicated across 
the agency.
Improve Systems
    The industry standard in human services across the nation is moving 
more toward an automated technology driven delivery system. 
Mississippi, and specifically MDHS, has lagged behind in this critical 
area for many years. The four legacy systems and three stand-alone 
systems within the agency lack efficiency and are tremendously expense 
to maintain. However, they have proven to be workhorses that could 
provide more capacity with the proper updates. MDHS has worked for 2 
years with the ITS procurement process and finally has the approval to 
move forward with the updates necessary to truly affect positive and 
lasting change. We have also created in-house referral systems that 
ensure the Generation Plus (gen+) approach remains viable.
    The efficiency and cost savings realized from the updates currently 
being implemented, will provide the front-line county employees a 
greater resource for achieving the multi-generational goals identified 
above. The agency utilizes technology to further identify how best to 
allocate agency resources. This includes staff assignment.
Issues of Concern Identified in Prior Legislative Session
    The issues that were identified in the prior legislative session 
were centered around the bill known as H.O.P.E. Act. The East Coast 
group, FGA, worked with the legislature during the last session to 
offer strategies to address their perceived ``loopholes'' in the 
Medicaid, SNAP and TANF programs. The major issues include:
    Loopholes in Eligibility--FGA states the Broad Based Categorical 
Eligibility (BBCE) option, which allows the resources of applicants to 
be disregarded, produces fraud and abuse. The state has begun the 
process effective July 1, 2019. Time-frame for policy re-writes and 
system re-design took approximately six to design and implement. Costs 
associated with this change has been minimal.
    Start Checking Assets--With the elimination of BBCE we now are 
federally required to ``check assets''. Mississippi is confident we can 
do this in a very effective and least invasive way possible. This 
requires cooperation and automation between state agencies, financial 
institutions, etc. The agreements with state agencies would not be 
difficult but, automation would be very expensive requiring an initial 
up-front investment of state funds. I would need to include this 
additional funds request in my 2018 budget with your approval. The 
estimated cost associated with this change would be approximately $1.5 
million conservatively.
    Codify Work Requirements--The WIOA State Plan specifically 
addresses both TANF and SNAP caseloads in the Workforce Development 
initiative.
    Improve Eligibility Verification and Monitoring--The current 
eligibility verification and monitoring process with SNAP and TANF is 
significant . We spend more than $3 million per year to utilize all 
Federal match opportunities. In addition, the MOU with MDES is intended 
to further the income verification process with minimal costs 
associated with this match.
    Improve Identity Verification--The FGA report targets improved 
identity verification as a solution to identity fraud etc. in the 
Medicaid program. The SNAP Federal regulations allow the state to pend 
eligibility verification for head of household but not for the other 
household members.
    Share Data Across Agencies--MDHS has executed multiple MOUs with 
the specific agencies associated with the needs based programs we 
administer. The WIOA State Plan as well as the State Workforce 
Development Board have been driving forces in the data sharing project. 
NSPARC reports the new ``hubs'' for real time data sharing will be 
fully available July 2019.
    Add Additional Programs to the National Accuracy Clearinghouse 
(NAC)--MDHS has lead the nation in developing the NAC with five states 
as part of the original consortium through a pilot program allowed by 
the United States Department of Agriculture (USDA). The national office 
recently announced they would allow an expansion of this project. The 
USDA is not offering additional funding but, Mississippi agreed to 
continue to lead this effort. The governance structure for the program 
is being developed with our Federal partners and there are 22 states 
who have expressed interest in joining the project. Other programs, 
such as Medicaid, has definitely been a key factor in the design. This 
took approximately 12 months of onboarding associated with this 
process.
Law of 16
    We have [i]dentified the need for professional and personal 
development for both our staff and those we serve. The Law of 16 
Development Program has been implemented agency wide and we are now 
working with other state agencies to train their staff. In addition, we 
have implemented this program to address the needs of those we serve. 
We see this as a way to eliminate one of the last barriers to finding 
true self sufficiency for those who seek to not be dependent on needs 
based programs. Empowering individuals and families is transformational 
in the field of Human Services and we are more than willing to be 
leaders in this area.
Childcare Fraud and Biometrics
    The National Child Care Reauthorization Bill passed in 2015 with 
final rules received at the end of September 2016 imposes a multitude 
of changes on states. Many have called these changes unfunded mandates. 
Working with partner agencies as well as the SECAC, MDHS submitted the 
Child Care State Plan which was conditionally approved. Our Federal 
partners are allowed the state up to 18 months to develop a working 
plan to submit for approval followed by statewide implementation. Fraud 
prevention and a quality are two of the key components of the new 
requirements
Summary and Moving Forward
    The agency will continue to move forward to identify cost savings 
and efficiencies to ensure we are responsive to those seeking our 
services but, more importantly to the taxpayers of Mississippi. MDHS is 
rebranding the agency to move towards Workforce Development centered 
practice.
    MDHS is up for the challenge. Restructuring human services to meet 
the ever evolving needs specific to Mississippi is worth the energy and 
effort. Please find enclosed a quick view of highlights from each of 
the program areas.
            Respectfully,

John Davis,
Executive Director,
Mississippi Department of Human Services.
                              Attachment 1
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                              Attachment 2
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    The Chair. Thank you very much.
    Ms. Davis, you are recognized for 5 minutes.

 STATEMENT OF LISA DAVIS, J.D., SENIOR VICE PRESIDENT, NO KID 
             HUNGRY CAMPAIGN, SHARE OUR STRENGTH, 
                        WASHINGTON, D.C.

    Ms. Lisa Davis. Thank you for the opportunity to join you 
here today to discuss broad-based categorical eligibility and 
how it strengthens SNAP's ability to help working poor families 
with children.
    My name is Lisa Davis, and I am the Senior Vice President 
of Share Our Strength's No Kid Hungry Campaign. Share Our 
Strength's mission is to end hunger in the United States and 
abroad. And through our No Kid Hungry Campaign, we help connect 
children and families who are living in poverty with the 
Federal nutrition programs for which they are eligible, and we 
advocate to strengthen policies to end hunger.
    First, I want to note that broad-based categorical 
eligibility is an effective and a practical policy that helps 
low-income working families move out of poverty and build 
financial security, which is a goal I think we all would 
support. I urge you to continue to oppose efforts to restrict 
or eliminate it.
    SNAP is, by anyone's definition, our nation's most 
successful child nutrition program. A robust body of research 
reinforces its positive impacts. It reduces food insecurity and 
deep poverty. It improves children's health, their education 
outcomes, and even their lifetime earnings. Indeed, SNAP is an 
investment with an ROI that any corporate executive would envy.
    The three points that I want to get across today about 
broad-based categorical eligibility are: one, it primarily 
benefits working poor families with high living expenses; it is 
not an automatic pathway to SNAP benefits, contrary to what you 
may hear; and, finally, it has a marginal impact on SNAP 
caseloads and benefit costs.
    By allowing states to align their eligibility and asset 
tests for SNAP with TANF, it strengthens the ability of low-
income working families to get benefits from SNAP, which helps 
eliminate and ease a benefit cliff so that if they suddenly are 
making just a few dollars over 130 percent of poverty they 
don't abruptly lose benefits. It helps them build assets to 
weather an unexpected financial storm.
    And $9 out of every $10 that go out in SNAP benefits 
through BBCE go to households with earned income. This benefits 
people who are working.
    Let me give you an example. A single mother with two 
children who works full-time and earns $12.50 an hour has an 
income at about 125 percent of poverty and could receive about 
$161 a month in SNAP. Without broad-based categorical 
eligibility, if her wages increase by only 50 an hour, her 
income would put her above 130 percent of poverty, her family 
would lose SNAP benefits, and be about $75 a month worse off in 
net assets.
    My second point: while broad-based categorical eligibility 
conveys eligibility to families and households whose gross 
incomes are over 130 percent of poverty, it is not an automatic 
pathway. These families still have to go through the regular 
SNAP application process, with its rigorous procedures for 
documenting income and circumstances. Families can be 
categorically eligible for SNAP, but not receive a benefit 
because their net income after deductions is simply too high.
    Finally, it has a marginal impact on SNAP costs. In a study 
earlier this year, the Congressional Research Service 
determined that only 4.2 percent of SNAP households have gross 
income, before deductions, within that broad-based-categorical-
eligibility range of 131 percent of poverty to 200 percent of 
poverty. And studies show that only 0.2 percent of benefits go 
to households with net incomes above the poverty line.
    In a nation where 12 million of our children are living in 
food-insecure households, broad-based categorical eligibility 
is a critical support to helping their families connect with 
SNAP benefits for food at home and for getting them enrolled in 
free school meals.
    That access to free school meals is particularly important. 
As Congressman Johnson noted, many kids who might lose free 
meals through categorical eligibility being eliminated could 
still get reduced-price meals. But those limited costs are 
really burdensome for families that are trying to balance 
housing costs that take up 50 percent of their income, 
childcare costs that can run up to $1,000 a month, and work 
their way out of poverty.
    Finally, I would like to leave you with one final thought: 
broad-based categorical eligibility is working exactly as 
intended. It encourages and supports work, and it helps low-
income families build financial stability and move towards 
self-sufficiency. These are goals that we should all support.
    Thank you.
    [The prepared statement of Ms. Lisa Davis follows:]

 Prepared Statement of Lisa Davis, J.D., Senior Vice President, No Kid 
         Hungry Campaign, Share Our Strength, Washington, D.C.
Protecting Children's Access to School Meals by Maintaining Broad-Based 
        Categorical Eligibility in SNAP
    Chair Fudge, Ranking Member Johnson, and Members of the 
Subcommittee, thank you for the opportunity to appear before you today 
to testify about the important role broad-based categorical eligibility 
(BBCE) in the Supplemental Nutrition Assistance Program (SNAP) plays in 
helping working poor families with children. My name is Lisa Davis, 
Senior Vice President of Share Our Strength's No Kid Hungry Campaign.
    Share Our Strength is an organization committed to ending hunger 
and poverty in the United States and abroad. Through our No Kid Hungry 
campaign, we help end hunger and food insecurity in America by 
connecting children and families to the Federal nutrition programs for 
which they are eligible.
    My testimony today is divided into two sections: (1) a discussion 
of Broad-Based Categorical Eligibility, how it works and who it helps; 
and (2) a brief overview of the SNAP program more generally.
    Forty million people live in food-insecure households in the United 
States, including 12.5 million children. Millions more live paycheck to 
paycheck, one emergency away from becoming food-insecure themselves. A 
study by the Federal Reserve shows that four in ten Americans couldn't 
come up with $400 for an emergency expense without selling something or 
borrowing money.\1\ SNAP is a nutritional lifeline for many of these 
families, helping to ensure that they can feed their families as they 
work toward greater financial stability. It is also important to 
recognize that not everyone who is food-insecure qualifies for SNAP; 
nationally three in ten individuals (29 percent) estimated to be food-
insecure live in households that have incomes above the eligibility 
threshold for SNAP.\2\
---------------------------------------------------------------------------
    \1\ Board of Governors of the Federal Reserve System. 2018. Report 
on the Economic Well-Being of U.S Households in 2017 (https://
www.federalreserve.gov/publications/files/2017-report-economic-well-
being-us-households-201805.pdf).
    \2\ Feeding America. 2018. Map the Meal Gap 2018, A Report on 
County and Congressional District Food Insecurity and County Food Cost 
in the United States in 2016 (https://www.feedingamerica.org/sites/
default/files/research/map-the-meal-gap/2016/2016-map-the-meal-gap-
full.pdf).
---------------------------------------------------------------------------
    Eligibility for SNAP is based upon household income and resources. 
To qualify under Federal law, gross income for households, except for 
those with an elderly or disabled member, cannot exceed 130 percent of 
the Federal poverty level. Additionally, all households must show that 
their monthly net income, after deductions, does not exceed 100 percent 
of the poverty level. SNAP benefit amounts are based on a household's 
size, income and expenses. Benefits phase out gradually as earnings 
increase, thus incentivizing participants to work.
    Broad-Based Categorical Eligibility (BBCE) is a policy that 
provides states the option to align income eligibility and asset limits 
for SNAP with the eligibility rules they use in programs financed under 
their Temporary Assistance for Needy Families (TANF) block grant or 
state maintenance of effort (MOE) funded benefits. There are varying 
income eligibility thresholds within states that utilize the BBCE 
option, though no state has a gross income limit above 200 percent of 
the Federal poverty guidelines, or $51,500 for a family of four in 
2019. Households that qualify for SNAP through BBCE have gross incomes 
over the Federal poverty line but must have net incomes at or below 100 
percent of poverty after high-cost necessities such as housing, 
childcare and health care expenses are deducted from their gross 
incomes.
    As of October 2018, state leaders in 40 states, the District of 
Columbia, Guam and the Virgin Islands have adopted BBCE policies.\3\ Of 
these, 33 states, D.C, Guam and the Virgin Islands have adjusted the 
gross income eligibility requirements to better reflect the cost of 
living in their communities and 37 have adjusted or eliminated the 
asset test to prevent low-income families who otherwise qualify from 
losing access because they have modest savings or even a reliable 
vehicle.
---------------------------------------------------------------------------
    \3\ United States Department of Agriculture (USDA). 2018. Broad-
Based Categorical Eligibility (BBCE) (https://fns-prod.azureedge.net/
sites/default/files/snap/BBCE.pdf).
---------------------------------------------------------------------------
    BBCE isn't an automatic pathway to SNAP. Categorical eligibility 
does not mean that a household will automatically receive SNAP 
benefits.\4\ Families must still apply and qualify for benefits through 
the regular application process, undergoing rigorous procedures for 
documenting applicants' income and complying with other mandatory 
policies, such as work requirements and time limits for Able-Bodied 
Adults Without Dependents. Thus, households can be categorically 
eligible for SNAP but have net income too high to receive a benefit. In 
2017, only about 0.2% of SNAP benefits went to households with monthly 
disposable incomes above 100% of the Federal poverty line.
---------------------------------------------------------------------------
    \4\ Congressional Research Services. 2018. Supplemental Nutrition 
Assistance Program (SNAP): A Primer on Eligibility and Benefits 
(https://www.everycrsreport.com/files/
20180411_R42505_202751806b27332231c005186f8adbc99e94df77.pdf).
---------------------------------------------------------------------------
    BBCE incentivizes work and saving. BBCE provides states with the 
flexibility to modestly adjust the gross income and asset limit 
thresholds to ease the SNAP income cutoff and provide benefits to 
working poor families, thus providing stronger work incentives and a 
pathway out of poverty. For example, the higher gross income limits 
under BBCE help ease the ``benefit cliff'' for working families with 
high expenses and low disposable income, allowing families to gradually 
phase off SNAP when earnings increase. It also reduces administrative 
costs and complexity for state agencies administering SNAP and 
streamlines eligibility across low-income assistance programs. 
Similarly, adjusting or eliminating the asset test allows families to 
accumulate modest savings to help weather emergencies such as a car 
repair, illness or reduced hours.
BBCE Helps Working Poor Families, Seniors and the Disabled
    According to a 2012 GAO study that examined SNAP participation data 
from 2010, the majority (56 percent) of households eligible for SNAP 
under BBCE include at least one child and 65.9 percent of households 
include at least one member with earned income. Nearly 28 percent of 
such households included a member receiving Social Security benefits, 
indicating they are likely to be either age 62 or older or disabled. A 
more recent analysis by the Center on Budget and Policy Priorities 
(CBPP) demonstrated that about \2/3\ of BBCE-benefits go to households 
with gross income less than 150 percent FPL or $38,625 for a family of 
four in 2019 while 80 percent of benefits go to families with 
children.\5\
---------------------------------------------------------------------------
    \5\ Dean, Stacy. 2016. Balancing State Flexibility without 
Weakening SNAP's Success (https://www.cbpp.org/food-assistance/
balancing-state-flexibility-without-weakening-snaps-success). Testimony 
before the U.S House of Representatives.
---------------------------------------------------------------------------
    The Urban Institute found that nearly 70 percent of families with a 
gross income of less than 200 percent of poverty experienced a range of 
material hardship, including an inability to provide food for their 
families, missed rent or mortgage payments, loss of housing, inability 
to pay medical bills or unmet medical needs due to costs.\6\ BBCE helps 
those families afford the food they need to survive and get back on 
their feet, while managing other basic household necessities like rent, 
child care, transportation, and health care costs.
---------------------------------------------------------------------------
    \6\ Karpman, Michael, et al., 2018. The Well-Being and Basic Needs 
Survey (https://www.urban.org/sites/default/files/publication/98919/
the_well-being_and_basic_needs_sur
vey_0.pdf). Urban Institute.
---------------------------------------------------------------------------
    Here are some examples of the cost burdens facing low-income 
working families in states that have adopted BBCE and how BBCE helps 
support those families:

          In Iowa, BBCE adjusts the SNAP gross income threshold to 160 
        percent of the Federal Poverty Limit (FPL), enabling a family 
        of four to qualify for SNAP with gross annual income between 
        $33,475 and $41,200. Based on a study by the United Ways of 
        Iowa, the average household survival budget in 2016 (the latest 
        data available) for such a family was $56,772, or more than 200 
        percent of the Federal Poverty Level for a family of four.\7\ 
        Even with the modest resources provided by SNAP, Iowa families 
        who are eligible for SNAP through BBCE and have net incomes low 
        enough to receive benefits still struggle to balance the costs 
        of meeting basic needs.
---------------------------------------------------------------------------
    \7\ Hoopes, Stephanie (PhD). 2018. ALICE: A Study of Financial 
Hardship in Iowa (https://www.dropbox.com/s/sqjm47vcyid18po/
18UW_ALICE_Report_IA_Update_Lowres_8.3.18_
FINAL.pdf). United Ways of Iowa.

                            Average Iowa Household Survival Budget for Family of Four
----------------------------------------------------------------------------------------------------------------
                                                   Monthly Cost                          Annual Cost
----------------------------------------------------------------------------------------------------------------
                       Housing                                   $659                               $7,908
                    Child Care                                 $1,031                              $12,372
                          Food                                   $525                               $6,300
                Transportation                                   $697                               $8,364
                   Health Care                                   $800                               $9,600
                    Technology                                    $75                                 $900
                 Miscellaneous                                   $430                               $5,160
                         Taxes                                   $514                               $6,168
                                      --------------------------------------------------------------------------
  Total..............................                          $4,731                              $56,772
----------------------------------------------------------------------------------------------------------------

          Imagine Dan and Karen a married couple with two kids renting 
        a house just outside of Des Moines, Iowa. Dan works full time 
        in the deli at the local supermarket and earns $12.30 per hour. 
        His wife, Karen, is a clerk at a clothing store. She makes 
        $12.82 per hour but is only scheduled 30 hours per week. Their 
        kids, Shaun (age 5) and Michael (age 8) eat school breakfast 
        and lunch most days. While the family's gross income of $45,584 
        exceeds the Federal SNAP income limit, their net income after 
        deductions for earned income, housing, child care and medical 
        expenses is below 100 percent of poverty, so the family 
        qualifies to receive $22 in SNAP benefits each month because of 
        BBCE. Shaun and Michael also qualify for free school meals. 
        Without BBCE the family would be ineligible for SNAP benefits 
        and the kids would lose access to the free school meal program. 
        While their children would qualify for reduced price school 
        meals without BBCE, at 30 per breakfast and 40 per lunch, 
        those costs would be burdensome.
          In Florida, BBCE increases the SNAP gross income threshold to 
        200 percent of the FPL, enabling a family of four to qualify 
        for SNAP if their gross annual income is between $33,475 and 
        $51,500. Based on a study by the United Way of Florida, the 
        average household survival budget in 2016 (the latest data 
        available) for such a family was $55,164.\8\ Just as we saw in 
        Oregon, the SNAP benefits they qualify to receive under BBCE 
        provides critical help toward meeting their most basic needs.
---------------------------------------------------------------------------
    \8\ Hoopes, Stephanie (PhD). 2018. ALICE: A Study of Financial 
Hardship in Florida (http://www.uwof.org/sites/uwof.org/files/2018 FL 
ALICE REPORT AND CO PAGES.pdf). United Way of Florida.

                          Average Florida Household Survival Budget for Family of Four
----------------------------------------------------------------------------------------------------------------
                                                   Monthly Cost                          Annual Cost
----------------------------------------------------------------------------------------------------------------
                       Housing                                   $848                              $10,176
                    Child Care                                 $1,024                              $12,288
                          Food                                   $542                               $6,504
                Transportation                                   $653                               $7,836
                   Health Care                                   $720                               $8,640
                    Technology                                    $75                                 $900
                 Miscellaneous                                   $418                               $5,016
                         Taxes                                   $317                               $3,804
                                      --------------------------------------------------------------------------
  Total..............................                          $4,597                              $55,164
----------------------------------------------------------------------------------------------------------------

          Picture Ann and Larry, a married couple renting a house in 
        Broward County, Florida with their two daughters, Jessica (age 
        2) and Rachel (age 4). Ann works as a home health care aide and 
        her husband Larry is a cashier at a local gas station. Both 
        work full-time and earn $8.46--the minimum wage in Florida. 
        Their total gross income is approximately $35,276 or 137 
        percent of the Federal Poverty Level. Without BBCE, they would 
        be ineligible for SNAP. Because Florida has adopted BBCE, and 
        Ann and Larry have significant housing and child care expenses, 
        they can qualify for a maximum monthly SNAP benefit of $108.
Eliminating BBCE Would Cause Hardship
    An independent study by the Center on Budget and Policy Priorities 
from 2018 shows that approximately two million people, mostly low-
income working-families and seniors, would lose SNAP if BBCE were 
eliminated.\9\ While these families have gross incomes or assets 
moderately above the Federal SNAP limits, their net incomes are below 
the poverty line due to high costs of housing, child care expenses, and 
other basic needs. Another recent study by Mathematica Policy Research 
reached the same conclusion. Its projection predicted that eliminating 
BBCE would lead to 2.1 million households losing food access under 
SNAP, including 469,000 (23 percent) households with children.\10\ The 
elimination of BBCE would have serious repercussions for those low-
income children and their families.
---------------------------------------------------------------------------
    \9\ Rosenbaum, Dottie. 2018. House Farm Bill's SNAP Changes Are a 
Bad Deal for States and Low-Income Households (https://www.cbpp.org/
research/food-assistance/house-farm-bills-snap-changes-are-a-bad-deal-
for-states-and-low-income). Center on Budget and Policy Priorities.
    \10\ Cunnyngham, Karen. 2018. Simulating Proposed Changes to the 
Supplemental Nutrition Assistance Program: Countable Resources and 
Categorical Eligibility (https://www.mathematica-mpr.com/our-
publications-and-findings/publications/simulating-proposed-changes-to-
the-supplemental-nutrition-assistance-program-countable-resources). 
Mathematica Policy Research Brief.
---------------------------------------------------------------------------
    Low-income school-aged children would be hit the hardest. Two 
hundred sixty-five thousand low-income children would lose access to 
free school meals if their families were no longer eligible for SNAP 
benefits.\11\ While some families may remain eligible for reduced-price 
meals, even the low cost of reduced-price meals can be a significant 
burden on low-income families, especially those with multiple school-
aged children. This has long-term consequences for children; consistent 
access to nutrition is linked to cognitive and physical development, 
test scores, and long-term health and education outcomes. SNAP and 
school meals help children grow up healthy, educated, and more likely 
to break the cycle of poverty.
---------------------------------------------------------------------------
    \11\ Congressional Budget Office. 2018. H.R. 2 Agriculture and 
Nutrition Act of 2018 (https://www.cbo.gov/system/files?file=2018-07/
hr2_1.pdf).
---------------------------------------------------------------------------
    Families and seniors would be penalized for saving modest amounts. 
The flexibility afforded to states through BBCE is needed to 
effectively respond to the unique financial stresses faced by low-
income families. Without BBCE, low-income families who have saved as 
little as $2,251--for a more reliable car, a down payment on an 
apartment, health care, or to cover an emergency expense--would have 
their SNAP benefits terminated. Building assets helps low-income 
families invest in their future and avert devastating financial crises 
that could push them deeper into poverty, housing insecurity, and 
greater reliance on safety net programs. Reinstating asset limits by 
eliminating BBCE would discourage families from saving and undermine a 
family's ability to withstand future income shocks.\12\ In fact, 
eliminating BBCE would result in some working households losing access 
to SNAP and school meals which help to feed their families merely 
because they own a modest car to commute to and from work and meet 
other vital needs.
---------------------------------------------------------------------------
    \12\ Supra note at 5.
---------------------------------------------------------------------------
    Local nonprofits would face increased pressure. Cutting access to 
critical food assistance for hardworking and struggling Americans will 
strain the resources of local nonprofits and private charities. These 
groups are already stretched thin in meeting existing need. They will 
be unable to manage the spike in demand for their services if public 
food assistance is curtailed.
BBCE Has a Marginal Impact on SNAP Participation and Costs
    SNAP's caseloads grew significantly between FY2007 and FY 2013 
primarily as a result of more households qualifying for SNAP due to the 
recession.\13\ The Economic Recovery Act also included an increase in 
benefits of approximately 13.6 percent that was in place through 
November 2013. Since FY 2014, SNAP participation and costs have 
continued to decline, dropping from a high of 47.6 million participants 
in FY 2013 to 38.9 million participants in March 2019. While the number 
of states choosing to utilize BBCE over the past decade increased, 
expansion of BBCE has contributed minimally to SNAP caseload growth 
over that period. A 2019 analysis by the Congressional Research Service 
estimates that 85.3 percent of SNAP households without an elderly or 
disabled member had gross income below the FPL. Another 10.5 percent 
had gross income between 100 percent and 130 percent of poverty and 
only 4.2 percent of BBCE eligible households or 529,921, had incomes at 
131 percent of poverty and higher.\14\
---------------------------------------------------------------------------
    \13\ Congressional Research Service (CRS). 2019. The Supplemental 
Nutrition Assistance Program (SNAP): Categorical Eligibility (https://
fas.org/sgp/crs/misc/R42054.pdf).
    \14\ Ibid.
---------------------------------------------------------------------------
    Data examining family assets by income also suggests that few 
households that qualify for SNAP under BBCE are likely have assets that 
exceed Federal asset limits. In 2007, before the Great Recession, only 
60 percent of working-age poor families had a checking or savings 
account and the median value was $310.\15\
---------------------------------------------------------------------------
    \15\ Signe-Mary McKernan, Caroline Ratcliffe, and Trina Williams 
Shanks. 2012. Can the Poor Accumulate Assets? (https://www.urban.org/
sites/default/files/publication/25676/412624-Can-the-Poor-Accumulate-
Assets-.PDF). Urban Institute.
---------------------------------------------------------------------------
    A similar study by the Government Accountability Office (GAO) that 
reviewed 24 states utilizing BBCE to raise household gross income 
limits concluded that while implementation of BBCE by these states 
enabled more households to receive SNAP, the 2008 economic downturn 
likely played a more significant role in the SNAP participation 
increase in the last decade than BBCE.\16\
---------------------------------------------------------------------------
    \16\ United States Government Accountability Office (GAO). 2017. 
Federal Low-Income Programs: Eligibility and Benefits Differ for 
Selected Programs Due to Complex and Varied Rules (https://www.gao.gov/
assets/690/685551.pdf).
---------------------------------------------------------------------------
    GAO's report also found that BBCE increased total SNAP benefit 
costs by less than one percent (0.7 percent).\17\ Because SNAP benefits 
are calculated based on household size and income and provide greater 
benefits to those with fewer means, most BBCE households tend to be 
eligible for lower average monthly SNAP benefits, $81 for BBCE 
households vs. the average $293 received by all other SNAP 
households.\18\ 
---------------------------------------------------------------------------
    \17\ Ibid.
    \18\ Ibid.
---------------------------------------------------------------------------
BBCE Streamlines the Benefit Process for States
    BBCE has enabled states to simplify and streamline their SNAP 
operations, reduce administrative costs, and ensure access for families 
in need--particularly low-income working families that are struggling 
to make ends meet with limited resources and high costs. GAO found that 
BBCE simplifies program rules and the eligibility determination process 
for SNAP by creating consistency in income and resource limits across 
low-income assistance programs. This streamlining can ease the 
administrative burden for states and participants, save resources, 
improve productivity, and return administrative focus to essential 
program activities.\19\
---------------------------------------------------------------------------
    \19\ Ibid.
---------------------------------------------------------------------------
    Restricting or eliminating BBCE would not only have a detrimental 
impact on the health and economic well-being of millions of struggling 
Americans, including children, it would add undue administrative burden 
on program administering agencies and staff at the state level.
    The bottom line is that SNAP is an effective lifeline to low-income 
working families across the country, especially those with children. 
BBCE provides states with the flexibility they need to adapt SNAP 
eligibility to align with other assistance programs and to address the 
unique circumstances and needs of their eligible low-income residents 
to encourage and support work and the building of assets to help those 
families transition out of poverty. Eliminating or restricting BBCE 
will inflict lasting harm on children, families, communities, states, 
and the nation as a whole.
SNAP Provides a High Return on Investment
    SNAP helps to ensure that families with children who have fallen on 
hard times have access to the nutrition they need to get back on their 
feet and to grow up healthy and strong. 65% of SNAP households are 
families with children, seniors, or people with disabilities. Nearly 
\1/2\ (44 percent) of SNAP recipients are children while another 21 
percent of recipients are adults who live with those children.\20\ 
Benefits are not overly generous, averaging to about $1.40 per person 
per meal.
---------------------------------------------------------------------------
    \20\ Supra note at 3. See also Gray, Kelsey Farson, et al., 2016. 
Characteristics of Supplemental Nutrition Assistance Program 
Households: Fiscal Year 2015 (https://www.fns.usda.gov/snap/
characteristics-supplemental-nutrition-assistance-households-fiscal-
year-2015.) prepared for the Food and Nutrition Service, USDA.
---------------------------------------------------------------------------
    SNAP is the nation's most effective anti-hunger program, serving as 
the front line of defense against hunger, food insecurity, and the 
long-term detriments they cause.

  <bullet> The program lifted 8.4 million people of poverty in 2015, 
        reducing the poverty rate from 15.4 to 12.8 percent.\21\
---------------------------------------------------------------------------
    \21\ Wheaton, Laura, and Victoria Tran. 2016. Anti-Poverty Effects 
of SNAP (https://www.urban.org/research/publication/antipoverty-
effects-supplemental-nutrition-assistance-program). Urban Institute.

  <bullet> Its effect was more significant among children, with 3.8 
        million kids (28 percent) lifted out of poverty by SNAP in 
        2014.\22\
---------------------------------------------------------------------------
    \22\ Center on Budget and Policy Priorities. 2017. SNAP Helps 
Millions of Children (https://www.cbpp.org/research/food-assistance/
snap-helps-millions-of-children).

  <bullet> In addition, SNAP lifted more than two million children out 
        of deep poverty in 2014.\23\
---------------------------------------------------------------------------
    \23\ Ibid.

  <bullet> SNAP reduces food insecurity among high-risk children by 20 
        percent and improves their health and well-being by 35 
        percent.\24\
---------------------------------------------------------------------------
    \24\ Center on Budget and Policy Priorities. 2018. Chart Book: SNAP 
Helps Struggling Families Put Food on The Table (https://www.cbpp.org/
research/food-assistance/chart-book-snap-helps-struggling-families-put-
food-on-the-table).

    SNAP is an important work support and work incentive program for 
the millions of low-income Americans struggling to make ends meet due 
to the rising cost of living, lack of affordable housing and childcare 
services, and limited access to transportation. Its benefits focus on 
those most in need and least able to afford a nutritionally adequate 
diet, achieving its core purpose of raising the nutritional standards 
of low-income Americans.
    Supports Working Families and Encourages Work: The SNAP benefit 
formula is structured to encourage and reward work. For every 
additional dollar a SNAP recipient earns, his or her benefits decline 
by only 24 to 36, providing families with a strong incentive to work 
longer hours or to seek and accept higher paying employment. In fact, 
most SNAP participants who can work, do work. Among working-age, non-
disabled adults participating in SNAP in a typical month in mid-2012, 
52 percent worked in that month and about 74 percent worked at some 
point in the year before or the year after that month.\25\ However, 
participants are disproportionately employed in low-wage sales and 
service jobs with unpredictable schedules and limited security--such as 
cashier, cook, or home nursing aid.\26\ SNAP serves as an important 
income support, making it easier for families to afford food as they 
earn more and work toward increased financial stability. SNAP also 
serves as an important support for low-income veterans who are 
unemployed, underemployed or struggling with low-wages or unpredictable 
work schedules. Data shows that nearly 1.4 million low-income veterans 
received SNAP at some point during the previous year.\27\
---------------------------------------------------------------------------
    \25\ Wolkomir, Elizabeth and Lexin Cai. 2019. The Supplemental 
Nutrition Assistance Program Includes Earning Incentives (https://
www.cbpp.org/research/food-assistance/the-supplemental-nutrition-
assistance-program-includes-earnings-incentives). Center on Budget and 
Policy Priorities.
    \26\ Keith-Jennings, Brynne and Vincent Palacios. 2017. SNAP Helps 
Millions of Low-Wage Workers: Crucial Financial Support Assists Workers 
in Jobs with Low Wages, Volatile Income, and Few Benefits (https://
www.cbpp.org/research/food-assistance/snap-helps-millions-of-low-wage-
workers). Center on Budget and Policy Priorities.
    \27\ Keith-Jennings, Brynne and Lexin Cai. 2018. SNAP Helps Almost 
1.4 Million Low-Income Veterans, Including Thousands in Every State 
(https://www.cbpp.org/research/food-assistance/snap-helps-almost-14-
million-low-income-veterans-including-thousands-in). Center on Budget 
and Policy Priorities.
---------------------------------------------------------------------------
    Low Overhead: SNAP is administrated with relatively low overhead 
cost and a high degree of accuracy.\28\ About 90 percent of Federal 
SNAP spending goes to providing benefits to households for purchasing 
food. Of the remaining ten percent, about seven percent is used for 
state and Federal administrative costs, including eligibility 
determinations, employment and training, nutrition education and anti-
fraud activities. The final three percent is used for other food 
assistance programs such as the block grant for food assistance in 
Puerto Rico and American Samoa, commodity purchases for the Emergency 
Food Assistance Program and for the Food Distribution Program on Indian 
Reservations.
---------------------------------------------------------------------------
    \28\ Center on Budget and Policy Priories. 2018. Policy Basics: 
Supplemental Nutrition Assistance Program (SNAP) (https://www.cbpp.org/
research/policy-basics-the-supplemental-nutrition-assistance-program-
snap).
---------------------------------------------------------------------------
    Most of the program's success is due to the uniform national 
benefit structure and rigorous requirements on states and eligible 
participants. These features ensure a high degree of program integrity 
and maintain the core program focus on providing food assistance for 
those who need it most.
    Improves Health and Financial Well-Being: Multiple research studies 
have demonstrated the crucial role of SNAP in improving the health, 
academic performances, and overall well-being of children.\29\ In 
addition to improving the health and well-being of children, research 
shows that SNAP improves households' financial well-being while 
promoting long-term economic mobility and security. It does so by 
freeing up available resources for other essential expenses such as 
housing, utilities and medical bills.\30\ Accordingly, SNAP 
participation reduces the risk of falling behind on rent or mortgage 
payments by seven percentage points, utility payments by 15 percentage 
points and medical hardship or the risk of forgoing a doctor's visit 
due to financial reasons by nine percentage points.\31\
---------------------------------------------------------------------------
    \29\ Carlson, Steven and Brynne Keith-Jennings. 2018. SNAP Is 
Linked with Improved Nutritional Outcomes and Lower Health Care Costs 
(https://www.cbpp.org/research/food-assistance/snap-is-linked-with-
improved-nutritional-outcomes-and-lower-health-care). Center on Budget 
and Policy Priorities.
    \30\ Schanzenbach, Diane Whitmore and Lauren Bauer and Greg Nantz. 
2016. Twelve Facts About Food Insecurity and SNAP (https://
www.brookings.edu/research/twelve-facts-about-food-insecurity-and-snap/
). Brookings Institution.
    \31\ Ibid.
---------------------------------------------------------------------------
    By improving a family's financial well-being, SNAP can help 
families build their assets. By building assets, families can make 
crucial investments in their future and avert a financial crisis that 
could push them deeper into poverty or even lead them to become 
homeless. It also helps families avoid accumulating debt, have a better 
chance of avoiding poverty, and prevent greater reliance on the 
government in old age. In short, SNAP helps families, especially those 
with children, meet their immediate nutritional needs and avoid 
succumbing to the vicious cycle of poverty.
    In the past, Congress and USDA have wisely provided states with the 
flexibility they need to ensure that SNAP can adapt to local 
circumstances and respond to the needs of underserved and very 
vulnerable groups such as children, hardworking-families, veterans, and 
seniors.
Conclusion
    BBCE is a policy that balances state flexibility with effective 
national standards to allow states to better support working poor 
families with high living costs such as housing, child care expenses, 
medical expenses and other basic needs. If it were eliminated, roughly 
two million people, mostly low-income working-families and seniors, 
would lose access to SNAP and about 265,000 children would lose access 
to free school meals.
    Maintaining BBCE under SNAP ensures that low-income working 
families can continue to put food on the table while they work to 
improve their economic security and transition out of poverty. It also 
provides states with the flexibility necessary to meet the food and 
nutrition needs of their low-income populations. It is important to 
underscore that while BBCE does confer SNAP eligibility to families 
with gross incomes modestly above 130 percent of poverty, it does not 
automatically grant an individual or family a SNAP benefit. The actual 
receipt of SNAP benefits requires their net income to be at or below 
100 percent of poverty.
    I also can't emphasize enough the consequences for low-income 
children if states were to lose their needed flexibility under BBCE. 
Loss of access to SNAP for these kids and families would ripple 
throughout their lives--eliminating needed nutrition at home and 
eligibility for free school meals as well. When children aren't 
consistently getting the nutrition, they need to grow up healthy and 
strong, it exacerbates all the other problems they face--diminishing 
their academic performance, mental and physical health, over-all 
wellbeing, and dimming opportunities to escape the cycle of poverty.
    We all want our children to grow up healthy and able to achieve 
their full-potential, becoming the next generation of teachers, 
engineers and innovators, strengthening the economic and security 
opportunities of the Unites States. SNAP is a vital investment in the 
future of our kids, our communities, and our country.
    We urge Congress and the Administration to work alongside 
nonprofits, businesses, the faith community, and individuals across the 
country to eradicate childhood hunger and poverty in United States by 
maintaining and encouraging BBCE options for states in the 
administration of SNAP. We look forward to continuing as your partner 
in the implementation and strengthening of evidence-based policies and 
practices to strengthen child nutrition programs including SNAP, WIC, 
National School Breakfast and Lunch, the Summer Food Service Program 
and the Child and Adult Care Food Program.
    Thank you.

    The Chair. Thank you.
    Dr. Waxman, you are recognized for 5 minutes.

       STATEMENT OF ELAINE WAXMAN, M.P.P., Ph.D., SENIOR 
  FELLOW, INCOME AND BENEFITS POLICY CENTER, URBAN INSTITUTE, 
                        WASHINGTON, D.C.

    Dr. Waxman. Good afternoon, Chair Fudge, Ranking Member 
Johnson, and Members of the Subcommittee. Thank you for the 
opportunity to testify and share insights from my research on 
food insecurity and access to SNAP.
    I am a Senior Fellow at the Urban Institute, but the views 
expressed in this testimony are my own and should not be 
attributed to the Urban Institute, its trustees, or funders.
    Despite an improving economy, food insecurity persists at 
high levels across the U.S., affecting approximately 14 million 
people. In 2018, a National Urban Institute survey found nearly 
four in ten non-elderly adults reported that their families 
experienced material hardship, such as trouble paying for 
housing, utilities, food, or medical care.
    SNAP is a critical resource for many families across the 
U.S. Although the number of families receiving SNAP benefits 
has continued to decline as the economy improves, 36.3 million 
people participate in the program.
    Research shows that SNAP does exactly what Congress 
intended it to do: it decreases food insecurity. SNAP reduces 
the prevalence of food insecurity by five to ten percentage 
points, including among households with children.
    Moreover, SNAP is effective in reducing poverty. Urban 
research shows that the program lifted 8.4 million people from 
poverty in 2015, and poverty among children decreased by 28 
percent.
    These data are important to keep in mind when we think 
about policy changes that might reduce the number of families 
participating in SNAP. Fewer families on SNAP might translate 
into greater levels of food insecurity and poverty.
    I have been researching challenges facing low-income 
families for the last 2 decades, with a particular focus on 
food insecurity, family coping strategies, and Federal 
nutrition programs. BBCE enjoys widespread support across urban 
and rural states and among states with more or less 
conservative approaches to safety net programs. Briefly, here 
is what the research tells us.
    First, the vast majority of households reached through BBCE 
are already income-eligible and reflect important populations 
we need to assist, such as families who may have slightly 
higher incomes and assets and very significant expenses, like 
high housing costs, in excess of 50 percent of their income, 
medical out-of-pocket expenses, and childcare that allows them 
to work.
    Data indicate, from the most detailed study we have, that 
only 3.1 percent of all SNAP households and 3.4 percent of all 
SNAP participants would not meet income guidelines if non-cash 
BBCE were eliminated. These households received less than one 
percent of SNAP benefits.
    Second, although this population is relatively small, they 
have important characteristics. They are more likely than other 
SNAP-participating households to have children, have earned 
income, have higher income, and receive very low benefits.
    It is important to be assertive in reducing food insecurity 
for all types of families, because it is in reducing food 
insecurity that we address health risks at every stage in the 
life course. But we particularly worry about food-insecure 
households with kids and adolescents.
    Food-insecure households with children have higher rates of 
fair and poor health, have higher rates of hospitalization; 
children have increased risk of asthma and delays in cognitive 
development. Adolescents who are food-insecure are at greater 
risk for depression and other mental health problems and are 
more likely to experience suicidal ideation. Therefore, the 
ability to reach vulnerable children and adolescents is one of 
the strengths of BBCE.
    Third, BBCE supports work among those who are able to do 
so, because it helps families who may experience what is 
referred to as the benefit cliff as their earnings increase. By 
permitting states to raise the gross income limit above 130 
percent, BBCE can help mitigate the risk that families who are 
working hard may be less well off as earnings increase.
    Nearly one in five households who are food-insecure 
actually have incomes between 130 and 185 percent of the 
Federal poverty level. Many of these individuals live in 
households where there are simply not sufficient earnings to 
keep pace with family needs and where the cost of living puts 
significant pressure on family budgets.
    Finally, research shows that low assets are a significant 
contributing factor to food insecurity. There has been broad 
bipartisan recognition that assets can buffer income shocks and 
that vehicles can be essential for maintaining employment, 
accessing healthcare, and securing food, especially in rural 
areas.
    A recent Urban study found that relaxing or eliminating 
SNAP asset limits through BBCE increases the number of low-
income households who have a bank account and at least $500 
available for unexpected expenses. These findings suggest that 
reinstating Federal asset limits would harm family financial 
stability.
    In summary, I thank the Committee for the opportunity to 
share research evidence on SNAP. Our quick tour here suggests 
that eliminating or significantly restricting BBCE could 
undermine several keys goals: one, to reduce food insecurity; 
two, to encourage work and increased earnings; three, to permit 
the building of basic assets that can help buffer income shocks 
and reduce disparities; and four, to minimize the burden on 
states as they prioritize limited resources.
    Thank you so much, and I look forward to your questions.
    [The prepared statement of Dr. Waxman follows:]

  Prepared Statement of Elaine Waxman, M.P.P., Ph.D.,* Senior Fellow, 
  Income and Benefits Policy Center, Urban Institute, Washington, D.C.
---------------------------------------------------------------------------
    * The views expressed are my own and should not be attributed to 
the Urban Institute, its trustees, or its funders.
    I thank Gregory Acs, Laura Wheaton, Linda Giannarelli and Nathan 
Joo for helpful comments and Fiona Blackshaw and Archana Pyati for help 
in preparing this testimony.
---------------------------------------------------------------------------
The Importance of Broad-Based Categorical Eligibility in SNAP
    Chair Fudge, Ranking Member Johnson, and Members of the 
Subcommittee:

    Thank you for the opportunity to testify today and to share 
insights from my research on food insecurity and issues affecting 
access to the Supplemental Nutrition Assistance Program. The views 
expressed in this testimony are my own and should not be attributed to 
the Urban Institute, its trustees, or its funders.
    Despite an improving economy, food insecurity persists at high 
levels across the U.S. In 2017, the USDA reported that approximately 40 
million people--about 12.5 percent of the population--were food-
insecure. More recently, the Urban Institute's nationally 
representative Well-Being and Basic Needs Survey found that nearly four 
in ten nonelderly adults reported that in 2018, their families 
experienced material hardship--defined as trouble paying or being 
unable to pay for housing, utilities, food, or medical care at some 
point during the year--which was not significantly different from the 
share reporting these difficulties for 2017.\1\ Among adults in 
families with incomes below twice the Federal poverty level (FPL), over 
60 percent reported at least one type of material hardship in 2018.
---------------------------------------------------------------------------
    \1\ Michael Karpman, Stephen Zuckerman, and Dulce Gonzalez, 
``Despite Labor Market Gains in 2018, There Were Only Modest 
Improvements in Families' Ability to Meet Basic Needs'' (Washington, 
D.C.: Urban Institute, 2019), https://www.urban.org/research/
publication/despite-labor-market-gains-2018-there-were-only-modest-
improvements-families-ability-meet-basic-needs.
---------------------------------------------------------------------------
    SNAP is a critical resource for many families across the U.S. 
Although the number of families participating in SNAP has continued to 
decline as the economy improves, in March 2019, 36.3 million people in 
over 18 million households received SNAP benefits.\2\ Research shows 
that SNAP does exactly what it was intended to do--decrease food 
insecurity. According to recent research, SNAP reduces the prevalence 
of food insecurity by five to ten percentage points, including 
households with children.\3\ Moreover, SNAP is an effective antipoverty 
tool: in 2015, the program lifted 8.4 million people from poverty and 
reduced poverty among children by 28 percent.\4\ These data are 
important to keep in mind when we think about policy changes that might 
reduce the number of families participating in SNAP; fewer families on 
SNAP might translate into greater levels of food insecurity and 
poverty.
---------------------------------------------------------------------------
    \2\ ``Supplemental Nutrition Assistance Program (Data as of June 7, 
2019),'' https://fns-prod.azureedge.net/sites/default/files/resource-
files/34SNAPmonthly-5.pdf.
    \3\ U.S. Department of Agriculture (USDA), Food and Nutrition 
Service, Office of Policy Support, ``Measuring the Effect of 
Supplemental Nutrition Assistance Program (SNAP) Participation on Food 
Security (Summary)'' (Washington, D.C.: USDA, 2013), https://fns-
prod.azureedge.net/sites/default/files/Measuring2013Sum.pdf; Craig 
Gundersen, Brent Kreider, and John V. Pepper, ``Partial Identification 
Methods for Evaluating Food Assistance Programs: A Case Study of the 
Causal Impact of SNAP on Food Insecurity,'' American Journal of 
Agricultural Economics 99, no. 4 (2017): 875-93, https://doi.org/
10.1093/ajae/aax026.
    \4\ Laura Wheaton and Victoria Tran, The Antipoverty Effects of the 
Supplemental Nutrition Assistance Program (Washington, D.C.: Urban 
Institute, 2018), https://www.urban.org/research/publication/
antipoverty-effects-supplemental-nutrition-assistance-program.
---------------------------------------------------------------------------
What Is Broad-Based Categorical Eligibility in SNAP?
    Our topic today is one aspect of SNAP eligibility policy: broad-
based categorical eligibility, or BBCE. I'll briefly outline how states 
use this SNAP option to confer benefit eligibility on low-income 
families.
    Generally, people are eligible for SNAP if their gross income is at 
or below 130 percent of the Federal poverty guidelines, and their net 
income at or below the Federal poverty guidelines after certain 
expenses are taken into account. Households with an elderly or disabled 
member do not face a gross-income threshold, but their net income must 
not exceed 100 percent of the Federal poverty guidelines. Net income is 
determined by subtracting allowable deductions from gross income such 
as a portion of earned income, dependent care costs, medical expenses 
(for households with elderly or disabled members), child support 
payments, and shelter expenses exceeding \1/2\ of net income after 
other deductions. Households applying for SNAP must also meet certain 
other eligibility criteria, such as an asset test. In Fiscal Year 2019, 
households without a member who is elderly or has a disability must 
have assets of $2,250 or less, and households with such a member must 
have assets of $3,500 or less.\5\
---------------------------------------------------------------------------
    \5\ Countable assets include cash, resources easily converted to 
cash (such as money in checking or savings accounts), and some 
nonliquid resources. The value of family homes, retirement and 
education savings accounts, and some types of property are not counted 
toward the asset limit.
---------------------------------------------------------------------------
    SNAP households in which all members receive cash benefits from 
either Supplemental Security Income, Temporary Assistance for Needy 
Families (TANF), or general assistance are categorically eligible for 
SNAP and therefore not subject to the Federal income and asset limits. 
Categorical eligibility streamlines the application and eligibility 
determination process for states and reduces the time devoted to 
verifying resources. States also have an option through TANF called 
broad-based categorical eligibility (BBCE) to confer eligibility on a 
category of people who receive or are eligible to receive another 
noncash benefit or service offered by the state through its Temporary 
Assistance for Needy Families/Maintenance of Effort (TANF/MOE) funds. 
These TANF/MOE benefits or services that confer BBCE must meet one of 
four goals of the TANF block grant: (1) Assisting needy families so 
children can be cared for in their own homes, (2) Reducing the 
dependency of needy parents by promoting job preparation, work, and 
marriage, (3) Preventing out-of-wedlock pregnancies, and (4) 
Encouraging the formation and maintenance of two-parent families.
    Through the BBCE option, a state may align its asset and income 
limits with the TANF noncash benefit program that confers categorical 
eligibility. BBCE households must also meet all other SNAP rules and 
have net incomes low enough to qualify for SNAP benefits. States may 
include households with gross incomes up to 200 percent of the Federal 
poverty level, and states vary in their choice of gross income ceiling. 
However, households must have net incomes low enough to qualify for a 
positive SNAP benefit. One- and two-person households are eligible for 
a relatively small minimum monthly benefit: $15 in Fiscal Year 2019 for 
the 48 contiguous states and Washington, D.C., with higher levels in 
Alaska, Hawaii, Guam, and the Virgin Islands.\6\
---------------------------------------------------------------------------
    \6\ USDA, ``Supplemental Nutrition Assistance Program (SNAP) Fiscal 
Year (FY) 2019 Maximum Allotments and Deductions,'' updated October 1, 
2018, https://fns-prod.azureedge.net/sites/default/files/snap/FY19-
Maximum-Allotments-Deductions.pdf.
---------------------------------------------------------------------------
    The design of TANF/MOE programs is up to the state agency, which 
must ensure that the program conferring eligibility authorizes 
households to receive a benefit or service.\7\
---------------------------------------------------------------------------
    \7\ Lizbeth Silbermann (director, Program Development Division, 
Supplemental Nutrition Assistance Program), memo to SNAP regional 
directors regarding clarification on characteristics of broad-based 
categorical eligibility programs, December 27, 2016, https://fns-
prod.azureedge.net/sites/default/files/snap/clarification-bbce-
memo.pdf. Some states have retained what is known as narrow categorical 
eligibility, which means only certain cash and noncash services can 
confer categorical eligibility for SNAP to program participants. These 
benefits and services, which can include work support, child care, 
diversion assistance, transportation, mentoring, and other short-term 
assistance, are generally provided to only a small number of people, 
according to Laird and Trippe (2014).
---------------------------------------------------------------------------
    BBCE is a widely used state option. Forty states, plus the District 
of Columbia, Guam, and the Virgin Islands use this option, although 
they vary in how they apply it.\8\ As of October 2018, the gross income 
ceilings used by states and territories electing BBCE were as follows: 
ten retained a gross income ceiling of 130 percent of FPG, two used 160 
percent of FPG, five used 165 percent of FPG, one used 175 percent of 
FPG, eight used 185 percent of FPG, and 17 used 200 percent of FPG Most 
states and territories have used BBCE to eliminate asset tests; only 
six (Idaho, Indiana, Maine, Michigan, Nebraska, and Texas) retain some 
type of asset limit.
---------------------------------------------------------------------------
    \8\ USDA, ``Broad-based Categorical Eligibility,'' updated October 
1, 2018, https://fns-prod.azureedge.net/sites/default/files/snap/
BBCE.pdf.
---------------------------------------------------------------------------
    BBCE has enjoyed widespread support across urban and rural states, 
across all regions of the country, and among states with more and less 
conservative approaches to safety net programs. Because such a wide 
variety of states and territories have elected to use BBCE, it is 
reasonable to conclude that states find it a very important lever for 
responding to the challenges facing low-income families and for 
streamlining their administrative processes. Because so many states 
have built their procedures, information systems, and training around 
BBCE, removing or significantly restricting it will likely be costly 
and disruptive.
    Proposals to narrow or eliminate BBCE have been considered in past 
farm bill proposals, including in 2018, but they have not been passed 
in final bills. In 2018, an analysis by Mathematica Policy Research 
estimated that approximately 2.1 million households would have lost 
SNAP eligibility if BBCE had been eliminated.\9\
---------------------------------------------------------------------------
    \9\ Karen Cunnyngham, ``Simulating Proposed Changes to the 
Supplemental Nutrition Assistance Program: Countable Resources and 
Categorical Eligibility'' (Washington, D.C.: Mathematica Policy 
Research, 2018), https://www.mathematica-mpr.com/our-publications-and-
findings/publications/simulating-proposed-changes-to-the-supplemental-
nutrition-assistance-program-countable-resources?MPRSource=TCSide.
---------------------------------------------------------------------------
    Proposals to eliminate or restrict BBCE reflect concerns among some 
that the implementation of BBCE has moved SNAP away from general 
program intent.\10\ However, data about who would be income-ineligible 
if BBCE were eliminated indicate that in fact, states are reaching 
households that are a high priority for SNAP and that the vast majority 
of those with categorical eligibility would still be income-eligible if 
BBCE were eliminated. The most detailed analysis of the SNAP caseload 
under BBCE was prepared by MPR and shows that only 3.1 percent of all 
SNAP households and 3.4 percent of all SNAP individuals would have been 
income ineligible if noncash BBCE were eliminated.\11\ Moreover, 
households that would have been income ineligible received less than 
one percent of SNAP benefits, reflecting that households not meeting 
income tests are generally those with higher income, and therefore 
receiving lower benefits. This 2014 analysis found that the percentage 
of SNAP households that would become income-ineligible if BBCE were 
eliminated varies from 12.2 percent in Wisconsin to less than one 
percent in California, Georgia, Kentucky, and South Carolina.\12\
---------------------------------------------------------------------------
    \10\ Elizabeth Laird and Carole Trippe, Programs Conferring 
Categorical Eligibility for SNAP: State Policies and the Number and 
Characteristics of Households Affected Final Report (Washington, D.C.: 
Mathematica Policy Research, 2014), https://www.mathematica-mpr.com/
our-publications-and-findings/publications/programs-conferring-
categorical-eligibility-for-snap-state-policies-and-the-number-and-
characteristics-of-households-affected.
    \11\ Laird and Trippe, Programs Conferring Categorical Eligibility 
for SNAP.
    \12\ Laird and Trippe, Programs Conferring Categorical Eligibility 
for SNAP.
---------------------------------------------------------------------------
    In general, the use of SNAP BBCE aligns well with the populations 
we always think of when we discuss SNAP. Moreover, BBCE helps SNAP 
reach households that may have slightly higher income and assets and 
very significant expenses, like high housing costs (in excess of 50 
percent of income), medical out-of-pocket expenses, and child care. 
People who come into SNAP through BBCE reflect important populations we 
need to support, and BBCE helps simplify the outreach and eligibility 
process for doing so.
    Laird and Trippe's 2014 report on categorical eligibility in SNAP 
showed that those who would become income ineligible if BBCE were 
eliminated have the following important characteristics: they are more 
likely than other participating SNAP households to (1) have children, 
(2) have earned income, (3) have higher income, and (4) receive very 
low benefits. This information helps inform our understanding of what 
eliminating or significantly restricting BBCE could mean. First of all, 
most SNAP households would still be income eligible. Second, those 
households who would likely become income-ineligible disproportionately 
are working families with children. It is important to be assertive in 
reducing food insecurity for all types of families because it presents 
health risks at every stage in the life course, but we particularly 
worry about food-insecure households with kids and adolescents. Food 
insecure children have higher rates of fair and poor health, have 
higher rates of hospitalization, increased risk of asthma, and delays 
in cognitive developments.\13\ Many people are less familiar with the 
research around teens and food insecurity, but we need to remember that 
adolescence is another sensitive developmental period. Unfortunately, 
research indicates that adolescents who are food-insecure are at 
greater risk for depression and other mental health problems and are 
more likely to experience suicidal ideation than other adolescents.\14\ 
Therefore, the ability to reach vulnerable children and adolescents is 
one of the strengths of BBCE.
---------------------------------------------------------------------------
    \13\ C. Gundersen and J. Ziliak. ``Food Insecurity and Health 
Outcomes,'' Health Affairs 34, no. 11 (2015): 1830-39; J.T. Cook, D.A. 
Frank, S.M. Levenson, N.B. Neault, T.C. Heeren, M.M. Black, C. 
Berkowitz, P.H. Casey, A.F. Meyers, D.B. Cutts, and M. Chilton. ``Child 
Food Insecurity Increases Risks Posed by Household Food Insecurity to 
Young Children's Health.'' Journal of Nutrition 136, no. 4 (2006): 
1073-76.
    \14\ K.A. McLaughlin, J.G. Green, M. Alegria, J. Costello, M.J. 
Gruber, N.A. Sampson, and R.C. Kessler, ``Food Insecurity and Mental 
Disorders in a National Sample of U.S. Adolescents,'' Journal of the 
American Academy of Child and Adolescent Psychiatry 51, no. 12 (2012): 
1293-1303; K. Alaimo, C.M. Olson, and E.A. Frongillo, ``Family Food 
Insufficiency, but Not Low Family Income, Is Positively Associated with 
Dysthymia and Suicide Symptoms in Adolescents,'' Journal of Nutrition 
132, no. 4 (2002): 719-25.
---------------------------------------------------------------------------
    It's also useful to understand how BBCE supports priorities for 
SNAP that have been a significant part of the policy discussion in 
recent years--for example, how can SNAP support work among those who 
are able to do so, including these working families with children. BBCE 
offers an important safeguard to those families who are working and may 
experience what we refer to as a benefit cliff as their earnings 
increase. Because SNAP provides for a 20 percent disregard of earnings 
when calculating benefits and because benefit levels phase out as 
incomes rise, the benefit cliff in SNAP is not as dramatic as may be 
experienced in other programs. But we still worry about low-income 
working families who may have experienced small increases in earnings 
and/or savings and subsequently have fewer resources for their food 
budget because they lose eligibility for SNAP. As I mentioned in the 
beginning of these remarks, working families across the country 
continue to struggle to make ends meet and often find themselves 
trading off between food and other basic needs, such as housing, 
utilities and medicine and even modest benefits can make an important 
difference. By permitting states to raise the gross income limits above 
130 percent up to a ceiling of 200 percent of FPL, SNAP can help 
mitigate the potential risk that families who are working hard to 
increase their earnings may be less well off as earnings increase.
    An example is helpful to put the idea of the benefit cliff in real 
terms. As previously mentioned, under Federal rules, SNAP households 
without elderly or disabled members must have monthly gross income at 
or below 130 percent of the Federal poverty line. A household whose 
income exceeds that level are not eligible and could lose substantial 
SNAP benefits from a small increase in earnings. For example, a single 
mother with two children working full time at $12.75 an hour would 
receive about $96 a month from SNAP, making up about four percent of 
her total monthly income. If her hourly wage increased by just 50 (or 
$86 a month), lifting her income slightly above 130 percent of FPL 
($2,252 for a family of three in Fiscal Year 2019), the family would 
become ineligible for SNAP under the Federal income eligibility cut-
off. As a result, the household's loss of SNAP benefits would actually 
leave the family worse off; their total monthly resources would decline 
by about $10 per month. While this issue affects a small share of SNAP 
households, it can be a significant hardship for those who are 
affected, just when they are making strides to improve their economic 
circumstances.
    The categorical eligibility option allows states to lift the gross 
income limit to further smooth this the benefit cliff. In our example 
here, under BBCE, a 50 raise would reduce the family's SNAP benefit by 
only $31 a month (to about $65), resulting in a monthly increase in 
resources of $55 per month.\15\
---------------------------------------------------------------------------
    \15\ This analysis assumes the median copayment of $77 that states 
required for their child care assistance programs in 2018 for a family 
of three at the poverty level and with one kid in child care as well as 
a shelter cost of $934. These assumptions are based off the most recent 
National Women's Law Center report ``Overdue for Investment: State 
Child Care Assistance Policies 2018,'' https://nwlc-
ciw49tixgw5lbab.stackpathdns.com/wp-content/uploads/2018/11/NWLC-State-
Child-Care-Assistance-Policies-2018.pdf and median shelter expenses in 
2017 consistent with previous analysis done by the Center on Budget and 
Policy Priorities of 2017 SNAP Quality Control data for working 
families earning at least $500 a month with three members, including 
two children, and inflated to Fiscal Year 2019 dollars. Most up to date 
deductions from Food and Nutrition Service used to calculate SNAP 
benefits. For more see https://www.fns.usda.gov/snap/recipient/
eligibility#What%20deductions%20are%20allowed%20in%20SNAP?. It should 
also be noted that the example family is now in the phaseout range of 
the EITC and that earnings are reduced by payroll taxes, exacerbating 
the issue.
---------------------------------------------------------------------------
    This example helps us understand how BBCE in SNAP can support and 
encourage work. It is also important to recognize that the risk of food 
insecurity is not confined to those with the lowest gross incomes; we 
know from the annual Map the Meal Gap analysis that nearly one in five 
food-insecure households actually have incomes between 130 and 185 
percent of FPL.\16\ Many of these individuals live in households where 
there are simply not sufficient earnings to keep pace with family needs 
and where the costs of living put significant pressure on family 
budgets. So BBCE can help us make progress on reducing food insecurity 
in this vulnerable segment of the population.
---------------------------------------------------------------------------
    \16\ Feeding America, ``Map the Meal Gap: Executive Summary'' 
(Chicago: Feeding America, 2019), https://www.feedingamerica.org/sites/
default/files/2019-05/2017-map-the-meal-gap-executive-summary_0.pdf.
---------------------------------------------------------------------------
    Teens participating in a series of focus groups conducted by Urban 
shared their own experiences with what earning a little above the SNAP 
income guidelines can mean for families. One girl remarked: 
``Personally, I don't think that food stamps is available for everyone 
that actually needs them. Because like my mom, they won't give her 
them, because she makes over the amount. But it doesn't really seem 
like it, because her whole paycheck will go to rent and utilities.'' A 
second girl responded: ``That's the same with my mom . . . because my 
mom applied for it, and she put me and my brother and her on it, and we 
only got $31 per [month] . . . because she makes too much. And then 
like 2 months later, they took it away.''
    Now, let's turn to the issue of assets in low-income households and 
how eliminating asset tests can achieve some important objectives. As 
mentioned previously, the opportunity to relax or eliminate asset has 
been taken up by a majority of states. There has been broad bipartisan 
recognition that assets can act as a buffer against income shocks and 
that vehicles can be essential for maintaining employment, accessing 
health care and securing food, especially in rural areas. Research 
shows that low assets is a significant contributing factor to food 
insecurity.\17\ Thus, the flexibility afforded through BBCE offers a 
mechanism for helping to address an underlying risk factor.
---------------------------------------------------------------------------
    \17\ Feeding America, Map the Meal Gap 2019 (Chicago: Feeding 
America, 2019), https://www.feedingamerica.org/sites/default/files/
2019-05/2017-map-the-meal-gap-full.pdf.
---------------------------------------------------------------------------
    A recent study by my colleagues at the Urban Institute examined the 
impact of relaxing or eliminating SNAP asset limits through BBCE and 
found that this option increases low-income households' savings (eight 
percent more likely to have at least $500) and participation in 
mainstream financial markets (five percent more likely to have a bank 
account). It also reduces SNAP program churn (26 percent).\18\ SNAP 
churn refers to the exit and re-entry back into SNAP within a short 
time period, which may happen because of changes in household 
circumstances but can also happen because of administrative practices. 
Taken together, relaxed asset limits increase households' financial 
security and stability by increasing savings and reducing benefit 
fluctuations, and they can decrease administrative program costs when 
fewer people cycle on and off the program. The findings suggest that 
states with SNAP asset limits can improve family financial well-being 
by relaxing them and that reinstating Federal SNAP asset limits will 
harm family financial stability.
---------------------------------------------------------------------------
    \18\ ``The Unintended Consequences of SNAP Asset Limits.'' Caroline 
Ratcliffe, Signe-Mary McKernan, Laura Wheaton, and Emma Kalish. July 
26, 2016. http://www.urban.org/research/publication/unintended-
consequences-snap-asset-limits and ``Asset Limits, SNAP Participation, 
and Financial Stability.'' Caroline Ratcliffe, Signe-Mary McKernan, 
Laura Wheaton, Emma Kalish, Catherine Ruggles, Sara Armstrong, 
Christina Oberlin, June 2016. http://www.urban.org/research/
publication/asset-limits-snap-participation-and-financial-stability.
---------------------------------------------------------------------------
    Understanding the larger context of racial asset disparity in the 
U.S. is useful for thinking about asset tests in benefit programs. 
While the majority of SNAP participants in the U.S. are white, SNAP is 
an important support to families of color because of persistently low 
income and assets in these communities. Eliminating SNAP asset tests 
may also help us to begin to address the striking disparity in assets 
across racial and ethnic groups in the U.S., which is important for 
promoting a more robust economy and inclusive prosperity for everyone. 
The racial wealth gap in the U.S. is large: the median white family has 
ten times the wealth of the median African American family and eight 
times the wealth of the median Hispanic family. So for every $10 a 
white family has in wealth, African American families have only $1.
    Families of color are not getting the same chances to catch-up in 
terms of their wealth. The future majority population of our country--
families of color--are not on a firm wealth building path. As of 2011, 
over \1/2\ of children younger than one belong to a community of color. 
These children are critical for our future, yet wealth disparities have 
worsened over the past 50 years.\19\ These very profound issues require 
a host of efforts beyond the scope of this hearing. But elimination of 
asset tests in public programs is one basic foundational step that can 
help lay the groundwork for a better economic future for all of us.
---------------------------------------------------------------------------
    \19\ Signe-Mary McKernan, Caroline Ratcliffe, C. Eugene Steuerle, 
Caleb Quakenbush, and Emma Kalish, ``Nine Charts about Wealth 
Inequality in America (Updated),'' Urban Institute, last updated 
October 5, 2017. https://apps.urban.org/features/wealth-inequality-
charts/.
---------------------------------------------------------------------------
Why Is SNAP So Important to Low-income Households and Communities?
    One of the most attractive features of SNAP is that it supports the 
ability of families to participate in the mainstream economy by 
boosting their purchasing power in retail stores, farmers markets and 
other authorized venues that sell food. Families I interview in the 
course of my research emphasize how important SNAP benefits are in 
securing the kinds of food they need. At Urban, we have conducted focus 
groups with many adolescents facing food insecurity and the intense 
stigma they feel around not having enough food is striking. They always 
emphasize how important SNAP is in their household in helping make ends 
meet and how it allows their families to experience the dignity of 
shopping for food just as their better off peers do. For example, a 
girl in Illinois related her own family's experience with SNAP: ``It's 
really helpful for a lot of families. We had a [SNAP Electronic 
Benefits Transfer] card like that for a while. It takes stress off of a 
difficult situation because you know where your next meal will come 
from.''
    That purchasing power has an important impact on the economic 
health of our communities. A new study from the Economic Research 
Service released in May 2019 helps us to further understand the 
importance of SNAP to local economies, especially those in rural 
areas.\20\ The analysis shows that SNAP redemptions had a positive 
average impact on county-level employment from 2001 to 2014 in nonmetro 
counties, translating to about 0.4 additional job per $10,000 of 
additional SNAP redemptions. The impacts of SNAP redemptions during and 
immediately after the Great Recession (2008-10) were even greater, an 
additional $10,000 of SNAP redemptions led to about 1.0 additional job 
on average in nonmetro counties and about 0.4 additional job in metro 
counties. Moreover, during the Great Recession, the impacts per dollar 
of SNAP redemptions were greater than impacts of other Federal or state 
government transfer payments combined and greater than the impacts of 
all Federal Government spending combined.
---------------------------------------------------------------------------
    \20\ John Pender, Young Jo, Jessica E. Todd, and Cristina Miller, 
The Impacts of Supplemental Nutrition Assistance Program Redemptions on 
County-Level Employment, Economic Research Report 263 (Washington, 
D.C.: USDA, 2019), https://www.ers.usda.gov/webdocs/publications/93169/
err-263.pdf?v=1509.3.
---------------------------------------------------------------------------
    In summary, I am pleased to be asked to submit this testimony to 
assist the Subcommittee in drawing on the research evidence base in 
evaluating the potential impacts of eliminating or restricting BBCE. 
Research tells us that SNAP is a very effective program; as such, 
proposed changes must be carefully evaluated as to how they may enhance 
or reduce the ability to address food insecurity. The evidence we have 
discussed today also suggests that eliminating or significantly 
restricting BBCE could in fact undermine several key goals for the 
program: to reduce food insecurity, to encourage work and increased 
earnings, to permit the building of basic assets that can help buffer 
income shocks and reduce disparities across the U.S., and to minimize 
the burden on states as they prioritize their limited resources.
                               Exhibit 1
Figure 1. States Opting for SNAP Broad-Based Categorical Eligibility as 
        of October 2018
(States opting for BBCE are shaded in [gray])
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Source: Congressional Research Service (CRS), based on data 
        from the U.S. Department of Agriculture, as of October 2018.
                               Exhibit 2
Median Family Wealth by Race/Ethnicity, 1963-2016
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          Source: Urban Institute calculations from Survey of Financial 
        Characteristics of Consumers 1962 (December 31). Survey of 
        Changes in Family Finances 1963, and Survey of Consumer 
        Finances 1983-2016.
          Notes: 2016 dollars. No comparable data are available between 
        1963 and 1983. Black/Hispanic distinction within nonwhite 
        population available only in 1983 and later.

    The Chair. Thank you all very much for your testimony.
    And we will begin with our questions. Members will be 
recognized for questioning in the order of seniority for 
Members who were here at the beginning of the hearing. After 
that, Members will be recognized in order of arrival.
    And I know that we may be coming close to votes within the 
next 45 minutes or so, so I am going to now yield to Mr. 
McGovern, for 5 minutes.
    Mr. McGovern. Thank you very much.
    And let me, first of all, say that this notion that somehow 
people are clamoring to be poor enough to be eligible for SNAP 
is laughable. Just for the record so people understand this, 
the average SNAP benefit is about $1.40 per person per meal. 
You can't even buy a cup of coffee for that.
    We should be talking about how you expand that benefit, and 
instead we are talking about how we can throw people off of the 
benefit. And I just find that to be terribly discouraging, 
especially knowing the fact that there are close to 40 million 
people in this country who don't know where their next meal is 
going to come from.
    If you want to talk about defrauding the Federal 
Government, I mean, we ought to take a good look at defense 
contractors and all the cost overruns. We ought to look at 
corporations who don't pay any taxes, who exploit loopholes, or 
who intentionally deceive the Federal Government about what 
they are. Or look at the pharmaceutical companies, who are 
ripping off consumers every single day. Instead, we hear from 
my friends on the other side of the aisle, ``Oh, that the real 
culprits are poor people in this country.''
    Ms. Davis, in your testimony, you list examples in Iowa and 
Florida where income limits are described as, ``not enough to 
meet a family's basic needs,'' which is where SNAP comes in to 
play an important role. Massachusetts, where I am from, is at 
200 percent of the Federal poverty line and is also known to 
have a higher cost of living than a lot of other states in this 
country. What do you believe the impact would be in states like 
mine if broad-based categorical eligibility were to go away?
    And I also want to get back to the point that Mr. Johnson 
raised about kind of saying everybody be happy, don't worry 
about kids losing their free school breakfasts and lunches. I 
wonder if you could talk about what the impact on that would 
be. And, also, the fact that reduced lunches and breakfasts, if 
you have multiple kids in a school at the same time, actually 
add up to quite a lot of money.
    Ms. Lisa Davis. Right. Thank you, Congressman, for your 
question.
    Let me say first that eliminating broad-based categorical 
eligibility is a policy that is penny-wise and pound-foolish. 
The result would be short-term savings but long-term costs in 
terms of increased medical costs, poorer educational outcomes, 
and for many of the kids who would be impacted, less of a 
chance to move to better economic stability and opportunity.
    We look at the challenges facing low-income families, and, 
in my role, I speak to many of them across the country. I have 
yet to meet a mom or dad that doesn't want to work. In fact, 
most of those that I meet are working sometimes two or three 
jobs. The challenge for many of them is that the costs that 
they are paying for housing for transportation and childcare 
outpace, the growth outpaces their incomes.
    Mr. McGovern. Right.
    Ms. Lisa Davis. One of the benefits of broad-based 
categorical eligibility is it eases that cliff when families 
start to make a little bit more. And I think that is an 
important policy that incentivizes work and helps provide a 
pathway out of poverty.
    In Massachusetts, in New York, in Montana, where I am from, 
housing costs are very significant and often consume more than 
50 percent of a family's income. And so, as a nation, instead 
of continuing to argue about whether poor people want to work 
or not--there is evidence of that--we need to be thinking about 
how we can do what Dr. Davis is doing in Mississippi and craft 
supports that make it easier for them to work and to work up 
and to meet their transportation, housing, and childcare needs. 
And that is the conversation we ought to be having.
    Mr. McGovern. Right. I appreciate that.
    And you point out another important fact, and that is, the 
vast majority of people who are able to work who are on SNAP 
actually do work.
    Talk to me a little about the school breakfast and lunch 
issue.
    Ms. Lisa Davis. Right. There is a very significant body of 
research that shows the impact that children getting the 
nutrition that they need has on things like school performance. 
And in many school districts, on days that they are testing, 
they will bring in lunch--or bring in breakfast--excuse me. And 
I know my own kids, we get a call the night before reminding me 
to feed them too, because they recognize that correlation.
    Those meals are really important to making sure that kids 
can be present, that they can learn, and that they can perform. 
And getting enough nutrition, whether through SNAP at home or 
school meals, helps make sure that kids have better short- and 
long-term healthcare outcomes and that they have higher 
lifetime earnings.
    And so it is really important that we look at all of these 
programs to make sure that every child in this nation, no 
matter his or her circumstances, can get three meals a day.
    Because of the way that SNAP interacts with school meals, 
if a child's family receives SNAP, he or she is automatically 
directly certified for free school meals. If broad-based 
categorical eligibility were eliminated, the Congressional 
Budget Office estimates that about 265,000 kids would lose that 
automatic free eligibility.
    Some of them may be eligible for reduced meals, but, as you 
pointed out, even though those sums seem really insignificant 
to us, $25 to $30 a month is a lot to a family that doesn't 
have enough resources to meet all of their needs as it is.
    Mr. McGovern. Right. Thank you very much.
    The Chair. Thank you.
    Ranking Member Johnson, you are recognized for 5 minutes.
    Mr. Johnson. Thanks very much.
    Mr. Barnes, you talked about 24,000 students who might lose 
school meals, or who would lose school meals, coming from 
struggling families.
    My assumption--and so I wanted to give you an opportunity 
to push back if it is wrong--is that the vast majority of those 
families would not have substantial savings or other financial 
assets. Does that sound about right?
    Mr. Barnes. That can be concluded.
    Mr. Johnson. Yes. Do we have any idea how many of those 
24,000 students come from families that are above 130 percent 
of the Federal poverty line?
    Mr. Barnes. I don't have that number, but I can get that to 
you.
    Mr. Johnson. Do you have any idea how many of them would be 
more than 185 percent above the Federal poverty line?
    Mr. Barnes. Same response. I don't have that exact number, 
but I can get that to you.
    [The information referred to is located on p. 114.]
    Mr. Johnson. Yes. I think what I am trying to bring to the 
fore here is that, if your state is like the rest of our 
country, 99.9 percent of those kids will continue to qualify 
through the eligibility standards of free and reduced school 
lunch program for free and reduced school lunches, and, in 
fact, 97 percent of them would continue to qualify for free 
school lunches.
    This is perhaps not the doomsday scenario that some may be 
concerned about.
    Mr. Barnes. Well, if they end up losing their SNAP benefit, 
then school lunch may be the only meal that they get to have in 
a day.
    Mr. Johnson. And absolutely they should have that school 
lunch. Ninety-nine percent of them will continue to qualify or 
be eligible for that program.
    Now, there may be an additional bit of paperwork. I mean, 
my family--certainly, growing up, I was on free and reduced 
school lunches for the entirety of my K-12 experience. And I 
have seen that paperwork, and I understand what that means for 
a family to sit down and fill it out. But 99 percent of kids 
would continue to qualify. I just want to make sure that comes 
to the fore.
    I also want to make sure that we talk a little bit about--
there has been some allegation that there is great cynicism or 
distrust on this side of the dais. But, I mean, let's be 
honest. We all know that most people are really honest and that 
some people, a minority, will take advantage of any program, of 
any system.
    I mean, that is why we use income tests, right? Nobody here 
is advocating to get rid of income tests, because we realize we 
want the integrity of a system that targets assistance for the 
people who need it.
    Let's be honest. We have audit functions for income taxes, 
for property taxes. We want to make sure that we don't just 
trust people to pay their fair share but that, rather, we have 
a system that gives us confidence in the integrity of those tax 
systems.
    And I just want to say to the gentleman from Massachusetts 
that I am interested in working with you to root out waste, 
fraud, and abuse wherever it is. And I have sponsored 
legislation that would improve defense acquisition, because I 
agree, that is not a perfect system. And I have supported 
legislation that would drive down pharmaceutical costs, because 
I agree with you, that system is not perfect. And I am 
interested in making sure that tax cheats and tax frauds do do 
time in jail if they are guilty.
    And so, in the same way that we want to find accountability 
and integrity in those areas, it only makes sense that we 
should try to find it in our social safety net programs as 
well. They are too important for us to not have faith that they 
are helping the families who most need that assistance.
    Now, there are allegations seemingly every day on the floor 
of the House that my party doesn't authentically care about 
poor people. And as somebody who grew up poor, I always find 
that a little hard to stomach.
    And so, Dr. Davis, I want to give you an opportunity to 
tell us, why did you get into your line of work? Why do you 
show up every day? And what is the motivation in your heart, 
sir, for the reforms that your state is making?
    Dr. John Davis. Human services has been my business all my 
life. Actually, I have been with the department for 28 years, 
and I started as a social worker. I was an eligibility worker, 
so on and so forth.
    What I recognize is that helping people to become eligible 
for a program is one thing; to help an individual to find self-
sustainability and what they want to do in life, instead of me 
telling them what to do, means a whole lot more.
    The BBCE issue certainly is important, but it is certainly 
just a symptom of a bigger issue. If we truly want to help 
people, we need to be about helping the person and the family 
as a whole.
    And so that is what motivates me every day, sir, to make 
sure that we, as an agency, in the state that is the poorest in 
the nation, who has a lot of people who are eligible for the 
program, to make sure that I give them a hand up and not just a 
handout.
    Mr. Johnson. Thank you very much, sir.
    Thank you, Madam Chair. I yield back.
    The Chair. Thank you.
    And I would like to ask the Ranking Member if he could 
provide us with the data or the information that says to us 
that 99 percent of all of these children would still qualify 
for free and reduced lunch.
    Mr. Johnson. Yes, absolutely. We will make sure to provide 
that to the staff for entry into the record.
    [The information referred to is located on p. 109.]
    The Chair. Excellent. Thank you so much.
    And I agree that most people are honest, except for the 
person that you praised when we started this hearing, Mr. 
Undersander.
    I would--sir, I have to move on, so----
    Mr. Johnson. Madam Chair----
    The Chair. I know you want to respond.
    Mr. Johnson. I just want one sentence, ma'am.
    This gentleman told the truth. He didn't commit a single 
act of fraud. All he did was tell the truth in the application. 
It is the application that was flawed, not his answers.
    The Chair. Ms. Adams, you are recognized for 5 minutes.
    Ms. Adams. Thank you, Madam Chair and Ranking Member 
Johnson, for holding today's hearing.
    And thank you to our witnesses for your testimony.
    In December, the President signed into law a bipartisan 
farm bill which many of us here helped to negotiate in good 
faith. Months went into refining the language and coming to an 
agreement which received historic support in both chambers. 
Yet, the Administration is again threatening to circumvent 
Congressional intent, this time to roll back categorical 
eligibility and to take food assistance away from children, 
families, veterans, disabled, and older Americans.
    My State of North Carolina uses the flexibility of broad-
based categorical eligibility to ensure they are reaching those 
who need the help the most. More than 98,000 North Carolinians 
and 35,000 children would lose food assistance, including 
school meals for children, if this flexibility is eliminated.
    In Mecklenburg County, where my district is, more than 
10,000 people, including 47,000 children, would lose access to 
benefits. These are mostly working families with high childcare 
costs or housing costs and seniors. And that is not acceptable.
    Ms. Davis, as a mother, a grandmother, and teacher for 40 
years, I am concerned with the effects that this change would 
have on our nation's children. And I am strongly opposed to a 
similar change in the farm bill, because, according to the 
Congressional Budget Office, it would take school meals away 
from 265,000 children nationwide. Based on my state's data, it 
would take meals away from 35,000 children in North Carolina, 
and almost 5,000 of those are in my county.
    Can you speak to the importance of SNAP and school meals 
for children and their families, including how food assistance 
programs contribute to long-term health and financial well-
being?
    Ms. Lisa Davis. Absolutely. And thank you for the question.
    Ensuring that all of our nation's children, no matter what 
their circumstance, have the opportunity to reach their full 
potential is one of our most fundamental values.
    And when we look at the research on SNAP and school meals, 
both breakfast and lunch, what we find is that they improve 
children's short- and long-term physical and mental health; for 
younger children, brain development. Children who are not 
experiencing food insecurity are less likely to be 
hospitalized; they have better healthcare outcomes.
    And other studies show that all of this and the education 
impacts of kids being disciplined less frequently, having 
better school attendance, performing better on tests, leads to 
an 18 percent increase in their likelihood of graduation and 
leads to increases in lifetime earnings as well.
    The health impacts of SNAP and of school meal programs on 
kids are very well-documented. And some studies show that there 
are medical cost savings of $1,500 to $2,500 a year for folks 
who are no longer food-insecure.
    Ms. Adams. Thank you.
    Lieutenant Governor Barnes, I am concerned, as well, about 
the unnecessary administrative burdens that this potential rule 
would impose.
    As Lieutenant Governor, you are involved directly with the 
state and local agencies that would be saddled with the 
increased paperwork and duplicative processing that would 
result. Could you outline difficulties that eliminating this 
eligibility would cause for administrators, including the 
increased need to verify assets?
    Mr. Barnes. Yes. Thank you.
    And I think that is one of the things that comes up a lot, 
is how often do we need to replicate government functions. If 
we can just do it in one fell swoop or if we can make sure that 
children are taken care of with one application process versus 
another, why create more bureaucracy, to use an argument that 
would support your line of thinking on this side of the aisle.
    And, as well, I want to clarify, too, about the children, 
because you said 99.9 percent. I would be so bold as to say 100 
percent of children don't get to decide the financial stability 
of their own household. With that being said, if they do lose 
SNAP benefits but still have free or reduced lunch, again, is 
it fair to those students to only have access to food for 
breakfast and lunch at school but not in the home?
    And when it comes to the topic of, again, more 
applications, like, think about how much time that cuts out 
from a family where a person needs to go find a job. If a 
parent has to fill out more and more applications, has to go to 
a county building to try to register for benefits, that cuts 
out on productivity time where they could be searching for a 
job or actually working.
    Ms. Adams. Thank you.
    Madam Chair, I yield back.
    The Chair. Thank you.
    Mr. Conaway, the Ranking Member of the full Committee, you 
are recognized for 5 minutes.
    Mr. Conaway. Thank you, ma'am. I appreciate that.
    I appreciate our witnesses' testimony, much of which 
supports the idea that we should, in fact, have a SNAP program, 
and we all agree with that. But that is not really what we are 
talking about this morning.
    We have a SNAP program. It is important, and we are going 
to keep it. The issue is, how do we administer that program 
that is fair to the folks who need the benefits and is also 
fair to the taxpayers?
    And so I guess the question would be: should we have an 
asset test? Is there any real reason to have that? I think 
there is. Yet, my colleagues on the other side of the aisle 
were offended by a fellow who had well beyond the asset test 
but still qualified under this broad-based categorical 
eligibility deal.
    If we have an asset test, why would we not update the way 
outdated levels of assets that are in the current law, update 
those for 2019, and then actually enforce that asset test?
    It is not a matter of taking the benefits away from folks 
who meet the requirements; it is making sure that those scarce 
resources go to the ones who need it the most.
    Dr. Davis, should, in fact, we have an asset test, and 
should that asset test be enforced, and should it be verified 
at the point of application?
    Dr. John Davis. I agree that we should have an asset test, 
and the reason being because that allows our staff, who are 
more than just eligibility staff--you have to remember, if we 
are looking at families holistically, we should be more like 
navigators, helping individuals to get to the resources they 
are eligible for on the front end so that they won't need us on 
the back end when they become successful.
    The asset test could be an opportunity for us to dig a 
little bit deeper into helping that individual find that 
sustainability and self-sufficiency or that family as a whole 
do that. Using our Families First resource centers, using our 
staff to understand, if they do have resources, how in fact can 
we build on those resources, how in fact can we build on that 
income, how can we help them find a livable wage.
    It allows our staff to work closely with that individual to 
help them through the process.
    Mr. Conaway. As a part of those assets that a family has, 
would it be appropriate to exclude from the asset test some 
level of liquid assets, cash, that would allow that family to 
buffer the normal ins and outs of what goes on in a family and 
exclude those assets from that asset test? Would that be handy?
    Dr. John Davis. We had an incident in Mississippi--we had 
the Gulf oil spill in 2008, and then we did away with the 
waiver for BBCE, and then we brought it in. And so we had 
individuals who were fishermen and worked in canneries who had 
saved money all of their career and then didn't have a job, and 
we felt that by allowing BBCE, that that would allow them to 
come on to the programs.
    One of the things that we failed to do, though, once we 
helped them become eligible for that program through 
disallowing those resources, we forgot that these individuals 
needed help in bigger ways. They had bigger barriers than just 
having too many resources. They needed help and assistance in 
finding other jobs, finding personal and professional 
development opportunities, helping them to be empowered to 
become who they want to be if they can't be fishermen, if they 
can't work in a cannery.
    It goes across the board, though, in any job opportunities, 
that we as an agency have to work with an individual, finding 
through sector strategies those opportunities for livable-wage 
jobs, as I keep saying.
    Mr. Conaway. Yes.
    Well, Ms. Davis, you described the process that was 
included in the House version of the SNAP program, part of the 
farm bill that came out of this Committee, sought to spend 
significant resources to the states to allow them to do just 
that, that very thing.
    Whether it is the income test or the asset test, Dr. Davis 
and Ms. Waxman and Governor Barnes all talked about families 
who have just above the 130 or whatever that number is. Rather 
than relying on a loophole and exploiting a loophole, wouldn't 
it be better to have a fulsome conversation about what the 
number should be? Is 130 the right number? Is 150 the right 
number? Is 200 the right number?
    Let's have those kind of conversations as opposed to 
defending a loophole that allows some families in America to be 
treated differently than a family in another state in exactly 
the same circumstances is being treated. How is it fair for 
folks in Massachusetts to make 200 percent of poverty and folks 
from Texas make only 160?
    I would think that having conversations about the specifics 
of the test, if those were bad, if those were wrong, let's have 
that conversation. But let's quit talking about constantly 
exploiting loopholes--Mr. McGovern hates loopholes for the tax 
side. Let's quit exploiting loopholes as a public policy in 
this regard.
    The Chair. Thank you.
    Ms. Schrier, you are recognized for 5 minutes.
    Ms. Schrier. I would like to just thank our witnesses for 
being here today. This is such an important topic, categorical 
eligibility, and making sure that families who are already on 
the edge and in need don't have additional hoops to jump 
through in order to make sure that families and children get 
food. Again, $1.40 per person per meal.
    Then this conversation turned to a conversation about 
loopholes, and I feel now pulled into the conversation and 
eager to address it. Because there are loopholes in a lot of 
places, and I think that we need to decide which ones to 
address based on a benefit and risk ratio.
    And so I challenge some of my colleagues who are so 
reluctant to close loopholes in a Tax Code that gives 
tremendous benefit to the wealthiest and to corporations, and, 
frankly, if we just closed a couple of those loopholes, we 
would have no problem finding $1.40 per meal for our kids or 
for school lunches.
    And then there is this other group of loopholes that we 
talk about a lot which is the loopholes in purchasing a weapon. 
And on that one, I would say, what is the cost? If you don't 
close those loopholes, then people can get a hold of a gun who 
could do our children harm or do themselves harm.
    And so then if we talk about the costs of closing those 
loopholes, if you do close those loopholes and it becomes more 
difficult to get a gun, for example, the cost is only a couple 
more days of waiting, but the benefit could be saved lives. The 
cost to a taxpayer is simply that they pay a fair share of 
taxes.
    But, in this case, the cost of closing this so-called 
loophole, which isn't really a loophole--this is just 
eliminating paperwork--we already know, because we heard in 
this Committee, that the fraud rate in this program is less 
than one percent. The cost of that is that kids and low-income 
working families may not get the food that they need in school, 
at home, or over the summer.
    And so I thought I would paint a picture of this in 
Washington State. Broad-based categorical eligibility helps 
more than 38,000 families in Washington meet eligibility 
requirements for SNAP, and these provide assistance for 
children and adults to access nutritious foods. And we might 
talk about that in a minute, on the difference between 
nutritious and non-nutritious foods.
    Washington State Department of Social and Health Services 
conducted an analysis in 2019 that found that lowering the SNAP 
income limit from 200 percent to 130 percent of the Federal 
poverty level would eliminate SNAP benefits for approximately 
67,000 low-income working individuals.
    By eliminating that, over 17,000 Washington students would 
no longer qualify for free school meals, and there would be 
additional funding lost from the National School Breakfast 
Program. And with that, with fewer students participating free 
school meals, fewer schools would be able to offer other 
nutrition programs like the Summer Meals Program, which is 
available in communities where more than 50 percent of the 
student population qualifies for free or reduced-price meals.
    And so I wanted to just put that clarity on.
    And then, Lieutenant Governor Barnes, I just was 
wondering--and thank you for your testimony--if you could 
comment on the negative impact Wisconsin schools would face if 
they lost a sizable amount of the annual funding dedicated to 
the school meals program.
    Mr. Barnes. Thank you.
    Our schools in Wisconsin are already significantly burdened 
from funding issues of the previous Administration, so it is 
our goal to place as few burdens on them as possible. And if 
this is one area where we can make a difference, we should do 
it.
    And back to the loopholes conversation, we want to close as 
many loopholes as possible. I get it; I am with everybody on 
that part of the conversation. There is no perfect system. If 
there was, poverty wouldn't even be an issue. We wouldn't be 
having this conversation.
    But when it comes to schools and children, the biggest loss 
is not just in dollars and cents; it is in student 
productivity. It is about students who were showing up to 
school on an empty stomach, who were having a hard time 
learning, end up having all sorts of behavioral issues, missed 
time out of school, end up suspended, whatever the case may be. 
And it also creates barriers for success for them in future 
life if they have trouble learning, if they find themselves 
having to be disciplined as a result of poverty, just to put it 
very plainly.
    And I think that is the most important cost that we need to 
think about, not just dollars and cents. And that also has a 
long-term cost, because too many of these children who are 
living in poverty, who have food insecurity, unfortunately, 
those are the same children that we see ending up in our 
criminal justice system.
    Ms. Schrier. Thank you.
    I am going to ask one more super-quick question that might 
turn into an observation.
    Forty-three states have chosen to do broad-based 
categorical eligibility. That means that very few others have 
not. Mississippi is one of them.
    I know, as a pediatrician, that food insecurity and hunger 
does lead to later obesity. If you have a moment to comment on 
obesity rates in Mississippi and whether that might be tied to 
your state's decision to limit access to school nutrition 
programs and SNAP categorical eligibility.
    Dr. John Davis. We understand that it is more important for 
good choices, making healthy choices, helping the family 
holistically. When we talk about BBCE or the elimination 
thereof in the State of Mississippi, we, too, believe that it 
is our job, as state workers, as employees of the Department of 
Human Services, to work closely with that family to eliminate 
the barriers that have caused them to be eligible for the 
program to begin with, whether that be through----
    The Chair. Thank you, Dr. Davis. I hate to interrupt you, 
but the gentlelady's time has expired.
    Dr. John Davis. I am sorry.
    The Chair. Mr. Bacon, you are recognized for 5 minutes.
    Mr. Bacon. Thank you, Madam Chair. I appreciate your 
organizing this hearing today. And I appreciate the testimony. 
It has been a good learning experience.
    First, just being new to hearing about Mr. Undersander, as 
a minimum, hearing about his situation and the case, that this 
shows that there is a need for clearer standards. It is all 
right to say we want to review those standards to make sure 
taxpayers are being protected while we are providing a quality 
safety net.
    So I just think it is worthy. It is just an example that 
taxpayers do want to have assurance that their money is being 
spent right while we are guaranteeing a safety net. Hearing 
about his case, I think it is helpful.
    Also, some of the comments made earlier, I find some of 
them were straw-man arguments, because no one on either side of 
the aisle here have said people are clamoring for SNAP. 
Sometimes, there are words put in other people's mouth that 
were never said.
    And no one here is anti-poor. We just want to make sure 
that we have a quality safety net that works and that also 
protects the taxpayers. And as the Ranking Member said earlier, 
we all support it, we all support SNAP. And a safety net 
program is vital. In our nation, we believe in hard work, we 
like competition because it makes for a better society. And a 
system of free markets work. It has lifted more people out of 
poverty than any other system ever made. However, a humane 
society has a safety net.
    And so the two things I get from this is that, just hearing 
the discussion today, it is all right to review. Are we making 
this as safe for the taxpayer, an effective program as 
possible? But, two, how do we reform the system that helps 
people get out of poverty?
    And one of the things we tried to work on last Congress was 
how do we provide skill sets that align people to better-paying 
jobs to help them get out of poverty, to give them a trade, to 
teach them a skill. Because we have record employment numbers 
today, a record-low unemployment. There is a high demand for 
jobs, particularly in Nebraska. And we just want to help align 
people to this work because we think that is the best way to 
get them out of poverty.
    With that, I would just like to ask maybe my first question 
to Dr. Davis.
    Tell us a little more about your thoughts. How are you 
trying to reform the system to get people with these skill sets 
so they become independent and out of poverty? I am hearing 
some general philosophy, but can you give us a little more 
tangible information?
    Dr. John Davis. Absolutely.
    We partner closely with most of the state agencies in 
Mississippi, as Human Services. We recognized it was a bigger 
job than just for Human Services to help individuals truly to 
be successful. We partnered with each of the state agencies, 
came together, determined a plan of action.
    And then we recognized, too, as Human Services, this was 
bigger than just on the state level. We had to empower the 
communities to own this. We did that by expanding our Families 
First Resource Centers, which now are in every county of the 
State of Mississippi, helping individuals to find those 
barriers that are in their lives to help try to eliminate those 
barriers.
    It is not just about their bank account; it is not just 
about their income. It is about any other issue that is going 
on in that home. We are finding generationally that there are 
not good models sometimes of what it looks like to be 
successful. And so we are trying to ensure that we look and 
work closely on the community level.
    Partnerships, collaboration, connecting the dots for 
individuals: I am an advocate for SNAP benefits. I am an 
advocate for the TANF Program. I believe that there is an 
opportunity to help people help themselves.
    I, too, recognize after all of these years, from being a 
caseworker to now being Executive Director for the past 4 
years, I understand the need, too, to empower people, to help 
them to know that they can do more than what we can determine 
eligibility for, that we can give them that empowerment through 
professional and personal opportunities, workforce development, 
tying those individuals to opportunities in the workforce 
development area.
    Mr. Bacon. Yes.
    Lieutenant Governor Barnes, I also appreciate you testimony 
earlier. Are there any reforms that you think we are missing to 
help folks get the skill sets to become independent? Are there 
things that we could be doing that we have not talked about, 
from your vantage point?
    Mr. Barnes. Well, I guess we could start by saying the 
minimum wage hasn't gone up in 10 years. That would help lift 
people directly out of poverty.
    Poverty is on the rise in the State of Wisconsin. We are at 
12.3 percent; 16, almost 17 percent of children. African 
American rate of poverty is 44 percent in Wisconsin. Native 
American--or, excuse me, African American children. Native 
American children is 41 percent.
    And, job training is great. I am all for job training 
programs. But, unfortunately, those job training programs don't 
always lead to living-wage job placements. I think that is 
where we are missing the mark. And the more we can encourage 
our employers to pay a decent living wage to people, it would 
encourage work.
    Because, right now, even if you look at the benefit cliff 
that would be created with removing the categorical 
eligibility, it would incentivize people to work less if they 
had a chance to make an extra 50 an hour, because they would 
be just over the limit and they would no longer be eligible for 
the benefit and end up at a net loss.
    Mr. Bacon. Okay.
    Thank you, Madam Chair.
    The Chair. Thank you.
    Mr. Van Drew.
    Mr. Van Drew. Thank you, Madam Chair. And thank you for 
having this today.
    And thank you all for being here and answering all these 
questions.
    First of all, I really want to say that I do believe that 
the vast majority of Democrats and Republicans don't want to 
hurt poor people. Sometimes when we get into these discussions, 
it gets so intense, and the next thing we know--and I know I am 
digressing a little bit--we are starting to speak about other 
issues and other differences.
    But I do hope that there is a day that comes more and more 
that we are working together and accomplishing goals together, 
because there are many similarities in where we all want to go. 
There may be some differences, but I really do believe that. 
And for my part, I am going to try to do everything I can to 
encourage that.
    And I want to thank you for being here, because it is 
funny, New Jersey, which is my home state, is a wealthy state, 
and it is a state that people really assume doesn't have many 
of the problems that we all hear about today. But I have 
received estimates from the state Department of Human Services 
that we have \1/4\ million New Jersey households that receive 
SNAP under expanded categorical eligibility.
    It is a big deal in New Jersey, and it is particularly a 
big deal in the part of New Jersey where I come from, which is 
the southern part of the state, which is more rural and 
seashore, and many people only work part of the year and have 
tremendous challenges during the year. Lowest per-capita income 
of any county in the state in our area. I have a lot of 
statistics that show there are a lot of issues.
    And the other issue that I really have concern is health 
and the healthfulness of people, and especially when it comes 
to the obesity rate of children. We have the highest obesity 
rate, again, in my part of the state.
    The question I would ask, and I kind of know the answer, 
but I just want to hear it and make sure I am right. How does 
hunger impact overall outcomes for education, income, and 
health?
    And I would ask Ms. Davis that question.
    Ms. Lisa Davis. Great. Thank you for your question. I have 
three points to make.
    First, on the educational front, children can't come to 
school hungry to learn if they are just plain hungry. We hear 
from teachers all across America about the difference that they 
see in their classroom from an educational performance 
standpoint, an attendance standpoint, and a behavioral 
standpoint when their kids are getting enough to eat. And 
studies show that, at the end of the month, when we know that 
most families have run out of their SNAP benefits, kids do less 
well in school and there are more disciplinary actions. 
Ensuring three healthy meals a day, every day, for kids has a 
tremendous impact on education.
    With health and obesity, too, one of the many benefits of 
SNAP and getting kids on SNAP is that studies show that over a 
lifetime they have a significantly lower chance of having 
metabolic disease, so obesity, high blood pressure, heart 
disease. And there are a lot of studies that show the 
correlation between obesity and food insecurity----
    Mr. Van Drew. Yes. And that is what I wanted to ask about a 
little bit more.
    Do you believe we are doing a good enough job, in the way 
the program works--and I know what the purpose of this hearing 
is, but it still is part of the SNAP issue--with ensuring that 
the food that they are getting, that they are eating, that they 
are getting three healthy meals a day?
    Ms. Lisa Davis. I think that one of the biggest challenges 
is that SNAP benefits are simply too low. You have heard 
several people reference $1.40 per meal per day. There are 
other studies that show that, for many families, the benefits 
run out by the second or third week of the month. We need to 
take a serious look at SNAP benefit adequacy.
    For school meals, they might have strict nutritional 
requirements, and that is very important for kids too. But what 
we see is it is that fundamental lack of consistent access to 
enough nutritious food that ends up impacting their health.
    Families who don't have enough resources may cope by buying 
less expensive, higher-calorie food. We know that people's 
bodies and metabolisms respond and are permanently changed by 
cycles of feast and famine.
    The most important thing is to make sure that all kids in 
America have adequate access to enough nutritious food. And 
that starts with looking at SNAP benefit adequacy.
    Mr. Van Drew. Yes. And I think that is both, financially, 
the dollars are there to make sure that they are able to get 
the proper food, but also to make sure that the educational 
aspect is there, that they get the proper food.
    And real quick, I know I have to go real fast; but, when we 
look at jobs--and that was part of the discussion here--we have 
lots and lots of jobs out there that people aren't being 
trained for in the technical fields, in the fields of other 
areas----
    The Chair. The gentleman's time has expired.
    Mr. Van Drew. I know. I would love to talk about this, but 
I won't. But I wish that our county colleges and technical 
schools would work together even more to make that happen.
    Thank you.
    The Chair. Thank you.
    Mr. Yoho, you are recognized for 5 minutes.
    Mr. Yoho. Thank you, Madam Chair.
    I don't know where to start, I have so much stuff here.
    Mr. Barnes, you said SNAP has proven to be the singular 
most effective anti-hunger program in the country, helping more 
than 40 million people.
    My question is, why prior to the recession, when we had 
approximately 17 million to 20 million people on SNAP, it 
increased to over 44 million, and now we are at full 
employment, higher wages across the board, yet we are still at 
about 39 million people?
    Mr. Barnes?
    Mr. Barnes. Yes, no, actually, that 40 million figure 
didn't come from me, but----
    Mr. Yoho. Well, the point is, we are at full employment. We 
were at 17 million to 20 million before the recession. It went 
up to 40 million, 45 million. Now we are down to 39 million to 
40 million people.
    If we are at full employment and higher wages, why are 
there so many people still on SNAP?
    Mr. Barnes. I have to push back on the higher wages piece.
    Mr. Yoho. Well, you need to come to Florida then.
    Mr. Barnes. I am in Wisconsin.
    Mr. Yoho. Go ahead.
    Mr. Barnes. The wages haven't--like, the national trend is 
that wages have not kept up, first of all, with inflation, and 
second of all----
    Mr. Yoho. Well, we can talk about that. I think that that 
is something that needs to be pointed out. Because, in my 
state, average wages are, in my district, usually around $11 to 
$14 an hour, starting.
    Mr. Barnes. Yes. May I ask where your district is?
    Mr. Yoho. The best part of Florida, District Three.
    Let me move on, because you said something else. ``It must 
be noted that the categorical eligibility does not result in 
substantial SNAP benefits going to non-needy families and does 
not mean households automatically get SNAP. They must qualify 
for benefits.''
    Do you have a number that says what substantial is? Because 
you said it's not substantial, the people that are not needy 
getting these.
    Mr. Barnes. Yes, I mean, we are talking about a few rare 
occurrences. And, again----
    Mr. Yoho. What percentage? What percentage of all----
    Mr. Barnes. I can get that percentage back to you.
    [The information referred to is located on p. 115.]
    Mr. Yoho. I would like for you to get that.
    Because, someone like Mr. Undersander, if he can show a 
flaw in this system--and this is what irritates me about 
Congress. It shouldn't be this side says we are trying to take 
benefits away from poor people and this side saying poor people 
are lazy. Nothing gets fixed. We should focus on what is best 
for the person that this program was designed for.
    And if somebody like Mr. Undersander can show a flaw in it, 
I would think us, as Members of Congress, would come together 
and say, ``Well, by God, if somebody is cheating the system and 
it is that easy, we should bring an end to this.'' We would 
come together as Congress, not as Republicans or Democrats but 
as Americans, to fix the dang problem. And Mr. Undersander 
should be--he is a whistleblower that pointed something out.
    And we can talk about fraud in the food stamp program, 
because we have had a person come up here to show there is a 
minimum of $1 billion in food stamp fraud. USDA says there is 
$4 billion to $7 billion in food stamp fraud. And if we are 
really concerned about the integrity of this program, well, 
again, by God, we ought to be able to come together and fix 
that for the American people, because we are in charge of their 
money.
    I want to move on to something, because I am on a roll 
here.
    Mr. Barnes. Can I respond to that?
    Mr. Yoho. Quickly.
    Mr. Barnes. Because with all due respect, if the percentage 
was so high, why are we using the same example over and over 
again?
    Mr. Yoho. Of what?
    Mr. Barnes. The guy in Minnesota. If there are so many 
people, why are we using the same person over and over again as 
an example?
    Mr. Yoho. Because that has been brought up to my attention, 
but I can show you the fraud on the food stamps out of 
Jacksonville. In fact, we had that person up here, and we 
invited the Ranking Member to come see the demonstration and 
the facts of people selling food stamps, EBT cards, 50 on the 
dollar, of millions of dollars in Jacksonville.
    Ms. Davis, I want to move on to, of the people that are on 
food stamps, on SNAP, of the 39 million people, roughly, on 
SNAP, your figure states that only 4.2 percent were the BBCE 
category. Is that correct?
    Ms. Lisa Davis. It is 4.2 percent have gross incomes 
between 131 percent of poverty----
    Mr. Yoho. But those are the ones that are on broad-based 
categorical eligibility, is the way I understood that.
    Ms. Lisa Davis. Well, those are the people that would have 
eligibility conferred through broad-based categorical 
eligibility.
    Mr. Yoho. All right. But when I did the math, it equates to 
about $2.7 billion. If we have people that can qualify that 
shouldn't be on that, why don't we want to tighten that up?
    Ms. Lisa Davis. One area that is often misunderstood is 
that the first step is looking at gross eligibility. And broad-
based categorical eligibility raises that to between 131 
percent and 200 percent of poverty.
    Mr. Yoho. The reforms we put in the last bill----
    Ms. Lisa Davis. We still have to look at net income after 
deductions. And so, for families that have----
    Mr. Yoho. Well, the last farm bill that Chairman Conaway 
tried to put through raised the assets somebody could have. 
Their car was $3,000, in the old days, and it went to $12,000. 
They could have X amount of dollars in assets. And it got beat 
down in this Committee, and it didn't pass.
    And it is unconscionable that Members of Congress can't 
come together to fix a program, again, for the American people 
and the people that truly need it.
    I yield back.
    The Chair. Thank you.
    Mrs. Hayes, you are recognized for 5 minutes.
    Mrs. Hayes. Thank you, Madam Chair.
    And thank you to all the witnesses that are here today.
    And I agree with my colleague on the other side that when 
we identify that someone is committing fraud or fundamentally 
shifting our institutions that we should do something about it, 
and that is not a partisan issue.
    I want to walk you guys through an equation, because we are 
talking about SNAP benefits, and I have been on the other side 
of those benefits. Being in this room and in this Committee 
hearing is somewhat personal for me.
    First of all, the number of people receiving benefits goes 
up even though our employment rates are down because children 
don't work.
    If you have a family of four--I am going to talk about in 
my home State of Connecticut. The eligibility for a family of 
four is $3,870 a month. That is how much has to be earned. My 
guess is, in that family, at least two, possibly three, of 
those people are children, that breaks down to $967 a week.
    In my state, where the minimum wage is $10.10, if it is two 
adults, they are working--it is 95 hours a week, so one person 
is working 40 hours, another person is working 55 hours, but 95 
hours a week at minimum wage in order to meet the threshold. I 
know this because I worked three jobs and still qualified for 
SNAP benefits because I fell under the threshold.
    Of that number, you would receive $642 a month in benefits, 
which breaks down to about $160 a week for a family of four. 
That is $40 per person per week. A gallon of milk is $3.99 in 
my state, which means ten percent of your per-person weekly 
budget on SNAP would go to just buying a gallon of milk.
    Nobody is taking advantage of that. When you really look at 
it, that is what it means.
    I am going to back up a little, because I have been accused 
of being a single-issue person who only cares about children 
and education, and you are probably not wrong. But on the flip 
side of that, my grandmother, when we took care of her at home 
when she was suffering with Alzheimer's, received benefits. One 
person, elderly, $68 a month.
    When we are having a conversation about fraud and abuse and 
misuse, and a family of four, which could potentially have two, 
possibly three, children, boiled down to $40 per person per 
week, and that is where we are looking to cut? That is where 
something is fundamentally wrong and unconscionable.
    Ms. Davis, thank you so much for the work that you are 
doing with No Kid Hungry, because while we are here debating 
loopholes and eligibility and requirements, kids are going 
hungry. And they don't have time for us to sit around and play 
these partisan games. These are programs that people depend on, 
and not as a handout, but sometimes people just need them as a 
step up to get themselves started. I worked three jobs, and 
still qualified for benefits?
    And most of the children have no control over, like Mr. 
Barnes said, their family finances. I know I didn't.
    But I digress, because I get so worked up when I am on 
these committees and I hear people who are having conversations 
about kids who can't defend themselves, who just need for us to 
speak up for them until they can speak for themselves, who just 
need us to stand in intercession until they can stand.
    And I am probably going to use my whole 5 minutes 
editorializing, but I need for you to understand that we are 
having a hearing on something that is impacting people's lives 
right now. This is serious.
    Mr. Barnes, you talked about you not receiving benefits as 
a child but then as an adult. And there are a lot of people who 
are in that situation as well. And if you could just talk to us 
a little bit about what that is. Because it is not these 
generational shifts that people are talking about or this 
cyclical poverty. Sometimes people just fall on hard times.
    Mr. Barnes. Well, absolutely. And the last thing I wanted 
to do was to stay receiving those benefits. I was working a 
full-time job. And I finished college in 2008, quite possibly 
the worst time to ever finish college if you wanted a job. And 
I ended up getting one, and before I was laid off, my hours 
were cut by maybe about 40 percent, which then put me in the 
category where I was ineligible for SNAP benefits as well as 
everything else, energy assistance, whatever the case was.
    And, ultimately, after I got laid off, I was on 
unemployment, and that was not a place that I wanted to be. The 
last thing I wanted to do was be unemployed as an adult, a 
single adult. And so finding a job was tough in 2010. It was 
very difficult.
    Mrs. Hayes. Even with an education and a work history?
    Mr. Barnes. With an education and with work history. It is 
not easy.
    Mrs. Hayes. Thank you. I knew that, but I just wanted to 
hear you say it.
    Mr. Barnes. Yes.
    Mrs. Hayes. Please say hello to my friend Tony Evers.
    Mr. Barnes. I will.
    The Chair. Thank you.
    Mr. Hagedorn, you are recognized for 5 minutes.
    Mr. Hagedorn. Thank you, Madam Chair. I appreciate the 
hearing that you are holding.
    Thanks to the witnesses.
    One of the reasons I wanted to serve on the Agriculture 
Committee was twofold: to make sure that we can sustain our 
incredible system of agriculture that produces the finest-
quality, affordable products in all the world for the American 
people and for a lot of people around the world. And that food 
supply is abundantly important. People go into the grocery 
store, they have an opportunity to select from this array of 
choices--it is an incredible thing. And I like to talk about 
and champion that every chance we get. It doesn't happen in 
every country around the world.
    But then there is a second part of the ag bill that is 
important and why I wanted to serve: the nutrition programs. 
The United States of America and our taxpayers, our citizens 
are the most generous people in all the world. We provide a 
safety net for folks to make sure that people, when they are 
down on their luck, or for whatever reason they need help, and 
we get them that help.
    But what we need to do is make sure we are good stewards of 
that money and that those resources are directed to the people 
that actually need the help. And if there are folks out there 
receiving benefits that shouldn't, those resources should be 
directed either back to the General Fund of the Treasury or to 
the people that need it even more.
    And so I think that is what this hearing is about. We are 
talking about these issues. And we even had the Chairman of the 
Committee, Mr. Peterson, I guess in the previous Congress, and 
he brought that up. He is from my home state. I believe the 
gentleman that is here who kind of showed that there is maybe a 
problem about the system here and there, Mr. Undersander, he is 
from the State of Minnesota. And Mr. Peterson said at one 
point, he said, ``We in Congress have created a system where 
states set the rules in some cases and then we are left paying 
the bills.''
    And he is right. Because the government, even though the 
Federal Government provides moneys to the states, the states 
get to administer the programs. And what has happened over the 
years, is the programs have gotten a little bit out of whack. 
They have been liberalized in some areas that maybe is not 
helping everybody.
    But are there areas where we should tighten it up? Of 
course. Should we have a biometric E-Verify to make sure that 
illegal aliens are not collecting Federal welfare dollars, 
which is against the law? Absolutely. Why do we want to send 
our taxpayer dollars there? Should we be doing everything we 
can to make sure people are not collecting in multiple states, 
which happens from time to time? You know, there are people out 
there that try to exploit our systems. We want these resources 
to be directed to the people that need it.
    And then we have the case where this asset test, 
technically, you can walk through, and Mr. Undersander said, 
``Hey, I can collect. I don't think I should, but do something 
about it.'' All right, we should do something about it. And 
maybe as Mr. Barnes and others said, it doesn't affect every 
case, doesn't affect that many. But it shouldn't happen. We 
should all agree it shouldn't happen.
    But when you look at what is going on, I used to work for a 
Congressman that served on this Committee in the 1980s, Arlan 
Stangeland. He led the Republican work-for-welfare bill and 
work requirement bill back then. And that bill was 
fundamentally passed by President Clinton, who signed it, Newt 
Gingrich and the Republicans in Congress, some fair-minded 
Democrats who joined us on that, to increase the work standards 
and technical training and other requirements for people that 
collect welfare, including food stamps.
    That bill was very successful. It drove down the rates, 
saved costs. People got back into private-sector and other 
work. And I think it was a good thing.
    But, for many purposes, that legislation was undermined by 
the 2009 stimulus Act and many of the Obama Administration 
rules that allow waivers for states to basically ignore the 
work requirements. And so the USDA is working on that to try to 
tighten that up. I support them on that fundamentally and 
wholeheartedly.
    Because, in many instances, a lot of these asset tests and 
others maybe go by the wayside when you say to people, ``If you 
are collecting benefits and you are able-bodied, we need you to 
either get in there and get some technical training so you can 
get into the workforce, have an upwardly mobile job, or work 
for your welfare the same way the taxpayers do and give 
incentive to try to get off the programs.''
    But I will tell you this. I think that the most 
compassionate thing that Members of Congress can do is to say 
we need to take people from government dependence, welfare, and 
move them to technical training, move them to work, move them 
to self-sufficiency. That is the most compassionate thing we 
can ever do.
    And, the mandates for able-bodied citizens, it is just 
common sense, I think. And every person in our society, every 
potential worker has worth and value, and we should never 
stymie their success and their upward mobility because of 
government programs, bad government, even in the name of 
compassion.
    With that, I yield back. Thank you.
    The Chair. Thank you very much.
    Mr. Davis, you are recognized for 5 minutes.
    Mr. Davis of Illinois. Thank you, Madam Chair. It is great 
to be here. Sorry I was a little late today. As you know, the 
great convenience of serving on multiple committees. Thank you 
for your patience.
    And thank you to the witnesses. I will let the witnesses 
know that, although there are two Davises on the panel, I don't 
believe we are related. If we are, if it is showing up in your 
23andMe, let me know.
    This is a great opportunity to discuss where the future of 
our SNAP program and categorical eligibility leads us to. And 
we have to look at data, we have to use technology. I am sure 
in much of the hearing that I was unable to attend we talked 
about technology.
    I don't want to rehash a lot of the issues that were 
brought up, but we are at a different time than when Mr. Barnes 
graduated from college and a different time than when I 
graduated from college, where the economy wasn't ticking as 
well as it is now, unemployment was a lot higher than it is 
now. And, right now, we have to have systems set up in place 
that encourage families who may be eligible to get training for 
the jobs that we know are available.
    We talk about the SNAP Education and Training Program. I 
like to think that I am a pretty bipartisan person. The Lugar 
Center says I am. This Committee has been one that has been an 
epitome of bipartisanship.
    But instead of working together and trying to figure out a 
way to help families who may be stuck in the cycle of poverty 
and eligible for food stamps, eligible for SNAP benefits that 
nobody on this dais wants to take away from those who need that 
benefit, we ran into issues of investing more money into SNAP 
Education and Training to help families that may have more 
children, like was mentioned earlier, that are adding to our 
SNAP rolls.
    And we want those kids to get food, we want them to get 
fed, and we want them to get nutrition, not just at school but 
at home and during the summers. But, at some point, we also 
want to make sure that their parents, their families, have an 
opportunity to take advantage of where we are as a country 
economically right now.
    I have jobs in my district, in my hometown of 11,000 
people, that will pay $70,000 a year to drive a truck to 
deliver fast food to restaurants and be home virtually every 
evening, and they can't fill the jobs.
    Why aren't we looking at our SNAP program, too, to find out 
who may be on the border of qualification when it comes to 
categorical eligibility? Why aren't we looking to them to work 
together and increase SNAP Education and Training funding to 
get that person, that family, paired up with our local 
community college to get that certification to get that job 
that is available? Why can't we do that?
    Data doesn't lie. The data shows we have many families that 
could take advantage of this economy that we see right now, 
that could go from one day using what we call our Link card in 
Illinois, wondering what you can and cannot buy at the grocery 
store for your family and the kids that you want to feed, you 
want to get them good, nutritional food, and you wonder what 
you can buy and what you can't buy. Imagine if we gave them 
those same SNAP benefits and we also paid for their education 
and training and then we paired them up with a job. And they 
went from wondering what they could buy--and, 8 weeks later, 
after, let's say, one of their parents got a CDL and took that 
job at McLane Trucking in Taylorville, Illinois, let's say they 
went to making $70,000 a year. Why aren't we working there?
    Why do we have debates over, well, we shouldn't have a 
verification process, we should have a verification process? We 
know there are people that are going to take advantage of any 
program. We ought to work together to root that out. We ought 
not protect that type of situation.
    I know I have the red light, but I know, Madam Chair, Ms. 
Fudge, is going to let you answer a question, Dr. Davis. But I 
am going to take you right down to the wire. She knows I am 
usually good at this.
    Dr. John Davis. Pressure.
    Mr. Davis of Illinois. Yes. I have 37 seconds.
    Listen, we know the best thing we can do, besides having us 
come up with the money to invest and pair families who are 
stuck in the cycle of poverty up with a job, with training to 
get that job, we also know that technology shows us who they 
are. Explain to me how technology in your state is working to 
do what I said we need to do.
    Dr. John Davis. Thank you, sir.
    We have partnered with our local university, Mississippi 
State University, working with technology to actually identify 
those individuals. We have actually helped 200,000 individuals 
come off of the program in the past 18 months, and they are in 
a job placement. We can track them now through that technology, 
through the state longitudinal data system, which I preside 
over.
    We also know that, by doing that, by empowering those 
individuals through public-private partnerships with companies 
like KLLM, a trucking company who have hired those individuals, 
that we can find sustainable wages for that individual and that 
family.
    Mr. Davis of Illinois. And you didn't take any SNAP 
benefits away from those families.
    Dr. John Davis. None. None.
    The Chair. The gentleman's time has expired.
    Mr. Davis of Illinois. Sorry to interrupt you. I knew I 
would end it.
    Dr. John Davis. It was good.
    The Chair. Listen, he better be glad I like him, because I 
gave him more time than he should have had.
    Dr. John Davis. Thank you, ma'am.
    Mr. Davis of Illinois. Thank you, Madam Chair.
    The Chair. I see you can speed-talk. You sound like one of 
those people on the commercials that talk real fast.
    I recognize myself for 5 minutes.
    I was just listening to your answer, Dr. Davis, even though 
I cut you off. It is interesting how well your program is 
working. It is a good thing that you were able to do it within 
your own state the way that you wanted to do it, isn't it?
    Dr. John Davis. Yes, ma'am.
    The Chair. The flexibility is exactly what you need, right?
    Dr. John Davis. Well, from the standpoint of we have had 
the advantage of working with closely with our Federal 
partners----
    The Chair. Turn your microphone on.
    Dr. John Davis. I am sorry.
    From the standpoint of we have worked closely with our 
Federal partners in developing that program through a continuum 
of process through our regional office and our national office. 
Mississippi and Alabama have partnered with our regional 
offices to do that, along with the Department of Labor, 
Department of Health and Human Services, as well as USDA, to 
make that happen.
    The Chair. Great. Thank you.
    I was listening to the Ranking Member, and he talked about 
we should have some say-so because it is Federal money. Do you 
remember that?
    Dr. John Davis. Yes, ma'am.
    The Chair. Do you also know that you get money for 
education from the Federal Government and they want to tell 
states to do their own education?
    Do you realize that you get money for Medicaid from the 
Federal Government?
    Dr. John Davis. Yes, ma'am.
    The Chair. They want states to do that too.
    Do you realize that you get money for roads, for bridges? 
They want to do that too.
    I don't understand why they just pick this one thing and 
say, ``Nope, you shouldn't have any flexibility.'' You get 
money from the Federal Government for a lot of things that we 
need to hold you responsible for.
    Dr. Waxman, a wide range of states and territories, 
including those led by Democratic and Republican Governors and 
officials, are using broad-based cat-el to connect SNAP to 
households that may have a slightly higher income but still the 
need of assistance.
    Why is it important to support this population that is 
working its way out of poverty?
    Dr. Waxman. Thank you for that question.
    I notice that some of the Members have mentioned the 
importance of emphasizing and supporting work. And, in fact, 
raising that gross income eligibility level does exactly that. 
Most of the people who are brought into the program then have 
higher income; more of them have earnings. And they are at risk 
of being less well off if they get a small raise, often, even 
though they are doing exactly what we would ask them to try to 
be on the path to self-sufficiency. If the benefits are lost 
and they don't have that ability to raise their income without 
losing the benefits, that is really a challenge.
    The other thing we want to know is that those households 
are disproportionately likely to have children. Those are also 
often working families with children, again, on the path that I 
think we would all emphasize.
    So it gives flexibility. And we need to realize that 
working families encounter a lot of expenses. Childcare is 
huge. And high housing costs is one of deductions that we are 
allowed to use under that BBCE.
    The Chair. Thank you.
    It is interesting that my colleagues talk about training 
and about work and able-bodied and all of that. Most of the 
people we are talking about work. Am I correct?
    Dr. Waxman. That is correct.
    The Chair. I am not sure where the disconnect is. Most of 
the people we are talking about do work. They just don't make 
enough money to get by. They need a little help at the end of 
the month. It is not as if they are not trying. You know, we 
would make people believe that people don't want to work.
    Mr. Davis, my friend, even though we disagree on almost 
everything, Mr. Davis talked about--well, not everything, but 
most--Mr. Davis talked about people with CDLs. Do you know why 
that is a difficult problem in certain communities? Because you 
can't have had a ticket. You can't have had a DUI. You can't 
have had other problems.
    People who are poor have more difficulty, because people 
who have means, when they make mistakes, they get in a 
diversion program. They have somebody expunge their record. 
They do a lot of things that people who are just making it 
cannot do. That is why there is a difference.
    We have to understand that every single community, every 
single person is different. People do the best they can. Is 
there probably some person in the world that doesn't want to 
work? Maybe. But I don't know them. And I represent one of 
poorest districts in the United States. They come to my office 
every day wanting to find a job. We send them to community 
colleges for training programs, and then people don't want to 
hire them.
    I know that there are impediments. This is not all rosy. 
People have challenges. Yes, we need to train more people to 
work. I wish every single person in this country worked. But we 
don't.
    And the reality is most of the people who are on SNAP 
either work or cannot work. They are either disabled, they are 
the elderly, they are children. They cannot or they do. And so 
I just want to make sure that everybody understands that.
    And, with that, I am going to yield to the Ranking Member 
for his closing remarks, 5 minutes, Mr. Johnson.
    Mr. Johnson. Thank you very much.
    I want to say how much I appreciated the tone of Mr. Van 
Drew. I mean, he clearly is attempting to find common ground. 
And we actually heard that not just from him but from a number 
of people today, and that gives us a path forward, which is 
good news.
    Ms. Schrier, I am just such a fan of hers, and she is so 
smart. And so the point she brought up about this one percent 
fraud, that is a different number than I had seen before. If we 
could ask for that data and have that in the record.
    And, accordingly, I had been asked to provide some 
information on my 96 percent to 99 percent----
    The Chair. Ninety-nine.
    Mr. Johnson. Yes, 99, but both numbers are in here as well. 
I will provide that to staff.
    [The information referred to is located on p. 109.]
    Mr. Johnson. Somebody used the word, whistleblower, to 
describe Mr. Undersander, and that is the right approach. His 
actions were not motivated in any way to enrich himself. That 
money that he received--I don't know if this has come to the 
fore, but I want to make it clear--it was donated to charities 
that help poor people. He is a whistleblower who wanted to 
effect change within the system. We should celebrate 
whistleblowers in this society to a greater extent than we do.
    I appreciated Ranking Member Conaway's comments about the 
need to have a fulsome conversation. There are some changes 
that need to happen in this system if we are concerned about 
the benefits cliff, and I am. Some of the panelists did a good 
job of explaining it. Then let's change that. Let's have an 
honest reform of that system rather than through distortions of 
the existing system. If we think the asset test is artificially 
low, if it is antiquated--and I do--then let's change that 
rather than kind of ignore it through distortions of our 
existing system.
    I want to end with a comment that I made, Madam Chair, 
during my opening remarks, which is something that I believe 
with my whole heart and that I think every Member on this dais 
throughout the day believes in their whole heart: we need this 
program, and we need this program to be effective.
    And so many of the things we heard from the panelists today 
reinforce the fact that that program is worthy and is needed 
but maybe obscured some of the improvements that can happen 
through a reform of the cat-el system.
    Thank you.
    The Chair. I thank you, Mr. Johnson. And I really very much 
appreciate the comment that we do need it. And so when USDA 
comes forward with a rule to try to get rid of it, let's just 
stand together.
    Why was that funny?
    Let me just say a couple of things in closing.
    First off, I thank you all for your testimony. I thank you 
for your time.
    I thank all of my colleagues for their time. Mr. Davis is 
right. I am on three committees. He is probably on three. We 
are constantly moving. And for the entire Committee to have 
shown up today shows the importance of this topic. I thank you 
all for being here.
    I take hunger very seriously, because I know what hunger 
does to children. I represent some of the wealthiest people in 
the world, and I absolutely represent a lot of the poorest. And 
I know, from the people I talk to every day, what a parent 
feels when their kid is hungry, what a hungry kid feels when 
they go to school. I take it very, very seriously. I take 
preparing young children for a successful future seriously.
    I believe that you are right, Mr. Barnes; we should not 
only allow them to have a meal in school and go home hungry, or 
go to an after-school program where they can't get milk or 
juice, or go all summer when school is out and not have a 
decent meal for almost 3 months. I agree with you. We have to 
find a way to make sure that hungry people can eat all of the 
time and not just when they fill out the proper form for the 
proper place.
    It is very, very important to me that the system work. Now, 
I don't have a problem with whistleblowers. I really don't. But 
when you purposely set out to find a way to make a system that 
has worked for so long look bad just for sport, there is a 
problem with me. It is great that he gave the money to charity, 
but it wasn't his money to give. I hope he didn't take it off 
on his tax return.
    I just think that we have to understand who we are. And 
what we are is people who are trying to do the best for the 
people who sent us here. I will do whatever it takes to make 
sure that hungry people are fed. We are in the richest nation 
in the world. There should not be hungry children, there should 
not be hungry seniors, there should not be hungry disabled 
people in this country.
    And so, if we blow it once or twice, let's fix it. Let's 
not try to destroy it because somebody found a loophole or 
someone found a problem. Let's fix the problem. I am glad he 
showed it. I don't like the way he did it, but let's fix the 
problem. Let's not just throw out the baby with the bath water 
because some wise guy decided that there was a problem.
    I am going to stop before I go any further.
    Let me just say that, under the Rules of the Committee, the 
record of today's hearing will remain open for 10 calendar days 
to receive additional material and supplementary written 
responses from the witnesses to any question posed by a Member.
    This hearing of the Subcommittee on Nutrition, Oversight, 
and Department Operations is adjourned.
    [Whereupon, at 3:50 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
 Submitted Article by Hon. Dusty Johnson, a Representative in Congress 
                           from South Dakota 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

https://www.sctimes.com/story/opinion/2016/09/28/state-needs-asset-
test-food-stamps/91183584/
State needs asset test for food stamps
Opinion
St. Cloud Times
Rob Undersander, St. Cloud
Published 7:05 a.m. CT Sept. 28, 2016

    Reinstate asset testing, including retirement accounts, with excess 
value determination for one's house and car.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          (Photo: St. Cloud Times)
Story Highlights
  <bullet> If I say I'm a millionaire receiving food stamps, I have 
        attention for change.

  <bullet> Prior to 2008, asset testing was done in most states.

    I volunteer at a local agency assisting seniors with health 
insurance and other needs. During formal training for this work, I 
learned asset testing was not required for food stamps.
    My wife and I are both retired. We worked hard, raised our family, 
saved money for retirement and now live very comfortably. In fact, our 
net worth exceeds $1 million. We also applied for and are now receiving 
food stamps--$278 per month! This is wrong--so wrong.
    Food stamps, or the Supplemental Nutrition Assistance Program as 
it's now called, should be made available to only those in need, not 
people like my wife and myself. Why are we eligible? Because 
eligibility in Minnesota is based on income only, not assets.
    The program was started in 1965 under the Lyndon Johnson 
Administration. In 1969 there were 2.9 million participants. Today, 
there are 44.4 million Americans, almost one in seven, receiving 
benefits, at a cost to the taxpayer of $74 billion annually! The 
average benefit in Minnesota is $118 per person per month. Since 
October of 2012, the number of participants has dropped by only 6.5 
percent. Unemployment has dropped a whopping 37 percent in the same 
period. If more people are working, fewer should need food stamps.
    In the spirit of making positive suggestions instead of negative 
criticism, here are four recommendations for SNAP improvement:

  <bullet> Reinstate asset testing, including retirement accounts, with 
        excess value determination for one's house and car. Our high 
        mortgage payment qualifies us for a higher benefit because 
        benefit levels are based on net income.

  <bullet> Expand the Able[-]Bodied Adult Without Dependants age from 
        18-49 to 18-62. The adults can only receive 3 months of 
        benefits in a 36 month period. Seniors, like myself, are not 
        required to work to be eligible. We should!

  <bullet> Count Social Security Benefits at age 62 as part of the 
        applicant's income whether they are received. I am 63, but 
        elect to wait to age 66 for SSB. I would not receive any food 
        stamps if I were receiving SSB.

  <bullet> Eliminate non-nutritious and luxury food items such as soft 
        drinks, energy drinks, candy, snacks, desserts and so on. I 
        have purchased lobster and filet mignon on my EBT card!

    So why do we take the money if we know it's wrong? Three reasons:

  <bullet> To make a point and raise public awareness. If I stated in 
        casual conversation with someone that I was doing research on 
        SNAP and discussed asset testing, their eyes would probably 
        start to glaze over. If I say I'm a millionaire receiving food 
        stamps, I have their attention.

  <bullet> To redistribute the money to those who really need it. We 
        intend to give every dollar we receive to charities or 
        individuals in need. Obviously, we are far more qualified than 
        state and Federal legislators in this regard because they are 
        giving benefits to us!

  <bullet> To recover unnecessary taxes levied by politicians. For 
        example, the $2 billion surplus in Minnesota state coffers.

    Prior to 2008, asset testing was done in most states to determine 
eligibility as it still is for many public assistance programs. The 
2008 Food and Nutrition Act (part of the 2008 Farm Bill), in addition 
to changing the name from Food Stamps to SNAP, changed that by 
eliminating education and retirement accounts from asset testing--
apparently in an effort to encourage people to save money.
    Seriously? Did they really think people who could not afford food 
would continue contributing to their [401(k)] accounts, albeit at the 
expense of the taxpayer?
    Thirty-five states took that as a sign to eliminate asset testing 
altogether. Pennsylvania, under Democratic Gov. Ed Rendell, was the 
first in 2008. The following year Republican Gov. Tom Corbett reversed 
that decision after hearing about two people in Michigan who had won 
more than $1 million and were still receiving SNAP benefits.
    We want to be that couple in Minnesota!

          This is the opinion of Rob Undersander, who was born and 
        raised in the St. Cloud area. He left for 38 years, serving as 
        a U.S. Navy officer, and worked in the oilfield, aerospace and 
        homeland security industries around the country, including 
        Texas for many years, where he participated in local 
        government. He returned to retire on his family's land west of 
        St. Cloud.
                                 ______
                                 
 Submitted Report by Hon. Dusty Johnson, a Representative in Congress 
                           from South Dakota 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Setting the Record Straight on Food Stamp Loopholes & School Lunches
June 20, 2018
Nic Horton, Research Director; Jonathan Ingram, Vice President of 
Research.
What are free and reduced-price lunches and who qualifies?
    The National School Lunch Program (NSLP) provides free and reduced-
price lunches for school-age children across America. There are two 
primary eligibility pathways for children to qualify for the program: 
income eligibility and categorical eligibility.<SUP>1-2</SUP> 
---------------------------------------------------------------------------
    \1\ Randy Alison Aussenberg, ``School meals programs and other USDA 
child nutrition programs: A primer,'' Congressional Research Service 
(2016), http://nationalaglawcenter.org/wp-content/uploads/assets/crs/
R43783.pdf.
    \2\ Children can also receive free meals through the ``community 
eligibility provision,'' an option that allows schools to provide free 
meals to all students so long as at least 40 percent of their students 
are categorically eligible for free meals.
---------------------------------------------------------------------------
    Kids who enroll in the program through the income pathway can 
receive free or reduced-price lunches if their household incomes are 
below 185 percent of the Federal poverty level--nearly $46,500 per year 
for a family of four.\3\ Those with household incomes below 130 percent 
of the Federal poverty level qualify for free lunches, while kids from 
homes with incomes between 130 percent and 185 percent of the poverty 
level qualify for reduced-price lunches.\4\ Under Federal law, schools 
are prohibited from charging more than 40 for a reduced-price 
lunch.\5\
---------------------------------------------------------------------------
    \3\ Food and Nutrition Service, ``Child nutrition programs: Income 
eligibility guidelines,'' U.S. Department of Agriculture (2018), 
https://www.gpo.gov/fdsys/pkg/FR-2018-05-08/pdf/2018-09679.pdf.
    \4\ Randy Alison Aussenberg, ``School meals programs and other USDA 
child nutrition programs: A primer,'' Congressional Research Service 
(2016), http://nationalaglawcenter.org/wp-content/uploads/assets/crs/
R43783.pdf.
    \5\ Ibid.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Reduced-Priced Lunches Are Capped at 40
    Kids who enroll in the program via categorical eligibility qualify 
if their household is enrolled in Federal welfare programs, such as 
food stamps.\6\ They receive free meals regardless of whether their 
household income level actually meets the program's guidelines.\7\
---------------------------------------------------------------------------
    \6\ Ibid.
    \7\ Ibid.
---------------------------------------------------------------------------
What is broad-based categorical eligibility?
    Broad-based categorial eligibility (BBCE) is a loophole that allows 
states to expand eligibility for food stamps by raising the income 
limit, raising asset limits, or even waiving the asset limit 
entirely.\8\ Under Federal law, food stamp enrollees must have income 
below 130 percent of the Federal poverty level, roughly $32,630 for a 
family of four.<SUP>9-10</SUP>   However, Clinton-era regulations 
provided states with a workaround.\11\ By using TANF cash welfare 
dollars to print informational brochures or pamphlets, everyone 
authorized to receive those brochures or pamphlets are deemed 
``categorically eligible'' for the food stamps program, making them 
exempt from the gross income limit and the asset limit in food 
stamps.\12\ As a result, states can use this loophole to expand food 
stamps eligibility to individuals earning up to 200 percent of the 
poverty line and even expand eligibility to individuals with millions 
of dollars in assets.\13\
---------------------------------------------------------------------------
    \8\ Jonathan Ingram, ``Memo to FNS regarding executive order 
reducing poverty in America by promoting opportunity and economic 
mobility,'' Foundation for Government Accountability (2018), https://
thefga.org/wp-content/uploads/2018/04/Memo-to-FNS-4-10-18.pdf.
    \9\ 7 CFR  273.9 (2018), https://www.gpo.gov/fdsys/pkg/CFR-2018-
title7-vol4/pdf/CFR-2018-title7-vol4-sec273-9.pdf.
    \10\ Authors' calculations based upon 2018 Federal poverty 
guidelines. See, e.g., Office of the Secretary, ``Annual update of the 
HHS poverty guidelines,'' U.S. Department of Health and Human Services 
(2018), https://www.gpo.gov/fdsys/pkg/FR-2018-01-18/pdf/2018-00814.pdf.
    \11\ Jonathan Ingram, ``Memo to FNS regarding executive order 
reducing poverty in America by promoting opportunity and economic 
mobility,'' Foundation for Government Accountability (2018), https://
thefga.org/wp-content/uploads/2018/04/Memo-to-FNS-4-10-18.pdf.
    \12\ Ibid.
    \13\ Elizabeth Laird and Carole Trippe, ``Programs conferring 
categorical eligibility for SNAP: State policies and the number and 
characteristics of households affected,'' Mathematica Policy Research 
(2014), https://www.mathematica-mpr.com/download-media?MediaItemId=(913
5CB5F-F3E1-43E6-ADE2-C232B26593EB).
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
---------------------------------------------------------------------------
          $50,200 for a Family of Four

          Not only are these states expanding the program beyond the 
        Congressional intent and scope of Federal statute--they are 
        threatening resources for the truly needy.
Ending the BBCE loophole will preserve resources for the truly needy
    Eliminating the BBCE loophole is one of the most important things 
policymakers can do to protect limited resources for the truly needy 
and protect the food stamp program's integrity. Unfortunately, too many 
states are still on the wrong path.
    Today, 28 states and the District of Columbia have used this 
loophole to raise the income limit beyond the thresholds established in 
Federal law.\14\ Even more states have used the loophole to raise the 
asset limit or eliminate the asset test altogether.\15\ Not only are 
these states expanding the program beyond Congressional intent and the 
scope of Federal statute--they are threatening resources for the truly 
needy.
---------------------------------------------------------------------------
    \14\ Food and Nutrition Service, ``Broad-based categorical 
eligibility,'' U.S. Department of Agriculture (2018), https://fns-
prod.azureedge.net/sites/default/files/snap/BBCE.pdf.
    \15\ Ibid.
---------------------------------------------------------------------------
    A recent report prepared for the U.S. Department of Agriculture 
found that most income-eligible households with financial resources 
that exceed the Federal resource limit have more than $20,000 in 
countable assets.\16\ One in five had more than $100,000 in assets, 
including tens of thousands of households with more than $1 million in 
assets.\17\ Every dollar spent on individuals with significant 
financial resources or whose income is above the Federal eligibility 
threshold is a dollar that cannot be preserved for those who actually 
meet eligibility requirements.
---------------------------------------------------------------------------
    \16\ Karen Cunnyngham and James Ohls, ``Simulated effects of 
changes to state and Federal asset eligibility policies for the Food 
Stamp Program,'' U.S. Department of Agriculture (2008), https://
naldc.nal.usda.gov/download/26691/PDF.
    \17\ Ibid.
---------------------------------------------------------------------------
    Worse yet, anyone receiving food stamps as a result of the BBCE 
loophole is also deemed categorically eligible for free lunch, free 
breakfast, and other nutrition programs, meaning this abuse is not 
confined to just food stamps, but is spread across several other 
nutrition programs as well.
Eliminating BBCE would have little impact on the number of kids who 
        qualify for the school lunch program
    Eliminating BBCE should be a top priority for policymakers and 
would go a long way towards restoring program integrity. Doing so would 
have virtually no impact on the number of kids who qualify for the 
school lunch program, given the large overlap between school lunch and 
food stamp eligibility.

  1.  Nationally, more than 99.9 percent of school-aged kids on food 
            stamps would still qualify for the school lunch program

    Overall, more than 14 million of the 14.1 million school-aged kids 
on food stamps--more than 99.9 percent--would continue to qualify for 
the school lunch program.\18\ These children would either continue to 
receive free lunches because their families' household income is below 
130 percent of the Federal poverty level, or they would receive 
reduced-price lunches because their families' income is between 130 and 
185 percent of the Federal poverty line.
---------------------------------------------------------------------------
    \18\ Authors' calculations based upon data provided by the U.S. 
Department of Agriculture on food stamp enrollment among children 
between the ages of 5 and 17, disaggregated by household income-to-
poverty ratios, in Fiscal Year 2015. See, e.g., Food and Nutrition 
Service, ``Supplemental Nutrition Assistance Program quality control 
database,'' U.S. Department of Agriculture (2016), https://
host76.mathematica-mpr.com/fns/PUBLIC_USE/2015/qcfy2015_st.zip.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

          More Than 99.9% of School-Aged Kids on Food Stamps Would 
---------------------------------------------------------------------------
        Continue To Qualify for the School Lunch Program

  2.  Roughly 96.6 percent of school-aged kids on food stamps would 
            still qualify for free lunches

    Nearly 13.6 million school-aged kids on food stamps--roughly 96.6 
percent--would not be affected at all by eliminating the BBCE 
loophole.\19\ These children live in families with household incomes 
below 130 percent of the Federal poverty level. Even if the BBCE 
loophole were eliminated, these children would continue to qualify for 
free lunches based on their household incomes.
---------------------------------------------------------------------------
    \19\ Ibid.

  3.  In 36 states, no child would lose access to the school lunch 
---------------------------------------------------------------------------
            program

    Although most states use the BBCE loophole in some way, the gross 
income limit for food stamps is at or below 185 percent of the Federal 
policy level in 36 states--the same eligibility threshold as the school 
lunch program.\20\ If the BBCE loophole were eliminated, some of these 
children might be moved from ``free'' lunches to reduced-price lunches, 
but they would continue to qualify for and receive assistance from the 
school lunch program. Even in states with higher food stamp income 
limits that exceed the school lunch program threshold, the footprint 
would be virtually invisible.
---------------------------------------------------------------------------
    \20\ Food and Nutrition Service, ``Broad-based categorical 
eligibility,'' U.S. Department of Agriculture (2018), https://fns-
prod.azureedge.net/sites/default/files/snap/BBCE.pdf.

  4.  Of the kids affected by eliminating BBCE, 98.2 percent would 
---------------------------------------------------------------------------
            still qualify for the school lunch program

    Today, 14 states and the District of Columbia have set the gross 
income limit for food stamps at 200 percent of the Federal poverty 
line, higher than the income threshold for school lunch program 
eligibility.\21\ However, while income eligibility extends above 185 
percent, virtually all of the kids on food stamps in these states come 
from households with income below that level.\22\ As a result, the vast 
majority of these kids would still qualify for reduced-price lunches.
---------------------------------------------------------------------------
    \21\ Ibid.
    \22\ Authors' calculations based upon data provided by the U.S. 
Department of Agriculture on food stamp enrollment among children 
between the ages of 5 and 17, disaggregated by household income-to-
poverty ratios, in Fiscal Year 2015.
---------------------------------------------------------------------------
    Of the 484,000 school-aged kids in those states with household 
incomes above 130 percent of the poverty line, more than 475,000--
nearly 98.2 percent--come from households with income below the 
eligibility threshold for the school lunch program.\23\ While these 
kids would no longer qualify for ``free'' lunches if the BBCE loophole 
were eliminated, they would continue to qualify for reduced-price 
lunches, where costs are capped at 40 per meal.
---------------------------------------------------------------------------
    \23\ Ibid.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    

          98.2% of Affected Kids Would Still Qualify for the School 
        Lunch Program
          Eliminating BBCE would bring the school lunch and food stamp 
        programs back into alignment with their statutory foundations.

  5.  Kids who would no longer qualify never truly qualified in the 
            first place

    Altogether, fewer than 9,000 school-aged children on food stamps 
are from families with household income above the threshold for the 
school lunch program but below the threshold for food stamps.\24\ But 
these children would no longer qualify for one important reason: they 
never qualified in the first place.
---------------------------------------------------------------------------
    \24\ Ibid.
---------------------------------------------------------------------------
    By definition, these children are not from families in poverty. 
Indeed, those affected by the change have incomes that are either 85 
percent higher or 100 percent higher than the poverty line--roughly 
$46,500 to $50,000 per year for a family of four.\25\ For context, that 
is close to the median household income for the entire country and is 
actually higher than the median household income in some states.\26\
---------------------------------------------------------------------------
    \25\ Authors' calculations based upon 2018 Federal poverty 
guidelines.
    \26\ Gloria G. Guzman, ``Household income: 2016,'' U.S. Department 
of Commerce (2017), https://www.census.gov/content/dam/Census/library/
publications/2017/acs/acsbr16-02.pdf.
---------------------------------------------------------------------------
    While the BBCE loophole effectively expanded the school lunch 
program beyond the 185 percent set forth in Federal law, strictly 
speaking, these households never truly met the income limits needed to 
qualify for the program. Eliminating the BBCE loophole would correct 
this issue and bring both the school lunch and food stamp programs back 
into alignment with their statutory foundations, preserving resources 
for the truly needy.

          More than 99.9 percent of school-aged kids on food stamps 
        would continue to qualify for the school lunch program after 
        the BBCE loophole is eliminated.

    Bottom line: Scrapping the BBCE loophole should be a top priority 
for policymakers

    Eliminating the BBCE loophole and protecting resources for the most 
vulnerable should be a top priority for policymakers at both the state 
and Federal levels. While far too many states are still utilizing this 
loophole, momentum is thankfully starting to shift.
    Arkansas, Kansas, and Mississippi have all recently enacted 
legislation to prohibit the use of this loophole by state bureaucrats. 
Others--including Michigan and Maine--have begun to reduce the impact 
of the loophole and restore asset limits.
    Perhaps the most encouraging sign in years comes from Washington[,] 
D.C. The Trump Administration proposed eliminating the loophole 
altogether in its Fiscal Year 2019 budget.\27\ The Administration has 
also announced that it is working on changes to the regulations that 
created the loophole.\28\ Likewise, the Agriculture and Nutrition Act 
of 2018 would eliminate the use of the BBCE loophole entirely.\29\
---------------------------------------------------------------------------
    \27\ Food and Nutrition Service, ``2019 USDA budget explanatory 
notes for Committee on Appropriations,'' U.S. Department of Agriculture 
(2018), https://www.obpa.usda.gov/32fns2019notes.pdf.
    \28\ Office of Information and Regulatory Affairs, ``Revision of 
categorical eligibility in the Supplemental Nutrition Assistance 
Program,'' Executive Office of the President (2018), https://
www.reginfo.gov/public/do/eAgendaViewRule?pubId=201804&RIN=0584-AE62.
    \29\ Agriculture and Nutrition Act of 2018, H.R. 2, 115th Congress 
(2018), https://www.congress.gov/115/bills/hr2/BILLS115hr2rh.pdf.
---------------------------------------------------------------------------
    While pro-dependency interest groups are anxious to spin the 
elimination of this loophole as a cataclysmic assault on the poor that 
would take food out of the mouths of kids, the data show nothing could 
be further from the truth. More than 99.9 percent of school-aged kids 
on food stamps would continue to qualify for the school lunch program 
after the BBCE loophole is eliminated. Indeed, eliminating this 
loophole is a critical step towards restoring the food stamp and school 
lunch programs to focus on the most deserving.
    Ultimately, ending the BBCE loophole should be recognized for what 
it fundamentally is--the realignment of food stamp eligibility with 
Federal law, not a reduction in eligibility. For these reasons, 
policymakers should make eliminating this loophole a top priority.

  Appendix. 99.9 percent of school-age kids on food stamps would still
                  qualify for the school lunch program
------------------------------------------------------------------------
                                                         Kids Who Still
                       Food Stamp      Kids Who Still   Qualify for Free
       State          Income Limit    Qualify for Free     Or Reduced-
                    (Percent of FPL)       Lunches       Priced Lunches
------------------------------------------------------------------------
         Alabama               130%              100%              100%
          Alaska               130%              100%              100%
         Arizona               185%             94.2%              100%
        Arkansas               130%              100%              100%
      California               200%             97.7%              100%
        Colorado               130%              100%              100%
     Connecticut               185%             90.9%              100%
        Delaware               200%             93.7%             99.9%
     District of               200%               97%              100%
         Columbia
         Florida               200%             92.8%              100%
         Georgia               130%              100%              100%
          Hawaii               200%             92.2%              100%
           Idaho               130%              100%              100%
        Illinois               165%             99.4%              100%
         Indiana               130%              100%              100%
            Iowa               160%             94.8%              100%
          Kansas               130%              100%              100%
        Kentucky               130%              100%              100%
                Louisiana      130%              100%              100%
           Maine               185%             89.8%              100%
        Maryland               200%             90.4%             99.8%
   Massachusetts               200%             88.4%             99.2%
        Michigan               200%             95.5%              100%
       Minnesota               165%             92.8%              100%
     Mississippi               130%              100%              100%
        Missouri               130%              100%              100%
         Montana               200%             99.3%              100%
        Nebraska               130%              100%              100%
          Nevada               200%             96.3%             99.9%
   New Hampshire               185%             87.5%              100%
      New Jersey               185%             93.8%              100%
      New Mexico               165%             96.1%              100%
        New York               200%             97.4%             99.3%
  North Carolina               200%               95%             99.8%
    North Dakota               200%             93.8%              100%
            Ohio               130%              100%              100%
        Oklahoma               130%              100%              100%
          Oregon               185%               89%              100%
    Pennsylvania               160%             93.5%              100%
    Rhode Island               185%             93.1%              100%
  South Carolina               130%              100%              100%
    South Dakota               130%              100%              100%
       Tennessee               130%              100%              100%
           Texas               165%               95%              100%
            Utah               130%              100%              100%
         Vermont               185%             83.5%              100%
        Virginia               130%              100%              100%
      Washington               200%             92.2%              100%
   West Virginia               130%              100%              100%
       Wisconsin               200%             93.8%              100%
         Wyoming               130%              100%              100%
                                     -----------------------------------
  Total...........                              96.6%             99.9%
------------------------------------------------------------------------
Source: Authors' calculations based on data from the USDA quality
  control database.

                                 ______
                                 
  Supplementary Material Submitted by Hon. Mandela Barnes, Lieutenant 
                      Governor, State of Wisconsin
Insert 1
          Mr. Johnson. Yes. Do we have any idea how many of those 
        24,000 students come from families that are above 130 percent 
        of the Federal poverty line?
          Mr. Barnes. I don't have that number, but I can get that to 
        you.

    In June 2019, there were 171,811 children between the ages of 6 and 
18 on FoodShare living in 92,939 households. Of those, 8,802 children 
would have been expected to lose eligibility due to income if broad-
based categorical eligibility (BBCE) had been restricted to households 
receiving substantial and ongoing TANF benefits and households had been 
tested against 130% FPL on gross income and 100% FPL on net income.
    Please note that: FoodShare households above 130% FPL on gross 
income or above 100% FPL on net income in June 2019 did not receive 
substantial or ongoing TANF benefits with the exception of Wisconsin 
Shares childcare subsidies. Households receiving Wisconsin Shares 
benefits were discounted from this total.
    Households that only included members living with disabilities were 
discounted from this total since they can qualify as eligible for 
FoodShare through a different process than BBCE while having incomes 
that exceed 200% FPL.
    Wisconsin does not collect information from FoodShare members 
regarding assets. The restriction of BBCE to households receiving 
substantial and ongoing TANF benefits would be expected to result in 
some households losing benefits due to asset testing. Since asset 
information is not collected, it is not possible to calculate the 
number of households and individuals below 130% FPL on gross income and 
below 100% FPL on net income who could still be impacted.
    The figure for June 2019 is much lower than the previous figure 
from 2016 for several reasons. First, the 2016 figure was based on an 
entire calendar year which likely included a substantial degree of 
churn. Second, while total enrollment in June 2019 was 608,359 
individuals (when the unemployment rate was 2.9%), average monthly 
enrollment in calendar year 2016 was 718,272 (when unemployment 
averaged 4.2%). It is probable that the people who have left FoodShare 
were toward the upper levels of income among FoodShare households and 
that declining unemployment resulted in a higher level of increased 
level of labor force participation among FoodShare households that were 
already above the poverty limit than those below the poverty limit.
Insert 1a
          Mr. Johnson. Do you have any idea how many of them would be 
        more than 185 percent above the Federal poverty line?
          Mr. Barnes. Same response. I don't have that exact number, 
        but I can get that to you.

    If the limit was set at 185% FPL on gross income and 185% FPL on 
net income in June 2019, 443 children between the ages of 6 and 18 on 
FoodShare would have been expected to lose eligibility due to household 
income. As with the previous estimate, this does not reflect the 
possible impact of asset testing.
Insert 2
          Mr. Yoho. . . .
          Let me move on, because you said something else. ``It must be 
        noted that the categorical eligibility does not result in 
        substantial SNAP benefits going to non-needy families and does 
        not mean households automatically get SNAP. They must qualify 
        for benefits.''
          Do you have a number that says what substantial is? Because 
        you said it's not substantial, the people that are not needy 
        getting these.
          Mr. Barnes. Yes, I mean, we are talking about a few rare 
        occurrences. And, again----
          Mr. Yoho. What percentage? What percentage of all----
          Mr. Barnes. I can get that percentage back to you.

    In June 2019, Wisconsin residents received $63,960,291 in Federal 
SNAP benefits. If the proposed federal rule change had been in place, 
and households above 130% FPL in gross income or above 100% FPL in net 
income who were not receiving substantial and ongoing TANF benefits had 
not been eligible, then Wisconsin would have received $920,832 less in 
federal SNAP benefits. This is a decrease of 1.40%.
    This compares to the impact to enrollment which would reduce 
individual participants (all ages) by 6.25%, individual seniors by 
19.98%, and households by 7.41%.
    This is because SNAP is designed to gradually reduce benefits as 
incomes go up.
                                 ______
                                 
                          Submitted Questions
Response from Lisa Davis, J.D., Senior Vice President, No Kid Hungry 
        Campaign, Share Our Strength **
---------------------------------------------------------------------------
    ** Editor's note: the eight documents (six articles and two 
reports) referenced in this response are retained in Committee file.
---------------------------------------------------------------------------
Question Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
    Question. Ms. Davis, like you, I am deeply concerned about the 
impacts of this proposal on children's nutrition, especially in 
communities like the Pajaro Valley in my district, where all the 
elementary and middle schools participate in the school meals program.
    Ms. Davis, can you speak to the effects of this proposal on school 
children's cognitive and physical development?
    Answer. Research shows that childhood is a crucial milestone and a 
sensitive period for active brain or cognitive and physical 
development. However, adverse childhood experiences such as poverty and 
food insecurity significantly contributes to toxic stress, leading to 
cognitive dysfunction and unhealthy development for many low-income 
children.\1\ In particular, food insecurity in households with children 
is associated with deficits in cognitive development, behavioral 
problems, insufficient intake of important nutrients and poor health 
conditions in childhood.\2\ Other studies show that children who live 
in a food insecure household have poorer and lower physical or 
psychosocial functioning,\3\ and are more likely to be 
``developmentally at risk'',\4\ thereby adversely affecting their 
overall health and development.
---------------------------------------------------------------------------
    \1\ Hughes, Michael. 2018. Poverty as an adverse childhood 
experience. North Carolina Journal of Medical Policy Analysis and 
Debate. Vol. 79(1). http://www.ncmedicaljournal.com/content/79/2/
124.full.
    \2\ John T. Cook and Deborah A. Frank. 2008. Food Security, 
Poverty, and Human Development in the United States. Annals of the New 
York Academy of Sciences. 193-209. http://onlinelibrary.wiley.com/doi/
10.1196/annals.1425.001/epdf.
    \3\ P.H., Casey, et al. 2005. Child health-related quality of life 
and household food security. [Archives] of Pediatrics and Adolescent 
Medicine. https://www.ncbi.nlm.nih.gov/pubmed/15630058.
    \4\ R., Rose-Jacobs, et al. 2008. Household Food Insecurity: 
associations with at-risk infant and toddler development. Pediatrics, 
121(1). https://www.ncbi.nlm.nih.gov/pubmed/18166558.
---------------------------------------------------------------------------
    SNAP benefits play a vital role in improving the cognitive and 
physical development of children across the country. There is a strong 
body of research demonstrating that participation in or receipt of SNAP 
benefits is tied to a significant reduction in the level of food 
insecurity among children and families. One study showed that SNAP 
receipt is associated with a reduction in the likelihood of being food 
insecure by roughly 30 percent and the likelihood of very-low-food 
security by 20 percent.\5\
---------------------------------------------------------------------------
    \5\ Ratcliffe, Caroline and Signe-Mary McKernan. 2010. How Much 
Does SNAP Reduce Food Insecurity? Urban Institute: https://
www.ers.usda.gov/webdocs/publications/84336/ccr-60.pdf?v=0.
---------------------------------------------------------------------------
    The latest research from the National Academy of Sciences, 
Engineering and Medicine underscores that, participation in SNAP is 
associated with improving the overall well-being of children.\6\ Many 
other studies also found that SNAP participation significantly reduced 
the incidence of metabolic syndromes such as heart disease, obesity, 
and diabetes, and an increase in reporting good health conditions.\7\
---------------------------------------------------------------------------
    \6\ National Academy of Sciences, Engineering and Medicine. 2019. A 
Roadmap to Reducing Child Poverty. The National Academies Press. 
https://www.nap.edu/catalog/25246/a-roadmap-to-reducing-child-poverty.
    \7\ Hoynes, Hilary, et al. 2016. Long-Run Impacts of Childhood 
Access to Safety Net. American Economic Review, 106(4). https://
gspp.berkeley.edu/assets/uploads/research/pdf/Hoynes-Schanzenbach-
Almond-AER-2016.pdf.
---------------------------------------------------------------------------
    Restricting or eliminating the BBCE policy under SNAP would 
significantly reduce the number of children living in households who 
access SNAP, thereby putting them at greater risk of food insecurity 
and the negative cognitive and health consequences associated with 
this. These children will lose access to a program with demonstrated 
effectiveness at improving the overall health and well-being of 
children.
    What will further compound the health consequences of losing these 
SNAP benefits, is the added loss of their school meal access. No longer 
being eligible for SNAP means they may also lose their eligibility for 
free school meals. School lunch and breakfast are vital sources of 
healthy food for many low-income children across the country. Research 
shows that school meals provide better access to nutrition and vitamins 
and minerals, including iron and vitamin E, that are crucial for brain 
development.\8\ The research shows that the improved accessibility of 
the School Breakfast Program contributes to improved memory and 
cognitive achievements such as higher test score results among low-
income children.\9\
---------------------------------------------------------------------------
    \8\ Frisvold, David E. 2014. Nutrition and Cognitive Achievement: 
An Evaluation of the School Breakfast Program. Journal of Public Econ. 
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC4408552/; see also Centers 
for Disease Control and Prevention (CDC) fact sheet on the unique role 
Child Nutrition Programs plays in improving access to healthy meals and 
their contribution to improved cognitive performance and overall health 
of school children. https://www.cdc.gov/healthyschools/nutrition/
facts.htm.
    \9\ Ibid, David.
---------------------------------------------------------------------------
    Therefore, restricting access to both SNAP benefits and the school 
meal programs by restricting or eliminating the BBCE policy under SNAP 
will have a deleterious effect on the physical and mental development 
of school children.
Response from Elaine Waxman, M.P.P., Ph.D., Senior Fellow, Income and 
        Benefits Policy Center, Urban Institute
Questions Submitted by Hon. Jimmy Panetta, a Representative in Congress 
        from California
    Question 1. Broad-based categorical eligibility provides states the 
ability to adjust the gross income eligibility requirement to better 
reflect cost of living.
    I understand that at least 88,000 households and 168,000 
individuals in the state of California would lose their SNAP benefits 
if states do not have the ability to adjust the gross income 
eligibility requirement.
    This flexibility is absolutely critical for SNAP participants in my 
district, where the average price of a one-bedroom apartment in 
Monterey County is $1,800.
    Ms. Waxman, could you speak to the impact of eliminating broad-
based categorical eligibility on low-income families in states with 
high cost of living, like California?
    Answer. Thank you for the questions Congressman Panetta. 
Eliminating BBCE could have a significant impact on low-income families 
in many states, including states with a high cost of living, like 
California. BBCE has been a particularly important option for states 
that have both higher wages and higher costs of living, because it 
allows families with incomes somewhat above the Federal gross income 
limit of 130 percent of the Federal poverty level to apply for benefits 
and have the impact of significant expenses for basic needs considered 
in their eligibility determination. SNAP rules allow for the deduction 
of certain expenses in determining whether a household's net income is 
at or below the Federal poverty level. One of these expense categories 
is what is known as excess shelter costs: the amount that a household 
may be paying for housing that is in excess of 50 percent of the 
household's income after other deductions are considered. California is 
one of the top states for households experiencing severe rental cost 
burden and these households may be particularly likely to sacrifice the 
purchase of healthy adequate diets in order to keep their housing.

    Question 2. Do you think it is fair for all states to be held to 
the same gross income limit when there are such large discrepancies in 
cost of living?
    Answer. Low-income families struggle to meet basic needs in all 
areas of the country, but these challenges can be particularly acute in 
areas with high costs of living. The intent of BBCE, which was 
reaffirmed by Congress in the most recent farm bill, is to provide 
states with flexibility in setting a gross income limit that is 
responsive to the economic circumstances in their state. California 
currently uses (https://fns-prod.azureedge.net/sites/default/files/
resource-files/BBCE2019.pdf) * the BBCE program to allow for families 
up to 200 percent FPL to participate in the CalFresh program. By 
allowing the gross income limit to be at 200 percent of FPL instead of 
130 percent FPL for SNAP benefits for families, a state can help 
mitigate a potential benefit ``cliff''--or the risk that a family could 
be worse off if they are working to increase earnings. This flexibility 
is important to support working families, as well as all households 
facing high costs of living.
---------------------------------------------------------------------------
    * Editor's note: the fact sheet entitled, Broad-Based Categorical 
Eligibility, is retained in Committee file.
---------------------------------------------------------------------------
    The challenge of variation in costs of living across the country is 
also seen in the shortfall in SNAP benefits when relative price of food 
is taken into account. Geographic variation in costs is not taken into 
account when benefits are calculated. Nationally, the maximum SNAP 
benefit per meal is $1.86, but the average cost of a low-income meal in 
Monterey County (https://www.urban.org/does-snap-cover-cost-meal-your-
county) is $2.48--33 percent more than the per meal SNAP benefit.

                                  [all]
</pre></body></html>
